<html>
<title> - CRISIS IN COLOMBIA: U.S. SUPPORT FOR PEACE PROCESS AND ANTI-DRUG EFFORTS</title>
<body><pre>[Senate Hearing 106-299]
[From the U.S. Government Printing Office]


                                                        S. Hrg. 106-299

 
    CRISIS IN COLOMBIA: U.S. SUPPORT FOR PEACE PROCESS AND ANTI-DRUG 
                                EFFORTS

=======================================================================

                                HEARING

                               BEFORE THE

                     COMMITTEE ON FOREIGN RELATIONS
                          UNITED STATES SENATE

                       ONE HUNDRED SIXTH CONGRESS

                             FIRST SESSION

                               __________

                             OCTOBER 6, 1999

                               __________

       Printed for the use of the Committee on Foreign Relations

                               <snowflake> 
                      

 Available via the World Wide Web: http://www.access.gpo.gov/congress/senate


                    U.S. GOVERNMENT PRINTING OFFICE      
61-871 CC                   WASHINGTON : 2000


                     COMMITTEE ON FOREIGN RELATIONS

                 JESSE HELMS, North Carolina, Chairman
RICHARD G. LUGAR, Indiana            JOSEPH R. BIDEN, Jr., Delaware
PAUL COVERDELL, Georgia              PAUL S. SARBANES, Maryland
CHUCK HAGEL, Nebraska                CHRISTOPHER J. DODD, Connecticut
GORDON H. SMITH, Oregon              JOHN F. KERRY, Massachusetts
ROD GRAMS, Minnesota                 RUSSELL D. FEINGOLD, Wisconsin
SAM BROWNBACK, Kansas                PAUL D. WELLSTONE, Minnesota
CRAIG THOMAS, Wyoming                BARBARA BOXER, California
JOHN ASHCROFT, Missouri              ROBERT G. TORRICELLI, New Jersey
BILL FRIST, Tennessee
                   Stephen E. Biegun, Staff Director
                 Edwin K. Hall, Minority Staff Director

                                  (ii)




                            C O N T E N T S

                              ----------                              
                                                                   Page

Coverdell, Hon. Paul, U.S. Senator from Georgia, Chairman, 
  Subcommittee on Western Hemisphere, Peace Corps, Narcotics, and 
  Terrorism, Foreign Relations Committee.........................     2
DeWine, Hon. Mike, U.S. Senator from Ohio........................     8
    Prepared statement of........................................     9
McCaffrey, Hon. Barry, Director, Office of National Drug Control 
  Policy.........................................................    14
    Prepared statement of........................................    18
    Responses to additional questions for the record from Senator 
      Coverdell..................................................    53
Pickering, Hon. Thomas R., Under Secretary of State for Political 
  Affairs, Department of State...................................    31
    Prepared statement of........................................    39
    Responses to additional questions for the record from Senator 
      Coverdell..................................................    53

                                Appendix

Plan Colombia--Plan for Peace, Prosperity, and the Strengthening 
  of the State. Submitted by Secretary Pickering for inclusion in 
  the record.....................................................    55

                                 (iii)




   CRISIS IN COLOMBIA: U.S. SUPPORT FOR PEACE PROCESS AND ANTI-DRUG 
                                EFFORTS

                              ----------                              


                       WEDNESDAY, OCTOBER 6, 1999

                                       U.S. Senate,
                            Committee on Foreign Relations,
                                                    Washington, DC.
    The committee met, pursuant to notice, at 10:03 a.m., in 
room SD-419, Dirksen Senate Office Building, the Hon. Jesse 
Helms (chairman of the committee) presiding.
    Present: Senators Helms, Coverdell, Dodd, Feingold, and 
Wellstone.
    Also present: Senator DeWine.
    The Chairman. The meeting will come to order.
    Today's hearing of the Foreign Relations Committee will 
focus on Colombia. Weakened by an economic recession, Colombia 
is virtually alone in fighting guerrilla terrorists allied with 
the global drug cartels. And, because Colombia is the source of 
more than 80 percent of the cocaine and much of the heroin 
flooding America's streets and school yards, what happens there 
is certainly a primary interest, or should be, to every one of 
the rest of us.
    Without U.S. help, Colombia could lose this war, or the sad 
alternative of seeking to appease the narcoguerrillas. Either 
scenario would spell disaster for Colombia, their neighbors, 
and most important, to us, the American people.
    Since taking office, President Pastrana has pursued peace. 
The guerrillas have responded with a relentless campaign of 
violence. These guerrillas thrive on lawlessness, collecting 
more than $1 billion a year from drug trafficking, kidnappings, 
extortion, and ransoms.
    The guerrillas obviously stand to profit from prolonged war 
and chaos, and they will never surrender at the peace table 
what they cannot lose on the battlefield. Until the Colombian 
Government has the resources, training, and intelligence 
capability to raise the cost of war for the guerrillas, peace 
will remain out of reach.
    What is the U.S. Government doing to help? Too little, and 
maybe too late. We must pray that the latter is not the case. 
In any event, almost all of the support the United States sends 
to Colombia goes to the anti-drug efforts of the Colombian 
National Police, and only recently has the United States 
finally begun to provide some meager support to a new army 
counterdrug battalion.
    Now, while it is true that Colombia is now a large U.S. 
foreign aid recipient, the vast majority of this anti-drug 
assistance approved by Congress last year, over the 
administration's objections, I might add, has yet to reach 
Colombia. The U.S. Government can and must do better.
    First, just as the United States delegitimized the corrupt 
Samper regime, the United States must now mobilize 
international support behind Colombia's new government, its 
democratic institutions, and most of all, the rule of law.
    Second, we must boost the Colombia security forces, 
beginning with its counterdrug battalions, to fight the well-
armed narcoterrorists. I note that the United States law 
justifiably requires that any military units receiving U.S. aid 
must be--and I use the word carefully, because this is 
official--must be scrubbed for human rights violations. If the 
United States fails to act, Colombia will continue to hurdle 
toward chaos, and that would jeopardize not only the human 
rights of all Colombians, but those of the American victims of 
Colombia's poison peddling drug lords.
    The ranking member is not yet here, so we will proceed with 
a Senator whom I greatly admire since the first day I saw him 
in the U.S. Senate.
    Senate Paul Coverdell chairs the Western Hemisphere 
Subcommittee of the Foreign Relations Committee, and he does a 
remarkable job with it. We will later be joined by Senator Mike 
DeWine, of Ohio, who is working with Senator Coverdell to draft 
a Colombia anti-drug bill.
    Our second panel will consist of the drug czar, as he is 
called, a fine gentleman, General Barry McCaffrey, and then 
Ambassador Thomas Pickering, Under Secretary of State for 
Political Affairs. Senator Coverdell, we welcome you. Please 
proceed.

 STATEMENT OF HON. PAUL COVERDELL, U.S. SENATOR FROM GEORGIA, 
  CHAIRMAN, SUBCOMMITTEE ON WESTERN HEMISPHERE, PEACE CORPS, 
     NARCOTICS, AND TERRORISM, FOREIGN RELATIONS COMMITTEE

    Senator Coverdell. Thank you, Mr. Chairman, and thank you 
for those kind remarks. It is a pleasure to appear before you 
and the full committee today to discuss Colombia policy at such 
a pivotal time in that country's proud history. The fact that 
you are chairing this hearing is a testament to the importance 
that you place on this issue and the need to make it a 
priority.
    As you know, I am offering my thoughts on this issue from 
my perspective as chairman of the Western Hemisphere 
Subcommittee, and over the past several months, my subcommittee 
has examined the Colombia situation closely. We have held 
hearings, we have met with Colombian leaders, and have visited 
the country itself. My conclusions are simple. Colombia needs 
are immediate and substantial assistance.
    Before outlining the specifics of this assistance, I think 
it is important to frame the situation. Colombia is a sovereign 
and democratic government in violent conflict with a powerful 
guerrilla force. I might add, it has a rich history in 
democracy. I have been saddened to watch the casualties and the 
decay that this conflict has brought to these great people.
    These rebel forces could number up to 25,000. Their 
violence is fueled less by ideology than by the lust for 
staggering amounts of drug and kidnapping proceeds. Clearly, 
this is less of a civil war than a reign of domestic terrorism.
    The Colombian people, Mr. Chairman, overwhelmingly support 
their current government. Data suggests only 4 percent of the 
population supports insurgent groups. This clearly 
distinguishes the present conflict from others we have seen in 
the region over the past decades.
    We should keep central in our minds this fact as we pursue 
our strategy for Colombia. I repeat, that the insurgents do not 
share a broad and ideological population. The population seeks 
democratic principles.
    It seems that some want to downplay the Colombia situation, 
maintaining that this crisis is overstated, and that U.S. 
assistance is not warranted. I disagree unequivocally with this 
thinking. The internal conflict in Colombia has produced 
numbers of displaced persons similar to those we saw in Kosovo. 
Over 800,000 of this population are displaced since 1995, and 
the conflict has killed over 35,000 people.
    Colombia is home to one-third of all acts of terrorism 
worldwide, and had over 2,600 people kidnaped last year alone. 
Sadly, there is a fear in the air that permeates the country, 
and just the day before yesterday, another 40 or so people were 
kidnaped at a roadblock. We hope that their fate will be OK.
    While in Colombia recently, I had the opportunity to meet 
with a group of business executives from large U.S. 
corporations with Colombian subsidiaries. Each one relayed 
their pessimism on Colombia security and future investment in 
the country.
    They were all worried about the future of the government 
and the country, and one executive shared with me that he had 
sent his wife and daughter to live in the United States, no 
longer feeling that it is safe for them to be there. It was 
just too dangerous for his family to stay.
    As I said to these business people, investment does not 
flow toward insecurity, it runs from it, which, of course, 
doubles the impact of the economic crisis that the country 
faces now.
    To make the Colombia situation even more pressing, the 
conflict has demonstrated the potential to spill into 
neighboring countries. Reports indicate that FARC guerrillas 
move freely across the border into Panama, a country that has 
no standing army to defend itself. I think current reports 
would have about 1,000 of these insurgents operating at liberty 
in Panama.
    Peru, Venezuela, and Ecuador have all moved troops to their 
borders with Colombia, as a result of increased guerrilla and 
para-military activity. We cannot sit idly by while this 
conflict threatens to destabilize the entire Andean region.
    In my opinion, Mr. Chairman, this crisis is not overstated. 
The situation in Colombia is, indeed, dismal, and is reaching 
emergency proportions. I firmly believe that U.S. assistance is 
needed, and needed now, to address the situation.
    The proposal that Senator DeWine and I discussed during 
President Pastrana's visit to Washington is a comprehensive 
effort to address these needs. Although I have not seen the 
full details of Plan Colombia that the Pastrana administration 
has developed, I understand that our proposal compares 
favorably with it.
    Our plan, which we have entitled the Alianza Act of 1999, 
is a $1.5 billion package intended to address the situation on 
many fronts. It covers military and law enforcement assistance, 
human rights monitoring, judicial reform, drug interdiction, 
and alternative crop development.
    The measure was formulated after my visit to Colombia in 
August, where I saw firsthand the needs of the army, navy, and 
Colombian National Police. This proposal represents the best 
assessments of Colombia's needs by our personnel in the region.
    The State Department, Department of Defense, and the Drug 
Enforcement Agency all coordinated on these numbers in 
consultation with the Colombian Government.
    While we will have to compare the details, it appears that 
our proposal would be close to the plan that General McCaffrey 
has advocated for Colombia. He can speak to that himself on the 
next panel. So there is obviously some common ground upon which 
we can work with the administration.
    To touch on the highlights of our proposal, we provide $540 
million for Colombian military. This funding would support 
urgent new programs with the national police, army, navy, and 
air force to combat narco traffickers in southern Colombia, 
where we have seen an explosion of new coca and poppy 
production.
    Two hundred million dollars would go toward the 
reinvigoration of the air interdiction program, with new 
resources in airborne and ground-based radar capacity, air 
refueling aircraft and remote air field construction.
    We would upgrade law enforcement activities directly by 
providing $205 million to the Colombian National Police and the 
Colombian Navy for effective helicopters and air assets for the 
new riverine program. To reform the military justice system, 
bolster the rule of law, and monitor human rights on all 
fronts, we have provided $70 million.
    These are critical proposals which attempt to address some 
of the systemic and institutional problems of the Colombian 
situation.
    I might add that staff has been working with several human 
rights groups interested in Colombia to develop this proposal. 
We have more specific language on human rights that I would be 
happy to share with the committee later today.
    Finally, this would direct assistance to two critical 
areas, regional interdiction efforts and alternative economic 
development projects. And $365 million would go toward the 
enhancement of regional drug interdiction programs in 
neighboring countries such as Peru, Bolivia, and Ecuador, and 
Panama.
    To provide small rural farmers with alternative needs of 
income, $120 million would be applied to alternative 
development programs in Colombia and surrounding countries. 
These are all important areas of focus for an assistance 
package, and I do hope to secure bipartisan support for the 
proposal.
    Mr. Chairman, if I could summarize my testimony into these 
three core points, they would be as follows: (1) The Government 
of Colombia supported by its people who want an end to the 
terror that has driven so many from this country; (2) The price 
of our continued inaction in the United States and the Western 
Hemisphere will far outweigh the costs of addressing the 
situation and helping the Pastrana administration and the 
Colombian people now; (3) The administration should act 
immediately by submitting a plan of action for Colombia to 
Congress and requesting that it be funded for year one on an 
emergency basis.
    Mr. Chairman, to digress just a moment, having seen this 
firsthand, I have been impressed that the new military 
commanders do understand that they are in a war for the 
survival of their country.
    This hemisphere is filled with democracy. Many of them are 
new, and many of them are very fragile. For that matter, 
democracy is always a fragile thing. It requires a permanent 
and diligent vigil. It can slip away in a heartbeat.
    If this hemisphere were to accept a government driven by 
narcotics, you can mark my word, it will destabilize the entire 
region, and will become a massive national security threat to 
the United States and to this hemisphere of democracies.
    Mr. Chairman, I have gone on a bit longer than we normally 
allow. I appreciate the chairman's indulgence, and I thank you 
for the opportunity to be with you.
    The Chairman. Senator, it was not too long at all, and it 
was excellent testimony.
    You know how you listen to this fact and that fact, and you 
review this consequence and that consequence, and things that 
we handle in the Senate, and I was one of the new boys on the 
block at the time the U.S. Senate voted to give away the Panama 
Canal. The American people did not want it to be done. They 
protested, but it did no good.
    I remember there were three of us who participated in the 
battle to save the Panama Canal, Jim Allen, of Alabama, our 
great Senator, Harry Byrd, Jr., of Virginia, and this lone 
Republican from North Carolina, and I am just reviewing in my 
mind what would be the case today if we were turning over the 
Panama Canal at the end of this year to the Panamanians.
    I went down to the White House one day and I talked to the 
President, and he patted me on the back, sort of, and said, 
``Well, Jesse, we are buying a lot of friends in Latin 
America.'' I did not believe it then; I do not believe it now.
    But in any case, I want you to emphasize what you have 
already stated, the consequences for the neighboring countries, 
first of all, Panama, Ecuador, and Venezuela, if the crisis for 
Colombia continues. I want to nail that down as the obvious 
factor.
    Senator Coverdell. Well, there can be no dispute, I do not 
believe. Now, there are other panelists that may speak to it, 
and they may have a different view, but the fact that there are 
1,000 insurgents in Panama that are generally acknowledged in 
the public and by the Panamanians, I think the figure I heard 
the Panamanians use was that it would cost them about $40 
million annually to try to manage this situation, if it were 
manageable, because they have, as you know, no standing 
military.
    The Chairman. Right.
    Senator Coverdell. Given the nature of the importance of 
the Canal to Panama and to the United States, this is a 
disconcerting situation. It clearly has become a disruptive 
factor in the relations of Colombia, in particular to 
Venezuela, who is also experiencing a transition----
    The Chairman. You bet.
    Senator Coverdell [continuing]. And in the midst of this 
has to be conscious of the fact that there are large military 
forces near that border and who cross that border. So they have 
had to move their military assets in order to protect the 
integrity of Venezuela, the same situation with Ecuador and 
Peru.
    Now, that does not--and that is the immediate circle of 
events, but when you think about the trafficking network of 
moving these goods, then you move into a second ring of 
countries. Then you are affecting Mexico. Then you are 
affecting Guatemala.
    Then you are affecting Honduras and Nicaragua, and all 
these new democracies, because these countries become transit 
points and locations, and these forces, these narcotic forces 
become a general destabilizing factor in the entire hemisphere.
    Now, time is getting on, but when I was with President 
Sodeo--I think General McCaffrey would echo this; I am sure he 
has heard it--that President Sodeo said that the narcotic 
dilemma was the single greatest threat to the national security 
of their republic, and in my mind, there is no hemispheric 
threat that is greater to us than the narcotic threat to our 
national security, and the heart of it is here in Colombia. I 
hope that responds sufficiently and effectively to the 
chairman's question.
    The Chairman. Well, it certainly does. You are saying, I am 
not going to put words in your mouth, but you are saying that 
Colombia cannot defeat the narcoguerrillas without substantial 
help from the United States.
    Senator Coverdell. That is my view. That is my opinion.
    The Chairman. I agree.
    Senator Coverdell. I think, at best, they are in a 
situation where neither side can accomplish victory, at least 
in the short term. I will be interested to listen to General 
McCaffrey.
    I have been impressed, or was impressed, by what I would 
consider a reformulated resolve among Colombian's military 
commanders, kind of a hunkering down, and an understanding that 
they are in a war over the survival of their country, and I 
sense that we need resolve.
    I know there are questions about, and I would agree, if 
there is no Colombian will to manage this problem, no one can 
help them. I do not fall in the camp of those who think there 
is not a Colombian will. I believe there is, and I believe that 
without modernization, and re-training, and the building of an 
effective military force, the odds are that we will continue to 
face the affects of destabilization, not only in Colombia, but 
expanding throughout the region.
    The Chairman. Tell me about the bill you are drafting. How 
do you ensure that the U.S. funds to Colombia will go only to 
soldiers who respect human rights?
    Senator Coverdell. There is a section in the bill that 
deals particularly with that. It is a $70 million investment to 
make sure that we are conscious of and all of our efforts are 
mindful of human right provisions.
    I have to say that, I think that at the senior levels in 
Colombia itself, among the military now and the administration 
of Pastrana, there is a general recognition of the need for 
this in order to maintain the effective allegiance of the 
people (a) themselves, and (b) of international cooperation.
    Now, I think it is important to note here that the 
Colombians have put forward a $7.5 billion plan over 3 years, 
and have already appropriated $4 billion of that in their own 
budgets, and they are hoping that the other $3.5 billion is--
that international support is the source of that, and they do 
not expect the United States to be the total source of it.
    There is some $3.25 billion that is already being secured 
by resources outside of the United States. I think that, at 
least preliminarily, the general outline of this plan is in 
reasonable concert with what they are looking to us to do.
    Back to human rights, currently, there is a special unit 
being trained by, in part, U.S. personnel. It is a crack anti-
narcotic unit that could be moved throughout the country. One 
will not be enough, and if our bill were successful, there 
would be three of these units, but human rights training is a 
core component of what is being done right now already.
    Wars are never--I mean they are ugly things, and my guess 
is we will have conjecture and concern about this issue 
throughout the struggle as long as it goes on, but I think that 
our interest, our legislation, and the interest of the 
Colombian leadership is such that they will be appropriately 
attentive to this issue, and I think they will be successfully 
attentive to it.
    I do not think they will eliminate assertions and 
allegations that will probably occur, as I said, as long as we 
are in conflict there.
    The Chairman. Do you share my opinion that the people of 
Colombia will welcome whatever help we can give them in this 
regard?
    Senator Coverdell. Oh, I do not think there is any doubt 
about that----
    The Chairman. Nor do I.
    Senator Coverdell [continuing]. Whatsoever. I have been 
with the President on two occasions now, well, three, here, 
there, and here again, along with foreign ministers, interior 
ministers, chief of staff, and consistently find the beachhead 
of a good relationship and a great interest in this alliance.
    The Chairman. Well, like the game show on television, the 
guy says, ``Come on down.'' That is what they are saying to us. 
Senator Dodd.
    Senator Dodd. Mr. Chairman, I will defer for a minute and 
give my colleagues an opportunity before I----
    The Chairman. In that case, that would be Senator Feingold.
    Senator Feingold. Thank you, Mr. Chairman, for calling this 
hearing today on this important issue. The people in my home 
State of Wisconsin have a special place in their hearts for 
Colombia.
    Our State capital, Madison, has a sister city relationship 
with the people of Apartado and its home port, the Colombia 
support network, which is a very strong advocate for human 
rights in that country.
    Unfortunately, our relationship in Wisconsin with Colombia 
has also been marked by tragedy as well as success. At least 
two former Wisconsin residents have been the victims of the 
guerrilla campaign in that country.
    The fate of one of them, Mark Rich, a member of the New 
Tribes Mission remains unknown. The other, Ingrid Washinawatok, 
a human rights worker who went to Colombia to help the 
indigenous U'Wa tribe, was murdered, along with two of her 
colleagues earlier this year.
    Both of these terrible crimes have been linked to the 
revolutionary armed forces of Colombia, a leftist guerrilla 
group, whose tactics include taking civilians, committing 
massacres, attacking ambulances, and kidnapping.
    Mr. Chairman, I am pleased that we had this opportunity to 
address this situation today, and I appreciate hearing from 
Senator Coverdell. The title of this hearing mentions the peace 
process and the anti-drug efforts. Both of these are important 
and complex; however, in our zeal to facilitate the peace 
process and end the drug trade, I fear that we overlook the 
human rights abuses that are committed daily in Colombia, 
usually with impunity.
    Those abuses are intertwined in efforts to promote peace 
and fight drugs, and ultimately, there can be no peace in 
Colombia until those responsible for these heinous crimes, from 
para-military and guerrilla group members, to the military, and 
government officials, who have looked the other way, or even 
assisted them, are made to answer for their crimes in a 
legitimate court of law.
    So I will leave it at that, Mr. Chairman. I look forward to 
hearing from our witnesses, and I do share Senator Coverdell's 
view that, although we may differ on some of the emphasis, that 
this is one of the most important areas in the world that needs 
our attention. Thank you.
    The Chairman. Thank you, Senator.
    Senator DeWine.

     STATEMENT OF HON. MIKE DE WINE, U.S. SENATOR FROM OHIO

    Senator DeWine. Mr. Chairman, I just want to thank you for 
holding this hearing. If we look at the American foreign policy 
and look at the issues that we face today, I do not know that 
there is anything more important, frankly, than what is 
occurring in this hemisphere, and the most important and 
troubling thing that is occurring in this hemisphere occurs in 
Colombia.
    We have a country that is at war. We have a country that is 
trying to deal with insurgents of several different sides. We 
have a country where we are now seeing, really a new phenomena 
in world history, and that is, a tremendous amount of money 
that we can just hardly comprehend that is now being generated 
by the drug dealers, and the drug dealers are then, in turn, 
feeding this money to some of the terrorists and some of the 
guerrilla organizations.
    So it is a new phenomena, something that we have really not 
seen before. We have made tremendous progress in this 
hemisphere over the last 20 years, Mr. Chairman. This 
hemisphere is a good news story.
    We are moving in virtually every country in this hemisphere 
more toward democracy than we have ever seen before, the only 
exception, of course, being Cuba. The troubling thing however, 
is what is happening with drugs, the problem that it is 
creating for the United States, and also the threat that we see 
to a long-standing democracy, a country that is a very 
important country, from a geographical point of view and from 
an economic point of view, and that is the country of Colombia.
    Mr. Chairman, I have a prepared statement, which I would 
just ask to be made as a part of the record, but I again just 
want to congratulate you for your attention to this issue. As 
we listen to the additional witnesses, I am going to have 
questions about where the administration is going. This is a 
shared responsibility between the United States, Congress, and 
the administration.
    I think, frankly, we all have to become a lot more engaged 
in what is going on in Colombia, not from the point of view 
that we are going to tell the Colombians what to do, but from 
the point of view that we have to work with their country, to 
help them do what is in their national interests, and also 
happens to be in our national interest.
    I also agree that we have to constantly be vigilant to 
export one of the things we do best, and that is the rule of 
law, and when we talk about human rights violations, when we 
talk about the police being able to investigate, when we talk 
about prosecutors being able to prosecute, no one does it 
better than we do in this country, and it is something that we 
can export, and we are exporting, and we can do it fairly 
cheaply, but we have to do that.
    So I think we have to work with the Colombians to be of 
whatever assistance that they want, to try to deal with human 
rights violations, to try to deal with the rule of law, to try 
to, again, bring about the time of resolve that we all know is 
so essential if Colombia is, in fact, going to survive as a 
democracy.
    So, again, I thank you, Mr. Chairman, very much, and I 
thank you for allowing me, as not a member of the committee, to 
be here today.
    [The prepared statement of Senator DeWine follows:]

               Prepared Statement of Senator Mike DeWine

    I thank the Chairman of the Senate Foreign Relations Committee and 
the Chairman of the Subcommittee for Western Hemisphere for having this 
important and timely hearing.
    Colombia is a country in crisis. Instability in the country 
threatens to destabilize the entire region. What we really have here, 
Mr. Chairman, is one government struggling to fight a number of 
different wars--wars against two competing guerrilla groups, against 
ruthless paramilitary organizations, and against drug lords who traffic 
deadly cocaine and heroin into the United States.
    Just a couple of weeks ago, I met with Colombian President Pastrana 
during his visit to Washington. We discussed how our two countries can 
work together better to eliminate drugs from our hemisphere and to 
begin to resolve the deteriorating situation in Colombia.
    For more than three decades, the Revolutionary Armed Forces of 
Colombia, otherwise known as the FARC, and the National Liberation Army 
(ELN) have waged the longest-running guerrilla insurgency in Latin 
America. Both rebel groups have a combined strength of between 15,000 
and 20,000 full-time guerrillas. At the present time, the Colombian 
military may not be up to the task to counter these foes. It lacks a 
serious communication, intelligence, and mobility capability.
    More than a decade ago, Soviet and Cuban communists fueled anti-
democratic terror in Central America. Today, the sources of violence 
and instability in our hemisphere are the drug traffickers, who enlist 
the rebels to protect their lucrative industry. In fact, drug 
traffickers also finance an umbrella organization of about 5,000 armed 
paramilitary combatants, whose self-appointed mission is to counter the 
strength of the leftist guerrillas. Sadly, America's drug habit is 
subsidizing opposing sides of an anti-democratic narco-terrorist 
campaign in Colombia. So, one way our nation can best assist the people 
of Colombia is to attack drug trafficking head-on--here and abroad.
    With the help of my colleagues, Senators Paul Coverdell, Bob Graham 
and Charles Grassley, last year we passed the Western Hemisphere Drug 
Elimination Act. This was a much-needed step toward attacking the drug 
problem at its core. This Act is a $2.7 billion, three year investment 
to rebuild our drug fighting capability outside our borders. This law 
is about reclaiming the federal government's exclusive responsibility 
to prevent drugs from ever reaching our borders. This law is about 
building a hemisphere free from the violent and decaying influence of 
drug traffickers.
    This bill was necessary because the Clinton Administration, since 
coming into office, has slashed funding levels for international 
counter-narcotics efforts. By turning its back for the better part of 
this decade on fighting drugs abroad, this Administration may have 
inadvertently contributed to the growing strength of drug trafficking 
organizations, as well as the narco-terrorists in the region.
    If one principle has consistently guided American foreign policy 
since the dawn of our nation, it is this: The peace and stability of 
our own hemisphere must come first. That certainly has been the case 
throughout the last century. The Spanish-American War, the Cuban 
Missile Crisis, the democratization of Central America in the 1980s, 
and the North American Free Trade Agreement in the 1990s--all of these 
key events were approached with the same premise: A strong, free and 
prosperous hemisphere means a strong, free and prosperous United 
States.
    Consistent with that principle, the United States must take an 
active role in seeking a peaceful, democratic Colombia. This past 
summer, our Senate and House leadership sent a letter to the President, 
requesting that he present Congress with a plan for Colombia. I am 
hopeful that we will hear details of their plan today.
    In the meantime, Mr. Chairman, Senator Coverdell, who just came 
back from Colombia, and I presently are drafting a comprehensive 
assistance plan for Colombia. The assistance would be directed toward 
the following areas:

  <bullet> Crop alternative development;
  <bullet> Drug interdiction programs;
  <bullet> Human rights and rule of law programs; and
  <bullet> Military and police counter-narcotics operations.

    Our plan also contains provisions for counter-narcotics assistance 
and crop alternative development programs for other Latin American 
countries, including Bolivia, Peru, Panama, Venezuela, and Ecuador.
    Ours is a balanced approach--an approach that focuses attention not 
just to the military and to the economy, but to human rights and rule 
of law, as well. It should be in our interest to make sure that the 
Colombian government is accountable in these areas.
    A hemispheric commitment to the rule of law is essential. When I 
visited with Americans living in Colombia during a trip to the region 
last year, judicial reform was a central focus of our discussion on 
ways our nation can better assist Colombia. We should take a leadership 
role in promoting a strong judiciary and rule of law in Colombia by 
providing our own technical expertise. We should lead by example.
    We also need to urge the Colombian government to take a tough 
stance against the often over-looked paramilitaries. They are a growing 
part of the problem in Colombia and cannot be ignored. Finally, we need 
to make sure that military assistance to the Colombian military is 
monitored, so it is used effectively for counter-narcotics operations.
    This is not an ``America Knows Best'' plan. We consulted with those 
who are on the front lines in Colombia--those who know best what 
Colombia needs right now. We have talked with the Colombian government, 
including President Pastrana, to inquire about Colombia's specific 
needs. We also have consulted with U.S. government officials, who have 
confirmed our belief that a plan for Colombia must be balanced if we 
hope to address the complex and dangerous elements of the current 
situation.
    Frankly, Mr. Chairman, it is my hope that the Administration will 
pro-actively work with Congress, and most important, work with Colombia 
to turn the tide against those seeking to undermine democracy in the 
region through violence and terror. Too much is at risk to wait any 
longer.
    I look forward to the testimonies presented by our Administration 
panel. Thank you again, Mr. Chairman, for holding this hearing.

    The Chairman. Well, I thank you for coming, and I thank you 
for the good work you have done. Now, do you want to defer to 
him?
    Senator Wellstone. Mr. Chairman, I think what I will do is, 
rather than really putting a question to my colleague, Senator 
Coverdell, I will just sort of signal the concern that we can 
talk about anyway as this moves forward, and signal a concern 
for General McCaffrey, who is going to be testifying, or two 
concerns.
    The first one, Secretary Pickering in his testimony states, 
``Para-military groups also have clear ties to important 
narcotics traffickers, and para-military leaders have even 
publicly admitted their participation in the drug trade.''
    So I know President Pastrana has taken some steps to 
sanction some of these generals who are tied to these right-
wing para-military groups, but it is clear that there is a 
continuing close link between the army and para-military 
groups, and it is also clear that the para-military has been 
heavily engaged in drug trafficking, so one of the things that, 
as a Senator, I want to make sure of is that none of the money 
in the fiscal year 2000 supplemental funding, or any 
recommendations that are being made here for the Colombia 
military will not wind up supporting the para-military groups, 
who themselves are implicated in the drug trafficking, and in 
flagrant human rights abuses. That is a concern I want to 
signal.
    The second concern that I want to signal is, this is, I 
guess, for all of us, and maybe anticipates the testimony of 
the General, but according to the GAO, and I quote, ``Despite 2 
years of extensive herbicide spraying, U.S. estimates show that 
there has not been any net reduction in coca cultivation. Net 
coca cultivation actually increased 50 percent. This 50 percent 
in coca cultivation comes after $625 million have been spent in 
counter narcotics operations in Colombia between 1990 and 
1998.''
    Let me just go on. ``A landmark study of cocaine markets by 
the Rand Corporation found that dollar for dollar, I think the 
General will know where I am heading here, providing treatment 
to cocaine users, is ten times more effective than drug 
interdiction schemes, and 23 times more cost-effective than 
eradicating coca at its source.''
    So I guess I am very interested in what we are going to do 
about the demand part, and when I look at what we are spending 
as a Nation on the disease of alcohol and drug addiction, and 
our failure to do the prevention and to do the treatment, it 
would seem to me that we would be wanting to spend much more of 
our emergency money, spending money on treatment and prevention 
services in this country to deal with the demand part than on 
the interdiction and cutting off supply part, which I think 
overall has not been very successful, and I want to just raise 
that question, and I will pursue it further with the General.
    Senator Coverdell. Might I respond briefly?
    The Chairman. Please do.
    Senator Coverdell. First of all, we are in complete 
agreement on the para-military aspect of it. You are correct 
that there can be no doubt that they are interlocked with the 
narcotic infrastructure as well.
    I do think that the dismissal of senior officers from 
general rank to lieutenant over the last 12 months is a 
demonstration of Pastrana's and the army's intent to see that 
they have no influence in the legitimate army. In fact, they 
almost become another hostile force that is having to be taken 
care of.
    The issue of interdiction, I would probably disagree to 
some extent. The point I am making, Senator Wellstone, is that 
if you allow total destabilization of Colombia and the 
surrounding countries, you are dealing with the democratic 
principles of the hemisphere, and we could be creating an era 
of just total collapse.
    That does not argue against rehab, or investment, and you 
cannot argue that it should not be an important part of U.S. 
policy here at home, to deal with prevention, which the General 
has led a significant program, the Congress and the 
administration to educate people about the dangers, and also 
rehabilitation. So I do not take exception, but I do not think 
it is an either/or. I think that would be a dangerous result 
for us in the hemisphere.
    I do look forward to a future discussion on it. We are, I 
would announce, working with Senator Leahy's staff on the human 
rights aspect of the Coverdell/DeWine legislation. We are very 
serious about it, and I think the Pastrana administration has 
made significant progress on this point.
    The Chairman. Thank you, sir.
    Now, the, forever and always, gentleman, Senator Dodd.
    Senator Dodd. Thank you, Mr. Chairman. Let me begin by 
thanking you, Mr. Chairman, for having this hearing. This is a 
very, very important hearing, and I am anxious to hear my good 
friend, General McCaffrey, as well, who will be testifying 
shortly, and, of course, hearing the comments of my colleague 
and chairman of the subcommittee dealing with the Western 
Hemisphere, Mr. Chairman. This is a very important subject 
matter.
    We have recently co-hosted a coffee for President Pastrana. 
I have met on numerous occasions now for the past 6 or 7 months 
with various political as well as military leaders of Colombia 
that have come to this country to talk about the issues 
affecting Colombia and this combination of problems of narco 
trafficking, as well as the guerrilla conflict, and the 
problems posed by the para-militaries that both of my 
colleagues, Senator Feingold and Senator Wellstone, have raised 
here this morning.
    Mr. Chairman, this whole region, I am sure General 
McCaffrey is going to talk about it, we are going to talk about 
Colombia, obviously, here today, but the Indian region is in 
crisis, for different reasons and different places, but it 
deserves and demands our serious attention as to how we can 
play a very constructive role in resolving some of these major 
issues that pose the most immediate threat to the people of 
these countries, but also pose serious dangers in the 
hemisphere.
    Mr. Chairman, I cannot find the words adequate in either 
Spanish or English to express my admiration for the people of 
Colombia, and what they have been through. The story has been 
told in numerous places in this country, on television 
programs, and news articles, but my sense is that people in 
this country do not even begin to understand what the people of 
Colombia have been through, what their political leadership has 
been through.
    It just is beyond comprehension in this country to know 
that if you stand up in Colombia and run for office, and take a 
position, you put your life on the line. We get upset if we get 
a screen door slammed in our face if we go door to door 
campaigning.
    In Colombia, you stand up and express your views, while 
maintaining the sovereignty of your country and protecting its 
future, your life is immediately in jeopardy, and literally 
hundreds have lost their lives, because of exercising something 
we take for granted every single hour of every day here.
    So I want to begin any comments that I have by expressing 
to you, Mr. Chairman, and our colleagues, and our witness here, 
members of the committee, Paul, and others, the deep admiration 
I have for people who are going through an incredible struggle, 
and for us to find a constructive way in which we can be of 
real help to them I think is absolutely critical.
    Now, the plan is an expensive one, the one that President 
Pastrana has outlined, as you have all heard, it is around $7.5 
billion, with $3.5 billion to come from international sources. 
Senator Coverdell has outlined a more modest plan in his 
proposal. We run into some problems, I presume, emergency 
funding gets away from the caps issue, I presume that is the 
reason you are talking about emergency, aside from the fact 
that it is.
    It is a comprehensive plan, and seeks to deal with 
economic, social, civil crises that confront Colombia. I 
commend President Pastrana for having that kind of 
comprehensive view here. Without it, I think this plan fails.
    Whatever dollar amount you want to attribute to it, if it 
is not a balanced plan here, then it will not work, Mr. 
Chairman, has been my experience, any more than it did not work 
in other places in the hemisphere, but I am certainly not going 
to take a position specifically on it.
    I like generally the thrust of President Pastrana's 
outline, Mr. Chairman. I think the thrust of it was a good one. 
That is not endorsing every dotted ``I'' and crossed ``T,'' but 
the thrust of it, I think, makes sense. It is clearly designed 
as an integrated multi-faced program of action. It proposes to 
undertake programs in the support of the peace process, in 
support of economic, military, and judicial reform.
    Let me just cite one fact for you, Mr. Chairman. In 
Colombia, if you have a high school diploma, you are not 
drafted to serve in the Colombian military. So for the sons of 
peasants and workers, who do not have an education, they fight 
and die.
    Now, I do not need to tell you the kind of potential that 
can cause in terms of social unrest in a society. We saw it 
happen in our own country a bit.
    So that is the kind of thing that the opposition can feed 
on, can take advantage of in building support. So it is very 
important that President Pastrana maintain what I think he has, 
and that is some strong support among the general public in 
Colombia for what he is trying to do. But that equation could 
shift very quickly, and if it does, then the dynamic shifts, in 
terms of how you confront this problem in the long term.
    So I admire the comprehensiveness of it, the fact that it 
does deal effectively, I think, and we will hear from General 
McCaffrey, on counter-narcotics programs, alternative, and 
social development programs, concerted action, all of these 
areas I think that can produce positive results.
    My concern is expressed here. If we only talk about this in 
the context of military and security forces, and do not provide 
substantial material support for other key components of this, 
there are some real problems in this ultimately working.
    We provided this in this fiscal year, $200 million already, 
Mr. Chairman, to Colombia. It is a lot of money, and we think 
it has been helpful, but I wanted to make the point here that 
we need to have as balanced a view as we possibly can, in terms 
of how this works.
    I certainly agree with the comments of my colleague from 
Minnesota about our side of the equation here, and again, the 
demand side is something we have to take into account, in terms 
of ultimately discouraging the production, the growth, the 
transmission, the money laundering that goes on in these 
producing countries.
    As you and I both know, Mr. Chairman, if there were not a 
market here in this country, there would be very little 
activity in these countries. Now, that is not the whole answer, 
but we all have to admit, that is a substantial part of this, 
and I think we are doing a pretty good job on the home front, 
we are making some headway, and we need to do more of it, and 
we can.
    The bottom line point I wanted to make is just to 
underscore the importance of this being a comprehensive plan, 
and while I understand and appreciate the military needs, which 
are significant here, and I think any plan that excluded 
military support would be equally foolish.
    But I want to make sure that we have a balanced approach on 
this as we go forward, and to the extent that we can encourage 
as much international support for these efforts, and will also, 
I think, be a major factor in the long-term success of our 
efforts.
    So I commend my colleague from Georgia, and look forward to 
continuing to work with him on this issue, as we do it, just 
not only with Colombia, but as I say, Mr. Chairman, that Andean 
region, for different reasons, there are different problems, 
that could trade even a larger set of crises for us, if we do 
not deal with them sooner.
    I apologize for taking this much time.
    The Chairman. No apology necessary. Senator Coverdell, 
thank you very much.
    Senator Coverdell. I thank the Chair and the committee, and 
I will join the committee at this point, if I may.
    The Chairman. Our second distinguished panel is a gentleman 
I admire greatly, personally and professionally, the Honorable 
Barry McCaffrey, who is Director of the Office of National Drug 
Control Policy, and the Honorable Tom Pickering, Under 
Secretary of State for Political Affairs. It is good to see 
both of you.
    General, if you will proceed.

    STATEMENT OF HON. BARRY MC CAFFREY, DIRECTOR, OFFICE OF 
                  NATIONAL DRUG CONTROL POLICY

    General McCaffrey. Let me thank you for calling this 
hearing and for you and your colleagues focusing attention on 
this issue. Colombia, in particular, has represented an 
enormous challenge to all of us who are concerned with the 
production of illegal drugs as one aspect for our national drug 
strategy.
    Let me also, if I may, pay special note to Senator Biden's 
oversight and leadership in this issue, and Senators Coverdell 
and DeWine for putting together a bill which we think is moving 
the discussion, the debate, in the correct direction.
    Senator Dodd and Senator Graham, in particular, have been 
very involved and active in providing their own wisdom, their 
own long experience of watching the north-south access, and I 
appreciate their involvement.
    Mr. Chairman, with your permission, I would like to enter 
into the record my statement. We have pulled this together, 
along with, obviously, under Secretary Pickering's statement, 
and in cooperation with other actors in the inter-agency 
process, and it represents our collective judgment on what we 
ought to do.
    The Chairman. Without objection, of course, it is so 
ordered.
    General McCaffrey. Mr. Chairman, I will, with your 
permission, use some charts to sketch out an overview of what 
we think we need to talk about.
    [The charts referred to appear on pages 26-29.]
    The Chairman. Let me inquire first. Are these charts placed 
OK for you? All right.
    General McCaffrey. There are also copies, I believe, of 
these charts, I believe, in your packet, and the press has been 
provided with them also. So those who cannot see it in the 
room, I think they will probably find it in their own packet.
    Let me begin, if I may, just noting that we talk about the 
supply reduction function. We take into account both domestic 
and foreign production of drugs. We have to remind ourselves 
that some of the worst drugs in America are produced in 
America.
    Probably half the methamphetamines now being consumed in 
the Midwest, in Georgia, on the west coast, in Hawaii are 
manufactured in the United States, enormous quantities of high 
THC level, domestically produced marijuana. The most dangerous 
drug in America is a 12-year-old consuming pot on weekends. So 
we do have to take into account, which is why goal No. 5, which 
is what we are talking about, of the National Drug Strategy, 
talks about both foreign and domestic production of drugs.
    I would also take note, Mr. Chairman, that we do have a 
pretty detailed discussion of this in our National Drug 
Strategy, which we submit to Congress for their detailed debate 
and oversight.
    There is a second volume that I also wanted to hold up, the 
classified annex to the National Drug Strategy. We are now in 
our second annual iteration of this. It is getting to be a 
useful document to pull together the thinking and the planning 
of law enforcement, of Department of Defense, of our 
intelligence agencies to make sure we have some conceptual 
organization to what we are doing in the international arena.
    I would also underscore, Senator Wellstone's remarks are 
entirely correct. The heart and soul of what we are doing in 
the National Drug Strategy is to focus on prevention, 
education, and treatment which is linked to an unrelenting 
criminal justice system. So these approaches are really where 
we are going.
    If you look at the money that Congress has given us in the 
last four budget years, we have increased the funding we have 
devoted to this issue from $13.5 billion to $17.8 billion, and 
an enormous amount of these resources you put into prevention, 
a 55 percent increase, and a 26 percent increase in drug 
treatment dollars.
    I think it is starting to pay off. We are starting to see 
numbers that are reflecting the massive effort we have under 
way. When I say ``we,'' I do not just mean the Federal 
Government, but State and local authorities, the Boys and Girls 
Clubs, the DARE program, the YMCA youth programs, the people 
who really run America, the community coalitions, and I thank 
you for that.
    Mr. Chairman, the second point I would make is, our drug-
control strategy in the Andean Ridge is beginning to work. Now, 
the best numbers we have are courtesy of the CIA, and the 
satellite analysis program, and other intelligence agencies. If 
you are growing opium outside, or marijuana, or coca plants, we 
are taking pictures of it and analyzing it.
    It is the same technique we used on Soviet grain 
production. It is followed-up in cooperation with host nation 
governments by detailed crop analysis.
    Over time, almost to the astonishment of people like me, 
who have been following this issue for years, we are making 
progress, and the Peruvians, in particular, have had a dramatic 
56 percent reduction in coca production in 3 years. 
Unbelievable.
    It is in jeopardy, and we are seeing conditions change in 
the source zone, but the Peruvians have done a magnificent job, 
and it certainly was not with the police and army. It was a 
function of alternative economic development and smart local 
politics, in combination with the Catholic Church, and with 
police forces, et cetera.
    In Bolivia, now, there has been even, in my view, having 
dealt with the issue, again, for the last decade, there has 
been a remarkable turn-around with the President Banzer 
administration, a very remarkable young Vice President, 
Quiroga. They are making progress. There has actually been real 
reduction in coca.
    I just flew through the region a few weeks ago. In my mind, 
it is almost unbelievable. The coca is disappearing from the 
open lands, and now it is back up in the hills in the national 
forest. So they are very serious about what they are trying to 
achieve, and you have actually seen a net reduction overall in 
the region of some 29 percent. That is the good news.
    Here is the problem. Coca production in Colombia is 
skyrocketing. The rough numbers are probably a doubling or 
greater of coca cultivation in the last 4 years. It has been 
interesting. The CNP, General Serrano and his national police, 
particularly the 2,500 very heavily armed, trained, and 
effective DANTI counterdrug police, have made enormous 
progress.
    The aerial eradication program has been an astonishing 
success, in that in the areas where they could target aerial 
eradication, it has dramatically reduced production. It does 
work, and it has come at the cost of blood and sacrifice in the 
national police and their supporting military colleagues.
    More than 40 of these aircraft have been hit or shot down 
by ground fire during this aerial eradication campaign. But 
what we have seen is the drug production has moved to the 
south, and so in the southern zones, Guaviare and Caqueta 
Provinces, which are circled in red, you have seen just an 
enormous explosion in drug production. Essentially, it doubled 
in the last 2 years.
    In January, we will lay down the new CIA figures. I do not 
want to anticipate the results, but it is moving in the wrong 
direction, and not just in the amount of hectarage under 
cultivation, but in addition, the quality, the amount of HCL 
that are implicit in these plants are upgrading the crop, 
probably based on Peruvian plants. I think we have worse news 
coming in January.
    Besides cocaine, which, as we all know, is currently the 
No. 1 problem of drug abuse in America, in terms of serious 
addiction, there is probably 3.6 million of us who are 
chronically addicted to cocaine products. Thankfully, the 
number of Americans using cocaine in the last decade has gone 
down by 70 percent, but it is still the No. 1 problem facing 
law enforcement, health professionals, and the welfare system.
    The No. 2 problem is heroin addiction. 810,000 Americans 
are chronically addicted to heroin, and 6 tons of the possible 
11 metric tons that we consume is coming out of Colombia, 
another 6 tons being produced by Mexico. Even though that is a 
tiny fraction of the world's production of heroin, some 400 
metric tons produced in the world, it is enough to satisfy a 
huge piece of the U.S. national demand, and U.S. law 
enforcement in Miami, and in New York, in particular, the DEA 
and Customs, are operating with great effectiveness against 
that.
    Now, this chart shows you the Defense Intelligence Agency's 
cocaine flow analysis. They have this process under control in 
the last several years. Our numbers now match up. We have Ray 
Kelley and the Customs Service doing source zone analysis, the 
DEA does transit zone analysis, and then other intelligence try 
and inform us on what is being produced. So the numbers are 
consistent, and we believe useful for our own policy analysis.
    Colombia becomes the source of 80 percent of the cocaine in 
America, in terms of either originating in Colombia, or 
transiting through, and the situation will probably get worse. 
Probably half the heroin consumed in America that we seize 
comes out of Colombia.
    Finally, just a quick regression analysis. This chart could 
be deceptive. Let me explain it, if I can. If you would look at 
the Western United States, Mexican black tar heroin is the 
dominant source of our heroin problem. In the Eastern part of 
the country, it tends to be Colombian heroin. More than 75 
percent of the seizures now are Latin American heroin.
    I say it is a bit deceptive, because it implies that the 
Southeast Asian heroin is disappearing as a factor. I do not 
think it is. I just think we have such effective law 
enforcement action going against Colombian smuggling that it is 
skewing the data.
    There is still a huge problem in Burmese heroin coming into 
the United States through San Francisco and New York, but it 
does underscore the problem that these drugs coming out of 
Colombia are the center concern that we have on foreign drug 
supply.
    Let me, if I may, end my comments, Mr. Chairman, but if I 
could, I would underscore five points for your consideration. 
No. 1, supply reduction strategy is actually working. We have 
had a dramatic reduction in net cocaine production in the 
source zone. It is out of control in Colombia, but the Andean 
Ridge, overall, we have done well.
    A very important event occurred yesterday that Secretary 
Pickering may wish to address. We just signed a 34-nation 
memorandum in Montevideo, Uruguay, committing ourselves to 
multi-national cooperation on the drug issue. This comes out of 
the Santiago Summit of Americas. So supply reduction and 
cooperation, I feel, is in the right direction.
    The second point, we do need a long-term plan applied 
regionally to the Andean Ridge, to the Caribbean Basin, to 
Central America, with bipartisan support, and the numbers in 
the Coverdell/DeWine bill, the discussion paper that I 
surfaced, and other analytical efforts are in the same 
ballpark.
    No. 3, we must have Colombian leadership. Secretary 
Pickering has generated the interagency process, Plan Colombia. 
It's sound. It's a good place to start organizing our efforts.
    Point No. 4, if we are serious about drug control in 
Colombia, we have to support the military, also. Clearly, there 
must be alternative economic development, support for the 
judicial system, precursor chemical control, money laundering, 
but until the navy, marines, and army can re-introduce control 
in southern Colombia, the police will not be able to act 
against these drug-producing regions, which are heavily guarded 
by active FARC combat elements, narco-guerrillas.
    In the final point, Mr. Chairman, we need support for CINC 
U.S. Southern Command's forward operating locations, the three 
FOL's. We have a problem. We have closed down Howard Air Force 
Base, the source of a couple of thousand counterdrug flights a 
year in the region. We now have a temporary access to Manta, 
Ecuador, Curacao and Aruba, but we need $122 million over the 
coming 3 years, and the first-year requirement is $42 million.
    If we do not go into Manta this year and upgrade that 
runway, we have lost half our capacity to operate in the source 
zone. No AWAC's can land at Manta, Ecuador, right now, until we 
fix that runway. So I would ask for your support, and it has 
been marked up, instead of at $42 million, at $15 million, by 
Senate committee action. We will need your help.
    Mr. Chairman, thank you for the opportunity to respond to 
these issues, and I look forward to answering your own 
questions.
    [The prepared statement of General McCaffrey follows:]

             Prepared Statement of Hon. Barry R. McCaffrey

 the evolving drug threat in colombia and other south american source 
                              zone nations
                              introduction
    All of us in the Office of National Drug Control Policy thank the 
Committee for the opportunity to testify today about the evolving drug 
threat in Colombia and other South American source-zone nations. 
Chairman Helms, Senator Coverdell, distinguished members of the 
committee, your interest in all aspects of drug control policy and your 
commitment to bipartisan support of a comprehensive response to the 
nation's drug abuse problem are much appreciated. We welcome this 
opportunity to review the comprehensive initiatives that are being 
conducted in support of Goal 5 of the National Drug Control Strategy: 
Break foreign and domestic drug sources of supply.
    Emerging drug-control challenges in Colombia and the Andean Ridge 
threaten regional supply-reduction efforts and larger U.S. national 
security interests. Our collective efforts to implement the source-zone 
strategy laid out in the 1993 Presidential Decision Directive on ``U.S. 
Policy on International Counternarcotics in the Western Hemisphere'' 
have reduced global potential cocaine production by 29 percent over the 
past three years. It now appears that these important drug-control 
gains are eroding. CIA global crop estimates for this year (calendar 
year 1999) will likely show a large increase in cocaine production 
potential. The continued explosion of coca cultivation and continued 
opium poppy cultivation in Colombia undermine the U.S. source-zone 
strategy and Colombian democratic institutions. This increase will 
continue to promote cocaine addiction the world over. Colombia's 
ability to respond to this emerging drug threat is compromised by 
interlocking economic, political, and social problems: Meanwhile, U.S. 
Government efforts to negotiate long-term agreements, to replace 
expiring interim agreements with Ecuador and Aruba/Curacao, continue. 
The existing interim agreements allow the U.S. to operate Forward 
Operation Locations (FOL) to conduct essential multinational antidrug 
air operations following the closure of Howard Air Force Base in 
Panama.
    Part I of this testimony provides an overview of current trends in 
cocaine and heroin cultivation, production, and trafficking with the 
``source zone'' nations of South America--Bolivia, Peru, Ecuador, 
Colombia, and Venezuela. Part II addresses the current situation in 
Colombia. Part III summarizes U.S. Government drug-control programs in 
South America. Part IV presents U.S. challenges in Colombia and the 
source zone.
                   i--overview of source zone trends
<bullet> Cocaine
    Coca, the raw material for cocaine, is grown in the South American 
countries of Bolivia, Colombia, and Peru. Regional efforts to eradicate 
this crop have been quite successful in the past three years. Coca 
cultivation in Peru plummeted by 56 percent from 115,300 hectares in 
1995 to 51,000 hectares in 1998. Potential cocaine production declined 
from 460 metric tons to 240 metric tons over the same period in Peru, 
while in Bolivia potential production declined from 255 metric tons in 
1994 to 150 metric tons in 1998. These successes have been attributed 
to many factors, including: political will in both countries to 
confront the illegal drug trade, the regional air interdiction campaign 
that targeted drug-laden aircraft flying between coca-growing regions 
of Peru and processing laboratories in Colombia, control of precursor 
chemicals, diminished strength of insurgent forces in Peru, and 
alternative development programs. International drug control successes 
and shifting markets have forced change on the illicit cocaine industry 
in Latin America--a large-scale shift in coca cultivation to Colombia.
    The disruptions of the Colombian Cali drug trafficking 
organizations in 1995 and 1996 and the earlier dismantling of the 
Medellin cartel created greater opportunities for other trafficking 
organizations to develop their businesses. The days of highly 
integrated cartels with centralized control over production, shipment, 
distribution, and marketing functions are most likely gone, replaced by 
shifting, temporary agreements and coalitions among smaller, more 
specialized trafficking groups.
<bullet> Heroin
    Heroin is produced for the world market in nine countries in three 
regions of the world. Burma and Afghanistan are responsible for ninety 
percent of the world's opium production, which has almost doubled since 
1986. An estimated 3,461 metric tons of opium was produced worldwide in 
1998, a 16 percent decline in production between 1997 and 1998 due 
principally to drought and eradication in Southeast Asia. The Latin 
American component of this global production has historically accounted 
for 4 percent or less of worldwide totals.
    While only a small portion of the world's heroin supply comes from 
Latin America, hemispheric production accounts for a disproportionate 
share of the heroin seized in the United States, according to the DEA 
Heroin Signature Program (HSP).\1\ HSP is based on federal seizures 
made at U.S. Ports of Entry and a long-standing program of undercover 
drug purchases on the streets of our major cities. It also includes 
random sampling for testing of all seizures made by the DEA, including 
distribution level seizures. Thus, the HSP covers testing at 
importation, distribution, and retail levels. For calendar year 1997, 
DEA reports indicate that Latin American heroin comprised 75 percent of 
the heroin seized or acquired in undercover buys in the United States. 
Law enforcement investigations, along with various indicator data 
reflect that the nation's largest heroin markets of New York, Boston, 
Newark, Baltimore, and Philadelphia are now dominated by the six tons 
of Colombian heroin produced each year. Mexico also produces about 6 
metric tons of heroin per year, most of which is sent to the United 
States and consumed primarily in the western part of our country.
---------------------------------------------------------------------------
    \1\ The HSP is a valuable tool to our understanding of the flow of 
heroin to the United States, however it is based on only seized heroin. 
Therefore, the HSP cannot be used as the only indicator of origin for 
heroin available in the United States. Other factors--such as the 
prevalence of East Asian poly crime syndicates, or triads, or Nigerian 
organizations in some cities (for example, Chicago), as well as the 
origin of heroin seized in nations proximate to the United States (for 
example, Canada)--should also be considered. An interagency heroin 
assessment effort is currently underway to better understand the nature 
of the increasing heroin threat to our nation.
---------------------------------------------------------------------------
                    ii--colombia: a crisis situation
<bullet> The changing face of drug trafficking
    The drug trade in Colombia has changed significantly over the past 
few years. Coca cultivation has increased dramatically in response to 
regional airbridge interdiction efforts that curtailed the flow of coca 
products from Peru to Colombia. The cocaine trafficking industry 
fragmented following the arrests of the Cali drug kingpins in the mid-
1990s and is now characterized by smaller groups specializing in 
limited segments of the drug trade. These groups are more difficult to 
detect; dismantling any one of them has less impact on the overall 
trade. A strategic decision by Colombian drug organizations to enter 
the heroin production/trafficking business has resulted in the 
proliferation of Colombian heroin within the United States.
    Virtually all of the drug-crop cultivation in Colombia is in 
remote, underdeveloped regions outside the government's control and 
often under the control of heavily armed guerrilla or paramilitary 
forces. This makes eradication and interdiction enormously dangerous to 
security forces. Moreover, without greater protection by the Police and 
Army in the countryside, the government cannot deliver adequate 
alternative development programs to provide licit income to growers who 
abandon coca or poppy cultivation.
    As opposed to the situation ten years ago when small airplanes were 
the preferred method of transporting drugs out of Colombia, the 
majority of drugs today leave Colombia via maritime means, either in 
containerized cargo or by fast boat. Transport via small plane is still 
the preferred method for moving drugs within Colombia, from production 
sites to distribution points. Riverine transport of precursor chemicals 
into processing regions and of finished drugs coming out has also 
increased substantially.
<bullet> Exploding cocaine production
    U.S. Government crop experts from the Department of Agriculture, 
Drug Enforcement Administration and Director of Central Intelligence's 
Crime and Narcotics Center believe Colombian cocaine production may be 
poised for a dramatic increase in 1999.\2\ Higher yielding coca is 
being cultivated in Colombia. This has yet to be reflected in annual 
estimates of potential cocaine production because of the two-year 
maturation time for the higher yielding variety of coca (eiythroxylum 
coca var. coca) to become fully productive. Much of the increase in 
cultivation in Putumayo and western Caqueta--where the higher yielding 
variety of coca is most likely being grown--took place in 1996-97 and 
those fields are only now becoming fully productive. However, new but 
preliminary information indicates some new fields may have become 
productive sooner, and that lab processing efficiencies have likely 
improved. That means that potential Colombian cocaine production for 
1999 would reach at least 250 metric tons even if there were no 
increase in coca hectarage. Adding the production from the coca planted 
in 1999 will lead to an even higher potential cocaine production 
figure.
---------------------------------------------------------------------------
    \2\ Colombian Coca Yields: An Update, a joint research paper 
prepared by experts from the DCI Crime and Narcotics Center, the Drug 
Enforcement Administration, and the Department of Agriculture. CN 99-
40010, February 1999.
---------------------------------------------------------------------------
<bullet> Colombian penetration of U.S. heroin market
    Colombian drug organizations made a strategic decision at the 
beginning of this decade to expand into opium cultivation and heroin 
production and trafficking. As a result, net opium cultivation in 
Colombia went from zero to more than 6,000 hectares by 1995, and has 
remained essentially stable since. Opium cultivation is concentrated in 
the Huila-Tolima area and has a potential yield of six metric tons a 
year. Unlike Asia, where there is a distinct growing season, 
cultivation is year round, resulting in multiple crops. Colombian 
heroin trafficking is reportedly controlled by relatively autonomous 
groups that developed their own smuggling systems. The predominant mode 
of transportation is commercial air, with human courier mules 
swallowing balloons filled with heroin, hiding it in body cavities, or 
concealing it in their luggage.
<bullet> The nexus between drugs and Colombia's civil conflict
    Insurgent and paramilitary organizations are profiting from the 
drug trade and using drug revenues to finance operations against the 
democratic government. The growth of drug cultivation, production, and 
trafficking has added to the war chests of the guerrilla and 
paramilitary groups, which protect and/or control various aspects of 
the drug industry. Colombian defense experts have estimated that the 
two major insurgent groups (the Revolutionary Armed Forces of Colombia 
(FARC) and the National Liberation Army (ELN) gain 50 percent or more 
of their revenues from their involvement in drug trafficking. Estimates 
vary widely on the amount of money that the FARC and ELN earn annually 
from the drug trade--from a low of $100 million to a high of $500 
million. What is clear is that their revenues from the drug trade equal 
or exceed their other major income sources--kidnapping, extortion, and 
bank robberies.\3\ The FARC, which controls or influences much of 
southern Colombia, earns revenues by providing protection for or 
directly participating in activities related to coca cultivation, drug 
processing facilities, and clandestine airstrips. The FARC also 
``taxes'' the campesinos and drug traffickers at each stage of drug 
cultivation, production, and transport in areas under their control. 
The FARC, through attacks on military and Colombian National Police 
(CNP) logistical bases and outposts, have negatively affected the GOC's 
aerial eradication efforts. CNP and U.S.-owned aircraft conducting 
eradication missions were hit by ground fire in guerrilla-controlled 
areas 48 times last year.
---------------------------------------------------------------------------
    \3\ See for example, Colombia on the Brink by Michael Shifter, 
Foreign Affairs, July/August 1999 and Colombia's Three Wars: U.S. 
Strategy at the Crossroads, a Strategic Studies Institute report, 
Gabriel Marcella and Donald Schulz, March 5, 1999.
---------------------------------------------------------------------------
<bullet> A society under brutal attack
    In Colombia, the melding of guerrilla movements, or in some cases, 
paramilitary groups, and international drug trafficking organizations 
has created an unprecedented threat to the rule of law, democratic 
institutions, and the very fabric of society. More than 35,000 
Colombians have been killed over the past decade in Latin America's 
longest-running internal conflict. There are an estimated 20,000 
guerrillas threatening democratic governance and the viability of the 
State. In recent years, paramilitary organizations have evolved from 
their origins as self-defense organizations that sprang up in the 
absence of effective law enforcement and the rule of law. Today, they 
are competing with insurgent organizations and government forces for 
personnel and control of territory. They are also implicated in an 
increasing number of politically motivated killings and other gross 
violations of human rights. In addition to the involvement in the drug 
industry by guerrilla and paramilitary groups, the acceleration of the 
deadly spiral of violence in Colombia can be attributed to the 1980s 
boom in the cocaine industry and the extensive investments in all 
aspects of Colombia's economy by fabulously wealthy drug traffickers 
who were seeking to reinvest their fortunes, expand drug cultivation 
and production, and legitimize their social standing.\4\
---------------------------------------------------------------------------
    \4\ Colombia's Three Wars: U.S. Strategy at the Crossroads, pp.14-
15.
---------------------------------------------------------------------------
    Colombia's ability to respond to the exploding drug threat is 
hindered by interlocking economic, political, social, and security 
challenges. The national economy is shrinking for the first time in 
three decades--GDP shrank by more than 5 percent in the first six 
months of 1999. Unemployment exceeds 20 percent. The criminal justice 
system's inability to ensure that justice will be done has resulted in 
a loss of the public's confidence. The populace, especially in the 
rural areas, is turning to the guerrillas, paramilitaries, and 
narcotraffickers for sources of employment and income. Guerrilla 
recruits are reportedly paid more than twice as much as Army 
conscripts. Colombians are emigrating in increasing numbers to the 
United States, Costa Rica, and Spain among other places. Over half a 
million Colombians have left for good in 1998-1999.
    Colombian security forces are presently incapable of conducting 
counterdrug operations in the Putumayo and experience great difficulty 
in conducting operations in the Caqueta growing regions, the source of 
two-thirds of Colombia's coca, because of the dangers posed by the 
guerrillas. Narco-guerrillas have achieved dominance of these regions 
because of serious shortfalls in training, force structure, leadership, 
intelligence, mobility, communications in the Armed Forces and Police, 
lack of government presence and services in rural areas, and the 
extreme geography of many of those areas. The series of tactical 
battlefield defeats suffered by the Armed Forces in recent years lead 
them to undertake some fundamental reforms. The Armed Forces and Police 
have had few encouraging successes against the FARC in 1999.
    The Colombian Army, with U.S. assistance, is creating a special 
Counternarcotics Battalion that will work in support of or in 
coordination with the CNP in their efforts to move counterdrug 
operations into the Putumayo region. The members of this unit have been 
carefully selected, fully vetted, and are being trained and equipped 
with U.S. support. The GOC has also reinvested in the base at Tres 
Esquinas in southern Colombia to provide a center of counterdrug 
operations in the heart of the coca-growing region. Colombia's Joint 
Task Force-South is located there. Tres Esquinas will also soon be the 
site of the Colombian Joint Intelligence Center, which will bring 
together the counterdrug intelligence efforts of all the Colombian 
military forces and the CNP. Once the runway extension at Tres Esquinas 
has been completed to handle more types of aircraft, the Colombian Air 
Force will be able to station additional aircraft there as required in 
support of police and military counterdrug operations.
    Such inter-service cooperation is absolutely key to creating the 
security conditions and force structure that will make it possible for 
Colombia's drug eradication, alternative development and law 
enforcement counterdrug programs to be successful. The 2,500 people who 
comprise the CNP's Anti-Narcotics Division nationwide are courageous, 
professional, and dedicated, but they are no match for some 20,000 FARC 
and ELN guerrillas, 6,000 paramilitary members, and hundreds of violent 
drug criminals operating in much of Colombia. Tres Esquinas will also 
serve as a point of departure for counterdrug operations, air 
interdiction of trafficker flights, and riverine patrolling. Unless the 
GOC can contest guerrilla and paramilitary dominance in drug-producing 
regions, cultivation and production will continue to expand, and the 
outlaw movements will continue to strengthen as a result of the 
enormous amounts of money generated by the drug trade.
    The Administration is fully supportive of President Pastrana's 
desire to end Colombia's civil conflict through negotiations for a 
peace agreement with guerrilla groups. Unfortunately, this peace 
initiative has yet to yield many positive results. Negotiations 
scheduled to begin July 7 were postponed by the FARC who then launched 
a nationwide offensive on July 8 from the so-called DMZ, again making a 
mockery of their commitment to negotiated peace. FARC, ELN, and 
paramilitary forces continue committing acts of violence against the 
government and the civilian population, including widespread 
kidnapping. Three American citizens, representatives of a non-
governmental organization working for the rights of indigenous peoples, 
were among the victims of the violence, having been murdered by the 
FARC in March 1999. Violence, including mass kidnappings from a church 
and on airline flights, continues at a level that undermines democracy 
and the rule of law. Rural violence has spurred campesino families to 
flee to urban areas already strained due to high unemployment. There 
are now more than one million internally displaced people in Colombia.
<bullet> Deteriorating Regional Situation
    Colombia is now clearly the new center of gravity for the cocaine 
industry. Negative trends also appear to be emerging elsewhere in the 
region, in some cases perhaps as a consequence and spillover from 
Colombia's troubles.
    In Peru, the drug control situation is deteriorating. Traffickers 
have adjusted routes and methods to reduce the effectiveness of law 
enforcement and interdiction operations. Peruvian coca prices have been 
rising since March 1998, making alternative development and eradication 
more difficult. Some farmers are returning to abandoned fields and the 
central growing areas are rejuvenating. Clearly, rebounding cultivation 
in Peru would be a setback to U.S. interests.
    In Bolivia, continued reductions in cultivation are expected but 
there is cause for long term concern. The cocaine industry is still 
intact and coca prices remain high. Coca growers have instigated many 
acts of violence. Progress continues to depend on the will of the 
Banzer Administration to incur considerable political risk to achieve 
long-term coca reductions and on the availability of sufficient 
alternative development funds to provide coca farmers with licit income 
options.
    The withdrawal of U.S. counterdrug operations forces from Panama by 
December 31, 1999 will challenge our ability to maintain adequate 
levels of support to the hemispheric drug control effort. The 
Departments of Defense and State must establish a new structure to 
support forward-based, source zone, counterdrug operations to replace 
access to Panama facilities. USG efforts to establish Forward Operating 
Locations for counterdrug air interdiction operations are complicated 
by the lack to date of U.S. congressional support to secure the 
required Overseas Military Construction budget and authority. We also 
still lack long-term access agreements with the Governments of the 
Netherlands (for Aruba and Curacao) and Ecuador (for Manta).
    Colombian guerrilla and paramilitary units have found sanctuary in 
Panama's Darien Province and cross the Colombia-Panama border nearly at 
will. Guerrillas also rely on supply sources in Brazil, Ecuador, 
Venezuela, and Peru. An insurgency that once was mostly an internal 
Colombian problem is now fueled by enormous drug wealth and is gaining 
regional security significance.
                   iii--the u.s. source zone strategy
<bullet> The imperative for supply reduction
    The rule of law, human rights, and democratic institutions are 
threatened by drug trafficking and consumption. International supply 
reduction programs not only reduce the volume of illegal drugs reaching 
our shores; they also attack international criminal organizations, 
strengthen democratic institutions, and honor our international drug-
control commitments. The U.S. supply-reduction strategy seeks to:

          (1) eliminate illegal drug cultivation and production;
          (2) destroy drug-trafficking organizations;
          (3) interdict drug shipments;
          (4) encourage international cooperation; and
          (5) safeguard democracy, human rights, and respect for the 
        rule of law.
<bullet> A source zone focus
    The United States continues to focus priority international drug-
control efforts on source countries. International drug-trafficking 
organizations and their production and trafficking infrastructures are 
most concentrated, detectable, and vulnerable to effective law 
enforcement action in source countries. In addition, the cultivation of 
coca and opium poppy--and the production of cocaine and heroin are 
labor intensive. For these reasons, cultivation and processing are 
relatively easier to disrupt than other downstream aspects of the 
trade. The international drug control strategy seeks to bolster source 
country resources, capabilities, and political will to reduce 
cultivation, attack production, interdict drug shipments, and disrupt 
and dismantle trafficking organizations, including their command and 
control structure and financial underpinnings.\5\
---------------------------------------------------------------------------
    \5\ Additional information about international drug-control 
programs is contained in the Classified Annex to the Strategy.
---------------------------------------------------------------------------
<bullet> The international context in which we operate
    The era in which hemispheric anti-drug efforts were characterized 
by bilateral initiatives between the United States and selected Latin 
American and Caribbean nations is gradually giving way to growing 
multilateral initiatives. The 34 democratic nations in the Americas and 
the Santiago Summit of the Americas have recognized that the lines 
demarcating source, transit, and consuming nations have become blurred 
as drug abuse and drug-production become a shared problem. The growing 
trend toward greater cooperation in the Western Hemisphere has created 
unprecedented drug-control opportunities.
    The counterdrug institutions required for successful hemispheric 
cooperation are beginning to be established. Many of the requisite 
multi-national mechanisms and processes are also in place or under 
development. The anti-drug action agenda signed during the 1994 Miami 
Summit of the Americas is being implemented. All members of the 
Organization of American States endorsed the 1995 Buenos Aires 
Communique on Money Laundering and the 1996 Hemispheric Anti-Drug 
Strategy. The hemisphere's thirty-four democratically elected heads of 
states agreed during the 1998 Summit of the Americas in Santiago, Chile 
to a Hemispheric Alliance Against Drugs. All nations agreed to broaden 
drug prevention efforts; cooperate in data collection and analysis, 
prosecutions, and extradition; establish or strengthen anti-money 
laundering units; and prevent the illicit diversion of chemical 
precursors. The centerpiece of the agreement is a commitment to create 
a multilateral evaluation mechanism (MEM)--essentially, a hemispheric 
system of performance measurement. OAS/CICAD has moved rapidly since 
the Santiago Summit. In a series of two consultative meetings and six 
Intergovernmental Working Group Meetings, chaired by Canada's Jean 
Fournier and Chile's Pablo Lagos, the basic outlines of the evaluation 
system were negotiated. The system is divided into five main categories 
for evaluation: 1) National Plans and Strategies; 2) Prevention and 
Treatment; 3) Reduction of Drug Production; 4) Law Enforcement 
Measures; and 5) Cost of the Drug Problem. The MEM will be inaugurated 
during the twenty-sixth regular session of CICAD in Montevideo, Uruguay 
(October 5-8, 1999). Further discussions will be held on qualifications 
of experts for the evaluation group, the development of an evaluators' 
operations manual, and the question of financing. The week following 
the Uruguay meeting, the MEM will start its work. The results of the 
first evaluation round (using an abbreviated system) will be presented 
at the Third Summit of the Americas in Quebec City, Canada in May 2001. 
Based on guidance of Presidents, CICAD will revise MEM and prepare for 
full evaluation in year 2001.
<bullet> The Western Hemisphere Drug Elimination Act
    Last year 1998, Congress enacted the Western Hemisphere Drug 
Elimination Act (WHDEA) which authorized $2.7 billion for use by drug 
control agencies in illicit drug supply reduction activities. The WHDEA 
included $565 million in new authority for source country and regional 
programs and over $2.1 billion in new authority for the improvement of 
U.S. transit zone interdiction capabilities. In ONDCP's view, the 
priorities outlined in the WHDEA generally did not best support the 
National Drug Control Strategy. Some provisions of the Act required 
investments that exceeded well-articulated agency contingency funding 
plans. To support the WHDEA, Congress appropriated $844 million in an 
FY 1999 Emergency Supplemental Appropriations Act for counterdrug 
activities. Ironically, Congress now seems to be on a path which would 
fail to fully fund the FY 2000 budget request of the State Department's 
Bureau for International Narcotics and Law Enforcement Affairs (INL), 
which is the entity responsible for implementing many of the programs 
mandated in the WHDEA.
          iv--u.s. challenges in colombia and the source zone
<bullet> Provide adequate and responsive counterdrug support to the 
        Government of Colombia
    The United States has committed to work with the Government of 
Colombia to develop a comprehensive response to the enormously 
increased threats. We are determined to help reestablish the rule of 
law and allow the development of legitimate economic alternatives to 
the drug trade. Such support will be limited to counterdrug training, 
administration ofjustice, resources, equipment, intelligence, and 
regional political support operations, as U.S. policy is absolutely to 
not intervene militarily in Colombia's internal struggle.
    The Government of Colombia has responded to its broad array of 
challenges with a new version of its national strategy, ``Plan 
Colombia,'' which President Pastrana discussed with President Clinton 
and several members of Congress during his visit to the U.S. in late 
September. We believe that this comprehensive, integrated strategy 
provides a framework that will allow Colombia to find a way to: 
increase its capabilities to conduct counterdrug operations in the 
Putumayo, Caqueta, and poppy growing areas; improve infrastructure 
supporting eradication, interdiction, chemical control, and other 
Colombian counterdrug operations; strengthen the Colombian Joint Task 
Force-South and its military-police Joint Intelligence Center at Tres 
Esquinas; increase operational tempo of counterdrug maritime and 
riverine missions; help develop an effective criminal investigation, 
prosecution and incarceration capability; improve the economy and 
provide alternative economic development; and continue efforts to 
negotiate an end to the FARC/ELN and paramilitary violence. We believe 
at ONDCP that the key to ending Colombia's crisis is to eliminate drug 
production and trafficking and the money it provides for outlaws and 
terrorists. At the same time, we realize that drug production is linked 
to other endemic challenges in Colombia. Under Secretary of State 
Thomas Pickering is leading an interagency effort to assist the GOC to 
refine and operationalize its broad national strategy. This process 
will ensure that the U.S. Government is in the proper position to make 
well-grounded decisions about the nature and level of our ongoing 
support to Colombia.
<bullet> Prevent a reversal of counterdrug gains in Bolivia and Peru
    We face the very real possibility of reversal of the dramatic 
reductions made against the coca industry in Peru. We have seen 
indications that trafficking organizations are adjusting to the 
disruptions we've achieved since 1995. Certainly, the increased number 
of multi-ton seizures in commercial maritime conveyances suggests that 
this mode of trafficking may be more important than before.
    <bullet> Restructure the theater interdiction architecture: 
establishing forward operating locations
    Over the past decade, the majority of Department of Defense support 
to the cocaine source country effort was provided from U.S. military 
facilities in Panama. Over two thousand counterdrug flights per year 
originated from Howard Air Force Base. This vital facility supported--
operationally and logistically--interagency detection, monitoring, and 
tracking operations from the Customs Service, Defense Department, Coast 
Guard, CIA, and DEA conducted by P-3 Airborne Early Warning (AEW) 
aircraft, P-3 Counterdrug Upgrade (CDU) aircraft, E-3 AWACs, E-2 early 
warning aircraft, F-16 fighters, C-550 Citation trackers, and various 
other aircraft. The U.S. military presence in Panama also supported 
transit zone interdiction operations, provided facilities for pier-side 
boarding and destructive searches, supported training in small boat 
operations and maintenance, and provided jungle operations training for 
small counterdrug units. The counterdrug capabilities resident in 
Panama provided significant support to the efforts of the U.S. Customs 
Service, the U.S. Coast Guard, the Drug Enforcement Administration, and 
our many regional partners.
    As a result of the closure of Howard Air Force Base on May 1, 
1999--as part of the drawdown of U.S. forces in Panama required to be 
completed by December 31, 1999--the Departments of Defense and State 
are working to establish Forward Operating Locations (FOLs) in Manta, 
Ecuador and Aruba/The Netherlands Antilles (Curacao). Temporary interim 
agreements have been reached with Ecuador and The Netherlands. 
Negotiations are underway for long-term agreements that will allow 
significant infrastructure improvements to facilitate around-the-clock 
operations at both locations.
    The timely replacement of Howard Air Force Base's counterdrug 
capabilities is dependent upon a number of key steps that are already 
either in progress or under coordination. The restoration of full air 
and sea interdiction coverage will require significant Overseas 
Military Construction, especially in Ecuador, to improve FOL 
facilities. Additional legislative authority will be required to 
obligate FOL upgrade funds. Budget estimates for the establishment of 
FOLs may be revised after detailed site surveys are completed. The 
interim agreements with Ecuador and Aruba/Curacao are scheduled to 
expire within one year's time. Long-term agreements are still being 
negotiated.
    A concerted U.S. government effort is required over the next 
eighteen months to ensure that we maintain full support to the National 
Drug Control Strategy as we reestablish our regional counterdrug 
support infrastructure. This interagency effort must include: long-term 
agreements with host nations, overseas military construction authority 
and budgets, and commitment from interagency force providers to 
maintain an uninterrupted level of effort. The Secretaries of State and 
Defense have indicated full commitment to ensuring that the necessary 
steps are taken to bring the FOLs to full operational status. We now 
need to ensure that all of the other affected elements of the U.S. 
Government are similarly prepared to support this FOL plan. We cannot 
afford a long-term degradation of detection and monitoring capabilities 
over the Andean Ridge, Caribbean and Eastern Pacific trafficking 
routes.
                               conclusion
    Experience teaches that countries that enjoy political, economic, 
and social stability derived from effective democratic institutions are 
most capable of mounting coherent policies to reduce drug cultivation, 
production, trafficking and money laundering. U.S. international 
counterdrug assistance must continue to be carefully coordinated by our 
Ambassadors to ensure that drug-policy objectives support U.S. foreign 
policy goals of promoting democracy and protecting human rights. In 
many instances, such U.S. assistance must take the form of building 
military social and political institutions that further democratic 
governance while confronting the drug trade.
    The recent operational loss of a U.S. Army reconnaissance aircraft 
in Colombia--and the death of five U.S. Army crew members and two 
Colombian Air Force riders--is a reminder of the real dangers inherent 
in confronting criminal international drug organizations. The men and 
women in the Department of Defense, Coast Guard, Customs Service and 
DEA risk their lives for our national security. We appreciate their 
efforts. In August 1994 we also mourned the loss of five DEA special 
agents who were killed in a plane crash during a reconnaissance mission 
near Santa Lucia, Peru.
    Chairman Helms, Senator Coverdell, we thank you, the rest of the 
Committee, and the Congress as a whole for the bipartisan support you 
have provided our drug-control efforts in the Western Hemisphere. Your 
support has been essential to the progress we achieved over the past 
three years in reducing coca cultivation and cocaine production in 
Bolivia and Peru. With your continued support we can stand by 
courageous and dedicated Colombians who at great personal risk share 
our commitment to confronting criminal drug organizations and the 
devastation they cause to the international community.
    Thank you for the opportunity to appear before you today.

    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
    
    The Chairman. All Senators present who worked to increase 
it back to $52 million, please----
    General McCaffrey. That is easy.
    The Chairman [continuing]. Raise your hand if you----
    You are going to have to use your own judgment.
    I, unfortunately, have another commitment that I cannot get 
around. Before I go, General McCaffrey, I dislike missing your 
testimony, Tom, but on July 13, General, you wrote to Secretary 
Albright, sent her a discussion paper, describing the growing 
drug crisis, and I quote, ``The explosion of cocaine in 
Colombia,'' which you just discussed. Now, that was 3 months 
ago.
    When do you think we are going to see the administration's 
plan for dealing with this crisis?
    General McCaffrey. Well, it is a very serious engagement on 
the issue. Secretary Pickering is our quarterback. He is as 
good as we can produce. Clearly, Madeleine Albright, Bill 
Cohen, and Sandy Berger are all engaged. This fall, we have to 
give you our recommendation. This is an emergency situation.
    The Chairman. Tom, do you have any comment on that?
    Secretary Pickering. I would second what General McCaffrey 
has said. We have all seen what he has laid out for you as an 
explosion in Colombia, an issue that we are all very much 
concerned about, and we have now taken Plan Colombia, we are 
looking at that very carefully to gauge our support and what 
others will be doing. We will certainly, after we finish that 
review, come forward and consult with you, you are central to a 
bi-partisan effort to make this happen, and I think we all know 
how long you are going to be in session, more or less, and I 
think we all know that we have to get something up here while 
you are here.
    The Chairman. I am sorry you brought that up.
    General McCaffery. That is why I said more or less, Mr. 
Chairman.
    The Chairman. Senator Coverdell and Senator DeWine have a 
plan, as you know, based on what the people in the front lines 
say is needed to get the job done, and that totals, what is it, 
$1.5 billion. The administration has told agencies internally 
to cap their requests at $1 billion.
    Now, I do not know how to phrase this question, but are you 
committed to doing this job right, and can you do it with $1 
billion? Both of you.
    General McCaffrey. Well, I think the numbers--what we have 
tried to do is we said we need a strategy step one, not an 
equipment list, and there has been an intensive debate. I would 
say that Mr. Berger, Secretary Albright, and I all believe we 
have to adequately support Plan Colombia, and the numbers range 
between $1 billion and $2 billion-plus.
    Now, we are trying to go through an analytical process to 
sort out what will achieve our purpose.
    I think most importantly, what many of us believe, 
certainly, I think Secretary Pickering and I, it is not just 
this budget year. We have to tell the FARC and the other 
combatants, talk now, or the situation will move in the wrong 
direction.
    So the Colombian democracy has to see a long-term 
commitment to them, 3 years, minimum. I think we are going to 
try and send Capitol Hill a plan that has a long-term focus to 
it.
    The Chairman. Good. Senator Feingold.
    Senator Feingold. I have several questions for Mr. 
Pickering, but I assume he will be testifying still.
    The Chairman. Yes.
    Senator Feingold. Let me just ask one question of the 
General then.
    General, Carlos Castano, the notorious para-military leader 
and drug trafficker, has been the subject of an order for his 
capture for a long time. Why have not the Colombian military or 
the Colombian police, under General Jose Serrano, been able to 
take Mr. Castano prisoner?
    General McCaffrey. Well, I think it is an unsettling 
comment on the internal situation in Colombia. The chaos, the 
violence is--the situation in Colombia is almost unbelievable, 
in terms of the inability of the forces of democracy to control 
their own land area. Forty percent of the country, essentially, 
you cannot move around in, unless you are in a multi-battalion 
formation.
    I do believe that there is a commitment on the part of 
President Pastrana. My own personal view is that President 
Pastrana, his Minister of Defense, and General Serrano, the 
police chief, are committed to bringing under control these 
savage reprisals by para-military forces, which are clearly now 
the dominant source of suffering of the Colombian people in 
some parts of the country.
    The FARC and the ELN are involved in mindless violence, 
which is reciprocated by the para-militaries. I think the 
democratic forces are trying to confront it with limited 
success.
    Senator Coverdell [presiding]. A logistical question, if I 
might, to both of you. I thought, given the nature of the 
questions being addressed to both of you, we could go ahead and 
hear Secretary Pickering's remarks, and then let the questions 
go to both of you, if that will not inconvenience you, General 
McCaffrey.
    General McCaffrey. Yes, that is fine.
    Senator Coverdell. I wonder if we might go ahead and hear 
from you then, Secretary Pickering.

STATEMENT OF HON. THOMAS R. PICKERING, UNDER SECRETARY OF STATE 
           FOR POLITICAL AFFAIRS, DEPARTMENT OF STATE

    Secretary Pickering. Thank you, Senator Coverdell, very 
much, and I thank you and the chairman, and all the other 
members who have had the willingness to come and hear us this 
morning on what is an extremely important issue.
    First, I want to say, we are very pleased to be working 
with President Pastrana. We have greatly improved and 
strengthened relations since he took office back in August 
1998.
    There are a number of difficult and serious issues still 
before us, but a reliable and committed partner like President 
Pastrana for the U.S. Government has greatly enhanced our 
ability to work in that country for the directions that I think 
we all now considered this morning several times.
    I do not think I need to review in detail why Colombia is a 
vital interest to the United States. Counternarcotcis remain 
key in our policy toward Colombia, and it is in our clear 
interest, obviously, to support President Pastrana and all the 
elements of that policy, including his work to try to bring 
peace to the country.
    Colombia is an important economic partner. It is our 
largest export market, and peace there would certainly enhance 
democracy and stability in the region, as you, yourself, has 
said.
    We clearly need to continue to work very hard. General 
McCaffrey covered what is going on. DEA estimates that 75 
percent of the heroin consumed in the east coast comes from 
Colombia, although, Colombia produces less than 3 percent. We 
have seen the figures on cocaine growth in the region, despite 
the fact that we have had very effective eradication campaigns 
in some area. But Colombia's national sovereignty is now 
increasingly threatened by well-armed and ruthless guerrillas, 
by para-militaries, and by narco trafficking interests, which 
are all, as we have seen, directly inter-linked in many ways.
    Although, the government is not now directly at risk, these 
threats are slowly eroding the authority of the central 
government, and depriving it of the ability to govern outlying 
areas. It is in these lawless areas where the guerrilla groups, 
the paramilitaries, and the traffickers flourish, and that the 
narcotics industry is literally finding a refuge. As a result, 
large swaths of Colombia are in danger of becoming narco-
districts for the production, transportation, processing and 
marketing of these substances.
    These links between narcotics trafficking and the guerrilla 
and paramilitary movements are well-documented. Profits from 
these illegal activities, combined with a weakened economy and 
very high unemployment, have enabled the FARC, in particular, 
to grow rapidly in terms of manpower and military strength. We 
estimate that they now have 10,000-15,000 active members, the 
ELN has around 5,000, and there are an estimated 3,000 to 5,000 
paramilitary members, who all participate in this connection. 
Much of the recruiting success occurs in marginal rural areas 
where the groups can offer salaries much higher than those paid 
by legitimate employers. Estimates of guerrilla income from 
narcotics trafficking and other illicit activities, kidnapping 
and extortion, are unreliable, but clearly exceed $100 million 
a year, and could be much greater. Of this, we estimate some 30 
percent to 40 percent comes directly through the drug trade.
    Paramilitary groups also have clear ties to important 
narcotics traffickers, and their leaders have even publicly 
admitted their participation in the drug trade.
    We have thus reiterated recently, General McCaffrey, 
President Clinton and Secretary Albright, the high priority we 
place on helping Colombia's democracy, as it faces these 
interrelated challenges of narcotics, guerrillas, 
paramilitaries, and poverty.
    The U.S. will work closely with President Pastrana to 
support these efforts, to initiate a peace process, to broaden 
counter-narcotics activities, to foster economic growth and 
development, and to protect internally displaced persons.
    We have already expanded our assistance to Colombia to over 
$300 million in the last fiscal year. Colombia is now, 
therefore, the largest recipient of U.S. counter-narcotics aid 
in the world, and the third largest recipient of American 
assistance overall.
    Let me for a minute address Plan Colombia, which we have 
talked about, and which we are now engaged in analyzing. 
Colombia has developed a strategic approach to these national 
challenges for the first time. The Plan Colombia, a plan, as 
they call it, for peace, prosperity, and strengthening of the 
state, is a major step in the right direction.
    At this point, I would like to ask permission to submit 
that to you for the record for your own study.
    Senator Coverdell. It will be so inserted.
    [The information referred to is in the appendix on page 
55.]
    Secretary Pickering. The plan is ambitious, but realistic. 
It is a package of mutually reinforcing policies designed to 
revive Colombia's battered economy, strengthen the democratic 
pillars of the society, promote the peace process and to 
eliminate the sanctuaries for narcotics producers and 
traffickers, and generally attack overall, the narcotics 
problem.
    The strategy combines existing policies in Colombia with 
new initiatives, to forge an integrated approach to resolving 
Colombia's most pressing national challenges.
    We consulted closely, as General McCaffrey has said, on the 
building blocks, which make up the plan, with Colombian leaders 
and senior officials, but the plan was formulated, drafted and 
approved in Colombia by President Pastrana and his team. 
Without its Colombian origins and its Colombian stamp, it would 
not have the support and commitment of Colombia behind it, 
which is absolutely necessary if there is to be any serious 
chance for success.
    We share Colombia's assessment that an integrated, multi-
year, comprehensive approach to Colombia's interlocking 
challenges holds the best promise for success. Counter-
narcotics efforts will be most effective when combined with 
rigorous law enforcement and military cooperation, 
complementary alternative development programs, and measures to 
assure human rights accountability.
    Similarly, promoting respect for the rule of law is just as 
essential for attracting foreign investors as it is for 
securing a durable peace arrangement.
    Plan Colombia covers five critical themes: economic policy, 
judicial system, counter-narcotics, democratization, human 
rights and social development, and the peace process.
    The Colombian economy, historically, has been a strong 
performer. This year it is in the midst of its worst recession, 
indeed, its first recession since 1931. This is due to the 
emerging market's fallout, longstanding fiscal problems, and 
now mounting losses in the country's financial sector.
    The economy contracted 5.8 percent in the first quarter of 
1999 and the GDP will probably drop by 3 to 4 percent this 
year. Unemployment is at 20 percent. You can see how that plays 
into the problem.
    To deal with this, Colombians are proposing reforms, 
stabilizing banking sector, correcting fiscal imbalances, 
promoting trade and foreign investment, and a renewal of the 
preferential trade agreements we have under the Andean 
relationship with the United States, and to target government 
assistance on those most hurt by the stabilization measures.
    They have been working with the IMF, as we have heard, and 
over the next year, the IMF will provide $2.7 billion for 
balance of payments support, and other international financial 
institutions will provide $4.2 billion to Colombia in the same 
period. About three-quarters of a billion, as you have noted, 
Senator Coverdell, is directly related to Plan Colombia.
    The judicial system is weak and unresponsive, and has too 
often prompted Colombians to take the law into their own hands, 
with tragic results. They propose reforming the judicial system 
to make it fair, accessible, independent and effective.
    This will clearly take time. It will require work with the 
legislative branch, as well as the judicial branch in Colombia. 
They propose to strengthen investigatory and prosecutorial 
capabilities. They are going to undertake vigorous enforcement 
against corruption, propose a real increase in training on 
human rights issues, and they want to reduce levels of violence 
and strengthening the rule of law.
    The adoption in their judicial system of the accusatorial 
process in place of the traditional interrogatory trial process 
will help, in our view, in the reform of the judiciary, and in 
making it more effective.
    Now, a central issue. To deal with counter-narcotics, the 
strategy seeks to prosecute and incarcerate individuals and 
organizations who are associated with the drug trade, dismantle 
trafficking organizations, something they have had some success 
with, neutralize the drug trade's financial system, introduce 
an effective air interdiction system, and create a strong 
disincentive for drug crop production through eradication and 
law enforcement.
    In all of these objectives, Colombia intends to mesh its 
national initiatives with international efforts, and regional 
cooperation.
    They envision closer counter-narcotics cooperation between 
the national police and selected carefully vetted units of the 
Colombian military against heavily armed guerrillas and 
paramilitaries.
    They also believe that breaking the nexus between the 
guerrilla groups and the narco-traffickers, particularly in 
southern Colombia, the area that General McCaffrey just pointed 
out, as the area of greatest growth, is key to significant 
progress, and the efforts to bring peace to the country, reduce 
narco-trafficking, and deny a major source of funding to 
guerrillas and paramilitaries.
    We are involved with Colombia on a wide range of programs 
in support of a counter-narcotics strategy already. U.S. policy 
of aiding aggressive Colombian eradication efforts has largely 
controlled the coca crop, as we have seen from the charts, in 
the Guaviare region and is beginning to make inroads in 
Caqueta.
    The gains made, however, have been more than offset by the 
explosive growth in the coca crop in Putumayo, and now in 
northern Colombia, in Norte de Santander Province.
    Putumayo, on the Ecuador border, is an area that remains 
beyond the reach of the government's eradication operations. 
Strong guerrilla presence and weak or non-existent state 
authority have contributed to the dire situation in Putumayo.
    The Government of Colombia plans to launch a comprehensive 
step-by-step effort there to counter the coca explosion, 
including eradication, interdiction, and alternative 
development over the next several years. This is one of the 
heart elements of Plan Colombia.
    In the Pastrana administration, the U.S. has a full and 
committed partner that shares our goals in this area for 
Colombia, and is dedicated to complete cooperation on the full 
range of counter-narcotics efforts.
    The Colombian Army has greatly expanded cooperation with 
the national police, and as I said, has formed a new, fully 
vetted counter-narcotics battalion, specifically designed to 
work directly with CNP on these missions.
    The air force has increased air interdiction, combat air 
support and intelligence support in the effort.
    We also believe the Colombian Marine Corps' riverine 
interdiction contribution, which has led to seizures along 
Colombia's extensive river system, merits our positive 
attention.
    Colombia has a large inventory of seized narco-trafficker 
farms and ranches which could be used to resettle coca farmers 
from remote areas, where alternative crops would not be 
feasible due to land and other agricultural conditions. Legal 
and security issues have inhibited this in Colombia.
    However, the government is now actively reviewing the 
possibility of establishing a pilot program of transferring the 
land to former coca farmers, with appropriate safeguards.
    We have also supported the efforts of the Pastrana 
administration to advance the protection of human rights and to 
prosecute those who abuse them. Complicity by elements of 
Colombia's security forces with the right wing militia groups 
is and remains a serious problem, although the government has 
taken important steps in holding senior military and police 
officials accountable for participation in human rights 
violations.
    Since assuming office in August 1998, President Pastrana 
has demonstrated his government's commitment to protecting 
human rights by cashiering a number of senior and mid-level 
officers for complicity with paramilitary groups. Three 
generals have been dismissed. Most recently, Brigadier General 
Bravo was dismissed for his failure to take measures to prevent 
right-wing militia massacres that occurred in La Gabarra and 
Tibu in late August 1999.
    They have also made reforms in their military courts. In 
1997, the Constitutional Court told the military judicial 
system to relinquish to the civilian judiciary the 
investigation and prosecution of grave human rights violations.
    In the last 2 years, civilian courts have convicted 240 
members of the armed forces and police of human rights 
violations.
    The Pastrana Government has also begun a program to ensure 
the physical safety of human rights defenders. Much more has to 
be done, but we believe the Pastrana administration has shown 
sincerity in its commitment to improving the human rights 
situation.
    Our assistance to Colombian military and police forces is 
provided strictly in accordance with section 568 of the fiscal 
year 1999 Foreign Operations Appropriations Act, known as the 
Leahy amendment, and section 8130 of the fiscal year 1999 
Defense Appropriations Act, its counterpart.
    All military units of the Colombian security forces which 
receive counter-narcotics assistance are carefully vetted by 
our embassy in Colombia and by the Department of State.
    No U.S. assistance can be provided through the Department 
of State to those military units for whom we have credible 
evidence of the commission of human rights violations, unless 
the Government of Colombia takes adequate steps to bring those 
responsible to justice.
    There are strict procedures in place to verify that 
individuals and units proposed for our assistance and training 
have not been involved in human rights abuses.
    Democratization and social reform are also important parts 
of this particular effort. They recognize in Colombia that they 
can regain the confidence of its citizens only by strengthening 
its democratic and social institutions, particularly those that 
assist victims of the country's violence and drug trade.
    Accordingly, they are proposing measures to promote respect 
for human rights more generally, to assist those displaced by 
civil strife, to implement alternative development programs, to 
combat corruption, and strengthen local governments and the 
role of civil society, and to provide sustainable development 
assistance to areas that have been torn up by the conflict.
    The government acknowledges the urgent need to improve 
physical security and protection for human rights workers and 
the non-governmental organizations to which they belong. 
Currently, they have dedicated $5.6 million to provide that 
physical protection to approximately 80 human rights activists 
and their offices.
    The plan outlines measures to strengthen the human rights 
ombudsman's office, as well as to establish a permanent 
national commission on human rights and international 
humanitarian law.
    One of the most serious problems in Colombia, one that 
probably does not receive adequate attention, is the plight of 
its internally displaced persons. The scope of the problem is 
really enormous, and I was pleased that you brought forward 
figures on the 800,000 displaced since 1995, Senator. The 
vicious 40-year conflict, now being carried out between 
paramilitaries and guerrillas, is largely responsible for the 
forced displacement of Colombians.
    As many as 300,000, mostly women and children, were driven 
from their homes in 1998 alone by rural violence. NGO's report 
that Colombia has the fourth largest population of displaced 
people in the world.
    The U.S. is providing several million dollars in assistance 
to the internally displaced through the International Committee 
for the Red Cross.
    Finally, let me discuss the peace process. Colombia's 
internal conflict, which has been the longest running in the 
hemisphere, has its roots in civil strife going back to the 
1950's, and has developed over a nearly 40-year period into a 
broad-scale conflict.
    It continues each year to claim the lives of thousands of 
individuals, and it complicates seriously efforts to achieve 
important objectives, like stemming the drug trafficking.
    Resolving this conflict will take time, commitment, and 
persistence, not only by the Government of Colombia and the 
Colombian people, but by members of the international 
community, who are broadly committed to helping Colombians 
bring peace and national reconciliation to the country.
    President Pastrana has made a beginning to bringing an end 
to Colombia's civil strife through a peace agreement with 
various insurgent groups, a central goal of his administration.
    Pastrana believes, and the U.S. Government agrees, that 
ending the civil conflict and eliminating all of that 
conflict's harmful side-effects is central to solving 
Colombia's multifaceted problems.
    A peace agreement would, of course, stabilize the nation, 
it would help Colombia's economy recover, allow for further 
improvement in the protection of human rights, and make for 
further ease in the efforts to deal with the narcotics problem. 
A successful peace process would also restore Colombian 
Government authority and control in the now vacated coca-
growing region.
    But peace at any price is fool's gold, we all know that. We 
applaud the Colombian Government's determination to press the 
guerrillas to cease their practices of kidnapping, forced 
recruitment of children, and attacks against the civilian 
population.
    We have made clear to all parties that the peace process 
must support and not interfere with counter-narcotics 
cooperation, and that any agreement must permit continued 
expansion of all aspects of this cooperation.
    The return of the three American citizens, missionaries, 
from the New Tribes Mission organization, who were kidnaped in 
January 1993, remains a high priority for the U.S. Government, 
and we hold the FARC responsible for this kidnapping, and we 
call on it again to provide a full accounting of the 
whereabouts and status of these missionaries.
    We want to repeat again today our demand that the FARC turn 
over to the proper authorities those who have been responsible 
for the brutal and senseless March 4 murder of three U.S. 
citizen indigenous rights activists working in Colombia. We 
have demanded a complete investigation by legitimate law 
enforcement entities.
    In particular, the investigation needs to identify all of 
those responsible for the murder of the three U.S. activists, 
and we have insisted that the Government of Venezuela and the 
Government of Colombia identify and prosecute those individuals 
responsible for this serious crime. Both governments have been 
receptive to our requests and are pursuing efforts to bring 
those responsible to justice.
    Regarding the Department of State's contacts with the FARC, 
I want to tell you today that we initiated those contacts, as 
you know, at the request of the Pastrana Government solely in 
order to promote a peace process, which we all support, and to 
press directly the FARC for an accounting of the three New 
Tribe's missionaries. We are not a negotiating party, in any 
sense of the word. Only Colombians can do that.
    After the tragic killings of the three Americans in March, 
we immediately suspended those contacts, and they remain 
suspended today.
    Finally, during my recent trip to Colombia, President 
Pastrana requested that the U.S. Government support and help in 
Colombia's effort further to refine the comprehensive strategy 
to address the inter-related problems that confront him and his 
country.
    In response to that request, we worked closely with the 
Government of Colombia as it formulated this strategy. This 
strategy was early shared with us in the form of a draft, which 
we reviewed to ascertain how we can best help President 
Pastrana and the Colombian people implement that strategy.
    Colombia will fund the bulk of the dollars that are 
required for the strategy, over $7.5 billion, in their 
estimation, but as you have said, seeks supplementary support 
of up to $3.5 billion from the international community, 
including the United States.
    The U.S. Government has already been helpful in addressing 
Colombia's needs, and so have the international financial 
institutions, and we are currently intensively reviewing within 
the administration the Colombian plan to determine whether and 
in what additional ways our support is justified.
    We are discussing how we can use existing authorities and 
funds to support counter-narcotics operations, and we are ready 
to work with the Colombians in assessing their strategy and the 
optimum ways in which we can assist them in the effort to 
resolve this systemic series of national problems, many of 
which adversely impact directly upon citizens and businesses in 
this country.
    We are also considering how to engage further the 
international financial institutions, the European Union, and 
other potential donors, and we look forward to consulting 
further here with the Congress when we have completed this 
ongoing review.
    Mr. Chairman, the administration has been pleased by the 
bipartisan support from both Houses that share our concern for 
Colombia's future, and our recognition that this is a key 
moment in which to contribute to a positive course of events, 
and we particularly appreciate the work which Senator Coverdell 
and Senator DeWine have done on a bill, which I think fits into 
the scope of this bipartisan effort, that we do believe needs 
to be undertaken.
    Recent letters to and from the administration to the 
leadership in both Houses, and with other key Members, have 
ratified for us that sense of bipartisan commitment which is 
badly needed if we are to deal effectively with these problems, 
and concerted action now, in our view, could help over the next 
coming period to stem the illicit narcotics flow to the United 
States. Action now can also contribute to a peaceful resolution 
of a half-century of conflict, with all of its threats to 
democracy, and effectiveness of the economic changes in the 
hemisphere, and action now could return Colombia to its 
rightful historical place as one of the hemisphere's strongest 
countries and democracies.
    Thank you very much for your patience in letting me go 
through what is a long recitation, but I believe an important 
one, and I believe that it should give you now a clear 
assessment of where the Colombians are, and how we see that 
picture, and obviously, we look forward to consulting with you 
further as we develop the plans and proposals actually to carry 
out our part of the Plan Colombia and our commitment to it.
    [Prepared statement of Secretary Pickering follows:]

             Prepared Statement of Hon. Thomas R. Pickering

                      u.s. policy toward colombia
    Mr. Chairman, members of the Committee, I appreciate the 
opportunity today to discuss U.S. Government policy toward Colombia.
    The U.S. Government is delighted to be working with President 
Pastrana. We have greatly improved and strengthened bilateral relations 
since he took office in August 1998. Difficult issues still exist in 
our bilateral relations, but with a reliable and committed partner like 
President Pastrana, the U.S. government has greatly enhanced its 
cooperation and engagement to address these issues.
    Colombia is of vital interest to the United States. Although 
counternarcotics issues remain key in our policy towards Colombia, it 
is in our interest to support the Pastrana Administration and the peace 
process. Colombia is an important economic partner of the U.S., and is 
in fact our 5th largest export market in Latin America. Peace in 
Colombia would benefit not only Colombia, but would also enhance the 
stability of the region.
    Our mutual interests are directly at stake in Colombia. Drug 
trafficking and abuse cause enormous social, health, and financial 
damage in the United States. The problems confronting Colombia directly 
affect communities not only within that nation, but in the workplaces, 
schoolyards, and city streets of communities throughout the United 
States. Over 80 percent of the world's supply of cocaine is grown, 
processed, or transported through Colombia. The U.S. Drug Enforcement 
Agency estimates that up to 75 percent of the heroin consumed on the 
East Coast of the United States comes from Colombia--although Colombia 
produces less than 3 percent of the world's heroin. The U.S., 
therefore, has a vital interest in supporting the Colombian 
government's comprehensive strategy to halt the spread of illegal 
drugs, promote human rights, advance the peace process, and increase 
trade and investment.
    Colombia's national sovereignty is increasingly threatened by well-
armed and ruthless guerrillas, paramilitaries and the narcotrafficking 
interests which are inextricably linked. Although the Government is not 
directly at risk, these threats are slowly eroding the authority of the 
central government and depriving it of the ability to govern in 
outlying areas. It is in these lawless areas, where the guerrilla 
groups, paramilitaries and narcotics traffickers flourish, that the 
narcotics industry is finding refuge. As a result, large swathes of 
Colombia are in danger of being narco-districts for the production, 
transportation, processing and marketing of these substances.
    These links between narcotics trafficking and the guerrilla and 
paramilitary movements are well documented. Profits from illegal 
activities, combined with a weakened economy and high unemployment, 
have enabled the PARC, in particular, to grow rapidly in terms of 
manpower. We estimate that the PARC now has 10,000-15,000 active 
members, the ELN around 5,000, and that there are an estimated 3-5,000 
paramilitary members. They all participate in this narcotics 
connection. Much of the recruiting success occurs in marginalized rural 
areas where the groups can offer salaries much higher than those paid 
by legitimate employers. Estimates of guerrilla income from narcotics 
trafficking and other illicit activities, such as kidnapping and 
extortion, are unreliable, but clearly exceed $100 million a year, and 
could be far greater. Of this, we estimate some 30-40% comes directly 
from the drug trade. Paramilitary groups also have clear ties to 
important narcotics traffickers, and paramilitary leaders have even 
publicly admitted their participation in the drug trade.
    President Clinton and Secretary Albright have recently reiterated 
the high priority we place on helping Colombia's democracy, as it faces 
these interrelated challenges of narcotics, guerrillas, paramilitaries, 
and poverty. The U.S. is working closely with the Pastrana 
Administration to support his efforts to initiate a peace process, to 
broaden counternarcotics activities, to foster economic growth and 
development, and to protect internally displaced persons. We have 
expanded our assistance to Colombia to over $300 million in FY99, 
making Colombia the largest recipient of U.S. counternarcotics aid in 
the world.
Plan Colombia
    The Government of Colombia (GOC) has developed a strategic approach 
to its national challenges. The ``Plan Colombia--Plan for Peace, 
Prosperity, and Strengthening of the State'' is a major step in the 
right direction. The Plan is an ambitious, but realistic, package of 
mutually reinforcing policies to revive Colombia's battered economy, to 
strengthen the democratic pillars of the society, to promote the peace 
process and to eliminate ``sanctuaries'' for narcotics producers and 
traffickers. The strategy combines existing GOC policies with new 
initiatives to forge an integrated approach to resolving Colombia's 
most pressing national challenges.
    We consulted closely on the ``building blocks,'' which make up the 
plan, with Colombian leaders and senior officials. But the plan was 
formulated, drafted and approved in Colombia by President Pastrana and 
his team. Without its Colombian origins and its Colombian stamp, it 
would not have the support and commitment of Colombia behind it needed 
for it to have a serious chance of success.
    The USG shares the GOC's assessment that an integrated, 
comprehensive approach to Colombia's interlocking challenges holds the 
best promise of success. For example, counternarcotics efforts will be 
most effective when combined with rigorous GOC law enforcement/military 
cooperation, complementary alternative development programs and 
measures to assure human rights accountability. Similarly, promoting 
respect for the rule of law is just as essential for attracting foreign 
investors as it is for securing a durable peace agreement.
    Plan Colombia covers five critical themes: economic policy; the 
judicial system; counternarcotics; democratization, human rights, and 
social development; and the peace process.
Economic Policy
    The Colombian economy, historically a strong performer, is in the 
midst of its worst recession since 1931 due to the emerging markets 
fallout, longstanding fiscal problems, and now mounting losses in the 
country's financial sector. The economy contracted 5.8 percent in the 
first quarter of 1999 and GOP is forecast to drop by 3-4 percent this 
year. Unemployment is currently at almost 20 percent. To deal with this 
downturn, the GOC is proposing reforms that will stabilize the banking 
sector and correct fiscal imbalances, promote trade and foreign 
investment, renew preferential trade agreements with the U.S., and 
target government assistance to those most hurt by the stabilization 
measures.
    The Colombian Government has been working closely with the 
International Monetary Fund on an agreement to obtain resources needed 
to support the Government's tough economic adjustment. Over the next 
three years the IMF will provide $2.7 billion for balance of payments 
support, and other IFIs will provide $4.2 billion to Colombia. In a 
recent step, the Colombian Government announced it would abandon its 
exchange rate band, a step many economists had recommended, and float 
its currency.
Judicial System
    Colombia's weak and unresponsive judicial system has all too often 
prompted many Colombians to take the law into their own hands, with 
tragic results. The GOC proposes reforming the judicial sector to make 
it fair, accessible, independent and effective. Working with the 
Colombian legislative and judicial branches, the GOC proposes to 
strengthen the GOC's investigatory/prosecutorial capabilities, to 
undertake vigorous enforcement against corruption, and to increase 
training in human rights issues, thereby reducing levels of violence 
and strengthening the rule of law. Adoption of an accusatorial process 
in place of an interrogatory trial process will help in the reform of 
the Colombian judiciary and in ensuring more effective capabilities in 
Colombia in this critical area.
Counternarcotics
    To deal with counternarcotics issues, the GOC's strategy seeks to 
prosecute and incarcerate individuals and organizations associated with 
the drug trade, to dismantle trafficking organizations, to neutralize 
the drug trade's financial system, to introduce an effective air 
interdiction system, and to create a strong disincentive for drug crop 
production through eradication and law enforcement. In all of these 
objectives, the GOC intends to mesh its national initiatives with 
international efforts. The GOC envisions closer counternarcotics 
collaboration between its national police and select carefully vetted 
units of the Colombian military against heavily armed guerrillas and 
paramilitaries. The GOC also believes that breaking the nexus between 
Colombia's guerrilla groups and narcotraffickers, particularly in 
southern Colombia, is key to significant progress in its efforts to 
bring peace to the country, reduce narcotrafficking, and deny a major 
source of funding to guerrillas and paramilitaries.
    The USG is involved with the government of Colombia on a wide range 
of programs in support of our counternarcotics strategy. The U.S. 
policy of aiding aggressive Colombian eradication efforts has largely 
controlled the coca crop in the Guaviare region and is beginning to 
make inroads in Caqueta. The gains made, however, have been more than 
offset by the explosive growth in the coca crop in Putumayo, and in 
Norte de Santander. Putumayo is an area that remains beyond the reach 
of the government's coca eradication operations. Strong guerrilla 
presence and weak state authority have contributed to the dire 
situation in the Putumayo. The Government of Colombia plans to launch a 
comprehensive step-by-step effort there to counter the coca explosion, 
including eradication, interdiction, and alternative development over 
the next several years.
    In the Pastrana Administration, the U.S. has a full and committed 
partner that shares our counternarcotics goals in Colombia and is 
dedicated to complete cooperation on the full range of counternarcotics 
efforts. The Colombian Army has greatly expanded cooperation with and 
support for the Colombian National Police, and has formed a brand new, 
fully vetted counternarcotics battalion, specifically designed to work 
directly with CNP on counternarcotics missions. The Colombian Air Force 
has increased air interdiction, combat air support and intelligence 
support to the counter-drug effort. We also believe the Colombian 
Marine Corps' riverine interdiction contribution, which has led to 
seizures along Colombia's extensive river system, merits positive 
attention. Cooperation with the Colombian military on counternarcotics 
operations has never been better.
    The GOC has a large inventory of seized narco-trafficker farms and 
ranches which could be used to resettle coca farmers from remote areas 
where alternative crops would not be feasible due to land conditions. 
Legal and security issues have inhibited this. However, the GOC is 
reviewing the possibility of establishing a pilot program of 
transferring the land to coca growers with appropriate safeguards.
    We have also strongly supported the efforts of the Pastrana 
Administration to advance the protection of human rights and to 
prosecute those who abuse them. Complicity by elements of Colombia's 
security forces with the right wing militia groups remains a serious 
problem, although the GOC has taken important steps in holding senior 
military and police officials accountable for participation in human 
rights violations. Since assuming office in August of 1998, President 
Pastrana has demonstrated his Government's commitment to protecting 
human rights by cashiering a number of senior and mid-level officers 
for complicity with paramilitary groups. Three generals have been 
dismissed; most recently Brigadier General Bravo for his failure to 
take measures to prevent right wing militia massacres that occurred in 
La Gabarra and Tibu in late August of 1999.
    The GOC has also made reforms in its military courts. In 1997, the 
Constitutional Court directed the military judicial system to 
relinquish to the civilian judiciary the investigation and prosecution 
of grave human rights violations and other alleged crimes not directly 
related to acts of service. In the last two years, civilian courts have 
convicted 240 members of the armed forces and police of human rights 
violations.
    The Pastrana Government has also begun a program to ensure the 
physical safety of human rights defenders. Much more remains to be 
done, but we believe the Pastrana Administration is sincere in its 
commitment to improving the human rights situation in Colombia.
    U.S. assistance to Colombian military and police forces is provided 
strictly in accordance with Section 568 of the FY99 Foreign Operations 
Appropriations Act (the so-called Leahy Amendment) and Section 8130 of 
the FY99 Defense Appropriations Act. All military units of the 
Colombian security forces which receive counternarcotics assistance are 
carefully vetted by the Embassy and the Department of State. No USG 
assistance is provided to those military units for whom we have 
credible evidence of the commission of gross human rights violations, 
unless the GOC has taken adequate steps to bring those responsible to 
justice. There are strict procedures in place to verify that 
individuals and units proposed for USG assistance and training have not 
been involved in human rights abuses.
Democratization and Social Reform
    The GOC recognizes that it can regain the confidence of its 
citizens only by strengthening its democratic and social institutions, 
particularly those that assist Colombian victims of the country's 
violence and drug trade. Accordingly, the GOC is proposing measures to 
promote respect for human rights, to assist those displaced by civil 
strife, to implement alternative development programs, to combat 
corruption, to strengthen local governments and the role of civil 
society, and to provide sustainable development assistance to areas 
torn by conflict. The Government acknowledges the urgent need to 
improve physical security and protection for human rights workers and 
the NGOs to which they belong. Currently, the GOC has dedicated $5.6 
million to provide physical protection to approximately 80 human rights 
activists and their offices. The Plan outlines measures to strengthen 
the Human Rights Ombudsman's office, as well as to establish a 
Permanent National Commission on Human Rights and International 
Humanitarian Law.
    One of the most serious problems in Colombia, which perhaps does 
not receive adequate attention, is the plight of its internally 
displaced persons (IDPs). The scope of the problem is enormous. The 
vicious conflict between paramilitaries and guerrillas is largely 
responsible for the forced displacement of Colombians. As many as 
300,000 persons, mostly women and children, were driven from their 
homes in 1998 by rural violence. NGOs report that Colombia has the 
fourth largest population of displaced persons in the world. The USG 
has provided $2 million in assistance to the internally displaced 
through the International Committee of the Red Cross (ICRC).
Peace Process
    Colombia's internal conflict, the longest running in the 
hemisphere, has its roots in the civil strife of the 1950s, and has 
developed over a nearly 40 year period. The conflict continues to claim 
the lives of thousands every year and complicates efforts to stem drug 
trafficking. Resolving this conflict will take time, commitment, and 
persistence not only by the Government of Colombia and the Colombian 
people, but by members of the international community committed to 
helping Colombians bring peace and national reconciliation to Colombia.
    President Pastrana has made bringing an end to Colombia's civil 
strife through a peace agreement with the various insurgent groups a 
central goal of his Administration. Pastrana believes, and the United 
States Government agrees, that ending the civil conflict and 
eliminating all of that conflict's harmful side effects is central to 
solving Colombia's multifaceted problems. A peace agreement would 
stabilize the nation, help Colombia's economy to recover and allow for 
further improvement in the protection of human rights. A successful 
peace process would also restore Colombian government authority and 
control in the coca-growing region.
    ``Peace at any price'' is fool's gold. We applaud the Colombian 
Government's determination to press the guerrillas to cease their 
practices of kidnapping, forced recruitment of children, and attacks 
against the civilian population. We have made clear to all parties that 
the peace process must support and not interfere with counternarcotics 
cooperation, and that any agreement must permit continued expansion of 
all aspects of this cooperation.
AMCIT Issues
    The return of David Mankins, Mark Rich and Richard Tenenoff, 
missionaries from the New Tribes Mission (NTM) organization, who were 
kidnapped on January 31, 1993, remains a high priority for the U.S. 
Government. We hold the FARC responsible for this kidnapping and we 
call again on the FARC to provide a full accounting of the whereabouts 
and the status of these missionaries.
    We repeat our demand that the FARC turn over to the proper 
authorities those responsible for the brutal and senseless March 4 
murder of three U.S. citizen indigenous rights activists. We have 
demanded a complete investigation by legitimate law enforcement 
entities. In particular, the investigation needs to identify all those 
responsible for the murder of the three U.S. activists. We have 
insisted that the Government of Venezuela and the Government of 
Colombia identify and prosecute those individuals responsible for this 
heinous crime. Both governments have been receptive to our requests and 
are pursuing efforts to bring those responsible to justice.
    Regarding State Department contacts with the FARC, let me remind 
you that we initiated those contacts at the request of the Pastrana 
government in order to promote a peace process we all support, and to 
press directly the FARC for an accounting of three NTM missionaries. 
After the tragic killings of the three Americans we immediately 
suspended those contacts, and they remain suspended today.
USG Assistance
    During my recent trip to Colombia, President Pastrana requested USG 
collaboration in Colombia's effort to further refine a comprehensive 
strategy to address the inter-related problems that confront Colombia. 
In response to that request, we worked closely with the GOC as it 
formulated its comprehensive strategy. The GOC graciously shared a 
draft of their strategy, which we reviewed to ascertain how the USG can 
best help President Pastrana and the Colombian people implement the 
strategy.
    The GOC will fund the bulk of the $7.5 billion strategy, but seeks 
supplementary support of up to $3.5 billion from the international 
community. The U.S. Government has already been helpful in addressing 
Colombia's needs. We are reviewing within the Administration Colombia's 
plan now in order to determine whether and in what additional ways U.S. 
support is justified. We are discussing how we can use existing 
authorities and funds to support counternarcotics operations. We are 
ready to work with the Colombians to assess their strategy and the 
optimum ways in which the U.S. can assist in the GOC's efforts to 
resolve its systemic national problems, many of which adversely impact 
upon U.S. citizens and businesses. We are also considering how to 
engage the IFIs, the European Union and other potential donors.
    Mr. Chairman, distinguished members, the Administration has been 
pleased by the bipartisan support from both Houses that share our 
concern for Colombia's future and our recognition that this is a key 
moment in which to contribute to a positive course of events. Recent 
letters from the Administration to the leadership and other key 
Congressmen have ratified that sense of bipartisan commitment so badly 
needed if we are to deal with the problems, which Colombia poses for us 
and our people. Concerted action now could help over time to stem the 
illicit narcotics flow to the United States. Action now can contribute 
to a peaceful resolution of a half-century of conflict. Action now 
could return Colombia to its rightful historical place as one of the 
hemisphere's strongest democracies.

    Senator Coverdell. Thank you, Mr. Secretary. Again, I would 
just note, there will be votes beginning at 12:15, so I think 
both the panelists could expect that we will adjourn in 30 to 
40 minutes here.
    I am going to come back to the Senator from Wisconsin, who 
had wanted to pose a question to Secretary Pickering, and then 
I will come to the Senator from Ohio.
    Senator Feingold. Thank you very much, Mr. Chairman. I just 
have a couple of brief questions, and I appreciate your 
courtesy.
    Thank you, Secretary Pickering, for mentioning the 
instances that had such a tragic result for a number of people, 
including Wisconsinites.
    It is my understanding that some of constituents and 
perhaps other friends and family members of the three Americans 
murdered in Colombia earlier this year want to attend any trial 
for those charged with those terrible crimes.
    Is it your view that we will ever get to a trial on this? 
You have already alluded to the contacts with FARC. Are they 
likely to turn over those responsible for the murders, and 
would it be possible for friends and family of the victims to 
attend such a trial?
    Secretary Pickering. I think the second question is easier 
to answer than the first. On the other hand, the second 
question does not arise if there is not an answer to the first.
    Let me just say this. As General McCaffrey outlined for you 
as we went into this part of the hearing, there is a large part 
of Colombia which remains in the hands of people other than the 
government, and obviously, the guerrilla organizations have not 
shown, if I could put it this way, a large propensity either to 
punish their own people effectively, you know they named some 
people who are involved, and then wrap them on the knuckles, or 
to turn them over to the government for justice.
    It is certainly my hope that any peace agreement will deal 
with these questions, as it has done in other countries in the 
world where we have this kind of conflict, but I do not know, 
frankly, whether that is going to be possible. I wish it were. 
We will continue to push the Colombians in that direction. It 
is our policy that justice be done in this case, and we will 
try to pursue all leads.
    Obviously, our writ does not run in Colombia. If they are 
brought to justice, I believe, given our close relationship 
with the governments down there, that we can assure that people 
who wish to attend the trial will have an opportunity to do so, 
unless there is some in-camera proceeding, which I would not 
expect.
    Senator Feingold. Thank you. I just have one other question 
for you. A recent GAO report suggests that only three of six 
army brigades operating in major drug trafficking areas have 
passed screening procedures that are required by U.S. 
legislation to ensure that U.S. aid will not be used to fund 
military thugs.
    In light of increased U.S. assistance in counter-narcotics 
operations with the Colombian military, how can we be assured 
that U.S. aid is not funding human rights violators, and to 
your knowledge, does the lack of screening in these incidents 
constitute a violation of U.S. law?
    Secretary Pickering. Lack of screening does not. What we 
had decided some time ago, and we will have to keep under 
review, is that given the seriousness and depth of the problem 
in southern Colombia, we would work geographically to focus our 
efforts on the counter-narcotic problem, which General 
McCaffrey explained, which you saw so lucidly in the charts, 
and that we would, therefore, screen units and focus their 
efforts in that region.
    We believe the fact that three that have not passed should 
also be complemented by the fact that three have.
    However, as I said in my remarks, we will not train and 
assist Colombian units that already are existing that have any 
record of human rights violations, or individuals to make up 
new units, including new counter-narcotic battalions, one of 
which has already been stood up and vetted, who do not pass the 
vetting test, and that is, I think, the best help and hope we 
have of assuring that your dictum and our policy are one in the 
same, and are accomplished, and that even though there may be a 
lapse in the Leahy amendment for technical reasons, we intend 
to continue to keep that amendment as the cornerstone of our 
policy in vetting units in our assistance programs to the 
Colombian military.
    Senator Feingold. Thanks to both of you. Thank you, Mr. 
Chairman.
    Senator Coverdell. Thanks, Senator from Wisconsin. I now 
turn to Senator DeWine, of Ohio.
    Senator DeWine. Thank you, Mr. Chairman. This question is 
directed to you, General, but also to you, Mr. Secretary, if 
you would like to comment about it.
    General, you talked about the forward operating locations, 
specifically, the one at Manta, in Ecuador. Let me just state 
that I agree with the chairman of the full committee, this is 
very important.
    We need to fund it. We need to get it done. We need to move 
on. Your comments are very timely, however. As you know, this 
matter is still a contentious issue. This has not been resolved 
by this Congress.
    What I would like to do is to ask you a couple of related 
questions to that, maybe to clarify exactly why we need to do 
this. One of the criticisms has been that we are still 
negotiating. We do not have an agreement, for example, with 
Ecuador.
    The second criticism is, even if we get an agreement, it 
may not be a long-term commitment, so why should we be pouring 
millions and millions of dollars into someone else's property, 
when we do not have any long-term commitment that we are going 
to be able to stay there.
    The third question I would like for you to address, 
General, is exactly what can we do there now without this 
money, and what can we not do there now. In other words, what 
difference will it make, and how will it ultimately impact our 
ability to deal with the drug problem in the region.
    General McCaffrey. Howard was ideal. It was in the right 
geo-strategic spot. It had 2,000 airmen. It was 7 days a week, 
24 hours a day. We had our tankers there. We had the AWAC's 
there. As you know, the AWAC's have very special requirements 
on runway strength and length. It was our logistics hub.
    It closed on 1 May, and we took an immediate decrease 
ostensibly of 50 percent. I think, in fact, that is just in the 
air interdiction piece of it, protection and monitoring piece 
of it. In fact, we lost a lot more.
    We got temporary access to Manta, Curacao, and Aruba, 
thankfully. We still lack a Central American FOL, which we have 
to sort out where it might be, and how do we operate out in the 
Eastern Pacific from a Central American FOL. But turning 
specifically to the three that are on the table, right now we 
are doing a lot. We do have a lay-down of--at Manta, Ecuador, 
we have been in there with Customs assets, U.S. Navy, and U.S. 
Air Force.
    Manta is key, not only out in the Eastern Pacific. That is 
the only way you can fly down into Peru, is to get down into 
that area. But unfortunately, Manta has very little added. The 
runway was heavily damaged by a storm years ago. It had an 
instant upgrade for our temporary operations, but you cannot 
fly AWAC's or tankers out of there.
    Senator Coverdell. You cannot fly AWAC's.
    General McCaffrey. Cannot.
    Senator Coverdell. You cannot fly tankers.
    General McCaffrey. The only AWAC's aircraft operating in 
the region right now flies out of McDill Air Force Base in 
northern Florida, which is thousands of miles from the area. So 
we are flying those missions really in the Caribbean transit 
zone.
    Senator Coverdell. Horribly inefficient, terribly 
expensive, and you are not getting the coverage.
    General McCaffrey. Right. So we have to do something about 
it. We do have Air National Guard F-16's flying out of Curacao. 
We have an excellent Customs operation going out of Aruba. So 
we are still engaged, but we have to solve the problem.
    I would say that the CINC's viewpoints are pretty strong. 
If we do not give him the assets, he cannot defend the country. 
He needs $42 million to invest this year in those three FOL's. 
Ambassador Brown, at State, is negotiating all three of these 
access agreements. They are moving in the right direction. We 
will not invest in those FOL's, if we do not have the kind of 
agreement we can live with.
    Clearly, we do need long-term access, but there was a 
momentary hiccup, and I do not----
    Senator Coverdell. Excuse me. There is nothing to stop 
Congress from qualifying the money. It is based upon the final 
agreement.
    General McCaffrey. Sure.
    Senator Coverdell. There is standard operating procedure 
here.
    General McCaffrey. We have a lot of confidence that the 
Secretary of Defense and the CINC U.S. Southern Command will 
not put money into the ground.
    Senator Coverdell. Talk to me, though, about the long-term 
ability to stay there, I mean related to that, but you can get 
an agreement that was a short-term agreement.
    General McCaffrey. Well, I flew into all three of those 
FOL's, and spent some time. I went to Ecuador, talked to the 
President, talked to their legislatures, talked to the Foreign 
Minister, Defense Minister, et cetera. I flew up to Manta, had 
the town's leadership, city leadership come talk to me. They 
clearly want us at Manta.
    We have to sort out the legalities of it, we have to be 
careful to respect their sovereignty concerns, but this will 
not be a U.S. Air Force base.
    This will be a temporary operating location, with a pretty 
minimal presence of 15 people, on up to a couple of hundred, 
max of probably a dozen aircraft on the ground, and they do 
want us there, and it is in the right place, and it is safe.
    Senator Coverdell. Can you briefly comment about Central 
America? You mentioned the need to have a location in Central 
America. Where is that?
    General McCaffrey. Well, the CINC came up with a plan. 
Originally, it had talked about three locations, and he really 
did it based on the flying range of the P-3, unrefueled, and 
the AWAC's, and where can we set down.
    The obvious one was Manta, Ecuador, and that is the central 
part, and then Curacao and Aruba, by the way--we are better off 
in Curacao and Aruba than we were at Howard Air Force Base in 
Panama. We got the right angle ``T'' on drug flights coming out 
of Colombia.
    What is missing now is how do we cover this vast expanse of 
the Eastern Pacific, and not just with air interdiction, but 
air-sea surveillance, Navy P-3's. We have to be somewhere in 
Central America to do that, and Soto Cano, Honduras, 
unfortunately, the air field is too high an altitude and too 
restricted a bowl to get heavily fueled aircraft to fly out of 
there.
    Now, we are involved in some sort of sensitive discussions, 
which I think are moving in the right direction.
    Senator Coverdell. I want to augment the question. I 
recently had a discussion with President-elect Moscoso, I will 
begin with Secretary Pickering, and I cannot enumerate, there 
must have been six members of her cabinet-to-be, including the 
Foreign Minister, and several members of Congress, and the 
question of, this meddlesome question that has gone on now for 
several years about continued use of Howard or some other 
facility, and they were enthusiastic in terms of wanting to 
facilitate particularly the anti-drug nature of the 
relationship, and were adamant that we needed to be specific 
about the continued use of Howard or some other facility about 
what it was that we wanted to accomplish and do.
    Now, the discussion evolved around the broader 
responsibility that the United States and Panama had in the 
context of drug interdiction, a long-standing relationship, the 
geography of Panama, et cetera.
    The point is, they were genuinely enthusiastic, and they 
were asking for a specific response. Now, just in the broadest 
terms, when I get back here, people here are saying they cannot 
do that politically, or something.
    It seems to me that if the President-elect is asking for 
something specific, we ought to respond specifically, and if 
they cannot react, they cannot react. But it is just sort of 
hanging out here in a nebulous form, it gets right at the 
question that the Senator from Ohio is addressing to you, in 
terms of particularly the period of time when you may be trying 
to get a longer term commitment in Ecuador. Would you want to 
respond to that?
    Secretary Pickering. I would, only to say this, that we are 
pleased and delighted, because we have had some of the same 
messages passed to us by people who have been in touch with 
President-elect Moscoso.
    I think we are going to be in touch with her fairly soon on 
this set of issues, and I think along with other conversations 
we are having, and I think General McCaffrey and I would 
clearly refuse to identify the locations, because we want to 
protect our ability to move with those countries in an 
atmosphere free of what I would call domestic political 
influence to the greatest extent possible, because it is always 
easier to work it out, and let those countries figure out and 
in what way they are going to deal with their own publics on 
the question.
    The important issue is, this is the single most important 
subject we have to deal with in that region right now, our 
joint efforts to deal with narcotics interdiction, that the 
question of forward operations locations is right up there on 
that set of questions, and it relates to Colombia, it relates 
to a wide range of activities, and it relates to the 
effectiveness of our interdiction over a long period of time.
    So we are serious about it. We are not foreclosing any 
options, but those options have to be open to us clearly by the 
country concerned, and we take very seriously what we have been 
hearing about Panama. Obviously, when a President-elect becomes 
a President, you have more capacity to deal with the problem as 
the process unfolds.
    Senator Coverdell. General McCaffrey.
    General McCaffrey. We have been watching this very closely, 
and, of course, a lot of us worked with Panama for years and 
years now. It is a terrible loss to all of us in the region, to 
have been forced to withdraw and not have a continuing 
counterdrug presence there.
    The United States had options, but the region wanted us 
engaged. So we are moving to our options, and I think it is 
right. President Biadars and his regime did not negotiate with 
us, in my judgment, in good faith, but that is behind us, and 
we are aggressively moving to establish these FOL's.
    We do have a serious presence operating out of Roosevelt 
Roads Naval Air Station, which is where a lot of our materials 
are now assembled, and we are able to operate out of U.S. bases 
in Soto Cano.
    Panama has had a confused dialog with us since then, and I 
think many of us want to make sure that we treat Mrs. Moscoso 
with great deference until she is clearly established in 
office, and has sorted out Panamanian thinking, but the initial 
dialog I get is that she is looking for non-military forward 
operation locations only, law enforcement only, and that is why 
I think we need to let them sort out their thinking.
    We cannot do detection and monitoring without the U.S. Air 
Force and the U.S. Navy, and to some extent, U.S. Army 
aircraft.
    Senator Coverdell. I will close, and turn this back to--in 
my conversation, explicitly, they requested specific details 
about what we wanted to do, and the line of demarcation that 
you are drawing, General, was not a part of that extended 
conversation.
    I am not saying that it will not ultimately be, but it was 
not in that conversation, and they were saying, tell us. It was 
almost an exasperation that we would not enumerate, and who 
knows. I understand the President-elect status versus actually 
assuming authority.
    Secretary Pickering. She is in office now.
    General McCaffrey. She is in office now, and I, without 
taking it further into detail, I do not think the problem as 
raised is one that we cannot overcome.
    Senator Coverdell. OK. Senator DeWine.
    Senator DeWine. Can overcome?
    General McCaffrey. I do not think it is one that we cannot 
overcome. It is obviously one, I hope, we can overcome.
    Senator DeWine. OK. Good. I think your point is very well 
taken, that both of you made, that we need an integrated, 
comprehensive, and a multi-year commitment. I mean we have to, 
as a country, be willing to say on a bipartisan basis, this is 
a long-term commitment, that we are there to assist Colombia, 
and the elected leaders, and the democracy of Colombia. I think 
your point is very well taken.
    If there is every going to be peace negotiations, I think 
two things have to happen. One is, the military is going to 
have to be stronger, and it is going to have to be able to get 
more things done, and the second is, the rebels are going to 
have to have a belief that they are going to deal with the 
international community, they are going to have to deal with 
the United States, and they are going to have to deal with 
their own government over a long, long period of time, that we 
are not going to go away.
    I think part of our problem that we have all discussed, and 
not just in this area, but in our domestic battle against 
drugs, is that being Americans, we sort of think we can get in 
and get it done in a short period of time, and we all know, 
General, you and I have had this discussion innumerable times, 
we all know that this is a long-term process, and that we have 
to stay in there.
    I think the message that this Congress and this 
administration need to send is, it is bipartisan, and we are in 
it for a long-term commitment, and we will make up that long-
term commitment.
    I want to just make sure I understand where we are in the 
discussions between Congress and the administration. Senator 
Coverdell and I have put forward a proposal. It is a work in 
progress. It has been introduced, but we are certainly open to 
discussion.
    General, you submitted this summer a draft internally 
inside the administration. You have given us today, I believe 
you have given us today, I have not seen it, but a document 
that is basically a Colombian document, the Colombian 
initiative, as far as what they want to do. It is my 
understanding that that was with some consultation with the 
administration.
    Where does that leave us now, as far as the 
administration's official position? I mean what else has to 
happen? Does this ``Colombian document'' become your document, 
and we can begin the dialog back and forth, or are we awaiting 
an additional document internally to come out of the 
administration?
    I am a little confused where we are, and I just think it is 
so important, Mr. Chairman, that we become engaged even 
further, and we move slower. We are in a crisis. We are in a 
very, very serious situation, and we have to move.
    Secretary Pickering. Without submerging it in a lot of 
bureaucracy, we got the final plan when President Pastrana was 
here in town on the twenty-second. It is now being reviewed 
from the perspective of the Colombian plan. Colombians have 
also committed to give us the details of their own funding, so 
we know where that is going. That is not irrelevant, obviously, 
in the process of examining what we do.
    But at issue to that, we are taking a look at where the 
international financial institutions are putting their 
particular funding, and reviewing the question of whether we 
think there is a real possibility. Europeans and others will 
also be able to pick up a piece of this plan.
    This is all the predicate, obviously, for us taking a look 
at what our own response will be. We are engaged actively in 
reviewing it inside the U.S. Government. When we have finished 
that review, then I believe it is incumbent upon us to come 
back to all of you, in the context of your proposal, which, as 
I said, I think is the right sort of framework for putting the 
issues out, and we should give you a sense of how our detail 
and your detail fit together on that particular issue.
    I hope we do that as soon as we can. Obviously, we know, as 
I said earlier, it is about the time when you leave town, and 
we cannot have a bipartisan commitment to a plan if, in fact, 
both branches of government and both parties are not in town 
working on it.
    General McCaffrey. Let me, if I may----
    Senator Coverdell. Sure.
    General McCaffrey [continuing]. Just tell you. I think many 
of us are pleased with the rate at which this discussion has 
advanced. There is a serious concern by Mr. Berger, by the 
Secretary of State, and I, in particular, and although we 
understand the realities of the OMB process, we have gone 
through a careful consideration of U.S. viewpoints, we have 
worked, not peripherally, but in a very fundamental way with 
the Colombian Government to establish their own thinking.
    They will be up again this week, on Friday, their Secretary 
of Defense, the commanding General of the Armed Forces, General 
Serrano, to continue this consultation, and we are focused on 
it.
    Now, the problem will be, we have to make sure that when we 
send you a proposal that it is affordable and it is long-term, 
but I think we can commit to you that by the fall we will be 
back here.
    Now, in addition, I will go to Europe in October to Lisbon, 
Portugal, and we will have a conference of drug policy 
directors from the EU nations, and this will be one of the 
topics on the agenda. How do we stand behind Colombian, 
Peruvian, and Bolivian attempts to generate European support 
for something that is in their interest, also.
    A lot of this cocaine, it is not coming to America, it is 
going to Spain and The Netherlands, and then being distributed 
throughout Europe. So we are hopeful to get their continued and 
even enhanced cooperation.
    Senator DeWine. Well, I appreciate your comments very much, 
and appreciate your movement. I would just encourage the 
administration to come forward with your plan as soon as 
possible. I think we pretty much know where we are going. We 
all know what the problem is. The problem boils down to money. 
We are late in the year. Where any money will come from is a 
very, very tough question that we all face.
    I think if it were up to Senator Coverdell and me, and 
probably the two of you, we would not have a money problem, but 
there are other concerns here on Capitol Hill. So I think the 
sooner that you can get us a plan, that is just very helpful, 
and we are moving ahead.
    As I said, as you know, Senator Coverdell and I have 
introduced our bill, because we really want to get that 
discussion out there, and want to move forward. Thank you, Mr. 
Chairman.
    Senator Coverdell. Thanks, Senator. I will be brief, and we 
will keep this on schedule. One suggestion, I made it in my 
remarks, but perhaps it was not noted, that I think it is very 
defensible to talk of the current situation as an emergency. 
Long-term, it becomes less so. I think you have a bifurcated 
funding process that we need to think through here. I am sure 
that will be part of the----
    Senator DeWine. Can I just add--let me be even a little 
more blunt.
    Senator Coverdell. OK.
    Senator DeWine. When you submit your budget next year, you 
need to weigh in heavy with this. This cannot come in after the 
fact, and I know I am preaching to the choir with the two of 
you, but I am willing to talk with other people in the 
administration, and I am not expecting a comment from either 
one of you, but----
    General McCaffrey. Well, I would add one comment. If we do 
not do something dramatic, we will have $79 million on the 
table in the next budget. So we have it.
    Senator DeWine. OK.
    General McCaffrey [continuing]. And this country is in a 
very serious position, at least from the drug production 
perspective.
    Senator Coverdell. I want to expand the emergency to this 
economic question. I felt the President had not yet made, and 
they were very fruitful discussions, but I did not think he had 
fully tied his economic crisis to the security crisis.
    They have been weathering this over a long period of time, 
that there is a change, and long-term capital is going to run 
from this situation. So without a clear decision with regard to 
security interests, I do not think you can get to some of this 
balance that we have heard all these members talk about. It 
becomes increasingly imbalanced, in terms of the scope where 
the crisis is.
    You can--it does not--try to find a place to go where it is 
all at risk, and you could really tell that in meeting with 
business interests more recently. There has been a change, and 
it is reflective of this crisis, the peace process.
    There has been some extended criticism in Colombia and 
without. I personally believe it is tied to, and it was a 
policy that President Pastrana had to pursue, connected to the 
campaign that he waged, but it is, I think, even to the less 
skilled in military affairs. It did become a consolidation 
period for the insurgency.
    What is your feeling of--you mentioned, Secretary 
Pickering, I cannot quote it exactly, but basically a realistic 
view. I mean if the other side is not negotiating with you, and 
is using it to your disadvantage at some point, that is a 
failed policy.
    I would be interested in both your comments with regard to 
not so much how we got into it, but where we are with this 
process, and how much of a piece does that remain of the plan.
    Secretary Pickering. Let me say this. If we are looking at 
the process long-term, no peace process in my historical 
experience, has ever worked over the long-term, where it is not 
clearly seen that all of the other alternatives are worse, and 
it, therefore, has to have in it, in the negotiating process, 
what I would call a combination of inducements and punishments, 
carrots and sticks, to make it work.
    If it is an all-carrot process, and some have criticized 
President Pastrana for going into an all-carrot process, and I 
think he himself understands some of the limitations of that, 
that is not going to work. It is going to work against you.
    If it is an all-stick process, it may work, it may not 
work, but it has to have an end goal that, whoever you are 
involved with believes at least is an acceptable end goal, and 
the end goal is the assassination and murder, which, 
unfortunately, has been the end goal of some of the peace 
processes in the past in Colombia, and that has to be avoided.
    On the other hand, the end goal is not taking over the 
country by the guerrillas, the end goal, as I have seen it, and 
as he has seen it, has been the kind of political space that 
has allowed people in Central America to have a successful 
peace process, where people become political parties and 
operate in a democratic system. Now, that sounds millennial, 
but in some places it actually has a tendency to work. So this 
is where we are.
    It is very important that this is integrated, because what 
you do on counter-narcotics strategy, in dealing with the 
insurgent sources of money, as well as some of their physical 
strength, which is centralized now in some of these regions, we 
will have an important role on how they view their long-term 
future in that country. They cannot help but have it.
    Similarly, if you do not take care of the economic 
circumstances, and they produce additional recruits for 
guerrilla forces or for paramilitaries, then, in fact, you are 
working against yourself. So this is a combination of problems 
that is not easily dissected.
    As General McCaffrey had said earlier, if we are merely 
addressing this problem in the context of a military equipment 
list, we are not addressing the right set of issues. If we are 
addressing it only on the peace process, we are not addressing 
the right set of issues. If we are addressing it only as 
banking reform, we are not there.
    So the critical component of all of this is the one that 
you and we keep telling each other is the right set of 
components. Multi-year, integrated, comprehensive, all of those 
words, all of those adjectives, I think properly describe at 
least the best judgment we have now of what can work.
    I believe President Pastrana understands that. I think he 
understands the commitment. He may not see all the linkages as 
clearly as they are. He may not see each piece in terms of his 
evaluation of each one the same way we do, but the important 
point is that he and his people, and he has a very good team, 
have produced an impressive strategy.
    I finally would say that no strategy is ever sufficient, 
even to the day in which it is rolled out. It constantly needs 
to be updated and changed, and he understands that, so this is 
a dynamic plan. That does not mean we do not go to another 
strategy tomorrow. It means that the integration of the 
strategy, its perfection, the operational plans that have to be 
carried out all are part of an ongoing dynamic process. They do 
not get frozen in time.
    General McCaffrey. Senator, I wonder if I could add one 
point to yours. I had several hours with the Colombia Chamber 
of Commerce, a very useful session, small discussions, and a 
larger interchange, and I think it is important that all of us 
recognize the linkage between the lack of security, coca 
production, the hundreds of millions of dollars flowing into 
the FARC, ELN, and the economic crisis, 5 percent reduction in 
GDP, 20 percent unemployment. When I talked to Colombian 
businessmen, they have told me they imported 8 million tons of 
food last year, this giant rich agricultural nation.
    They told me that possibly in the coming year or so, they 
will be a net importer of energy, with these enormous reserves 
of gas and petroleum, with the ELN, and this mindless process 
of destruction, blowing up the pipelines, and driving off oil 
exploration teams.
    These are all linked, clearly. And at the heart and soul of 
it. If it was just a normal murder, extortion, bank robbery, 
and kidnapping, Colombia would merely be a violent nation, but 
when you add in hundreds of millions of dollars, you get 
automatic weapons, helicopters, corruption of the news media, 
the legislature, corruption in our own country, in the United 
States. It is an order of magnitude that increases the threat.
    So at the heart and soul of it I have argued, you have to 
separate the drug money from the FARC, the ELN, and the 
paramilitaries, or we cannot get there.
    Senator Coverdell. On that point, I am going to adjourn in 
deference to the vote and your schedules, but we may--another 
question to you, Secretary Pickering, that we will put in 
writing, but to give you a sense of it, I know there has been a 
hangup on what the international observers of the peace process 
have--it is puzzling to me, and I have not had that sorted out, 
and maybe you could shed your light on it.
    [Responses of Secretary Pickering to additional questions 
follow:]

 Pesponses of Hon. Thomas R. Pickering to Additional Questions for the 
                    Record by Senator Paul Coverdell

    Question 1. Please comment on the efforts of the international 
community to promote peace and stability in Colombia--especially the 
efforts of our Latin American and European allies.

    Answer. The European Community has been generally very supportive 
of the Colombian peace process. The Europeans have been particularly 
helpful in contributing to human rights and humanitarian efforts, 
through church groups, nongovernmental organizations and especially 
through the International Committee of the Red Cross (ICRC) for work 
with displaced persons.
    The Latin Americans, as neighbors and allies, have been more 
proactive in the peace process. Neighboring countries have shown 
support and have offered assistance to President Pastrana and the 
Government of Colombia. All have expressed their support of the peace 
process and have encouraged all parties to the conflict to negotiate in 
good faith. The Organization of American States (OAS), on June 8, 1999 
adopted a resolution declaring its ``resolute and unconditional support 
for the peace-building endeavors of the Government of Colombia.'' Latin 
American countries in the region have also shown cooperation, 
particularly on border issues, in helping to deal with security issues.

    Question 2. What steps has the United States taken to encourage our 
allies in their efforts to promote a peaceful end to the conflict? Are 
there currently international observers of the ongoing peace process? 
How would you characterize their role?

    Answer. The U.S. has actively encouraged both Europe and Latin 
America to cooperate with the GOC and to coordinate any efforts with 
the Colombian Government. We have shared our experiences with the GOC 
on how the international community could help in support of the peace 
process. One example could be the formation of a ``Group of Friends,'' 
neighboring countries who support and facilitate the peace process. 
This has proved beneficial in other peace processes, such as in 
Guatemala. It should be noted, however, that the FARC has steadfastly 
refused any international involvement in the peace process, and GOC 
efforts to promote an international component to the peace process have 
been rebuffed.
    Currently there are no international observers of the peace 
process, despite several proposals by the GOC to include international 
monitors in the talks themselves, or to monitor abuse of authority or 
persons in the demilitarized zone. We believe international observers 
could be helpful and other peace processes have shown them to be 
invaluable. The FARC refusal, however, makes the prospect for 
international involvement remote at this time.

    Senator Coverdell. To you, General McCaffrey, President 
Pastrana repeated often the fact that they could not track and 
had no sense of the flow of these moneys, and I wonder, can we 
be helpful in this arena? They have no feeling for where these 
vast sums of money are moving, and who is housing them 
offshore, or in the country, whatever.
    I do not know if you have any information that could help 
on that situation, but it ought to be part of our thinking, in 
terms of the plan of helping them, because as you just said, 
you have to separate that financial interest, if we are ever 
going to get to the bottom of this.
    [Responses of General McCaffrey to additional questions 
follow:]

   Responses of Hon. Barry McCaffrey to Additional Questions for the 
                    Record by Senator Paul Coverdell

    Question 1. President Pastrana has repeated to me the fact that it 
is extremely difficult to track the flow of money generated by the 
narco-guerrillas in Colombia. What information do we have pertaining to 
the quantity of money being generated by the narco-guerrillas in 
Colombia; how the money leaves the country, if it does; where it is 
housed off-shore; and how this money is inserted into the legitimate 
financial system.

    Answer. Insurgent and illegal self defense groups are profiting 
enormously from the drug trade and using drug revenues to finance 
operations against the democratic government and Colombian citizens. 
The growth of drug cultivation, production, and trafficking has added 
substantially to the war chests of the guerrilla and paramilitary 
groups, which protect and/or control various aspects of the drug 
industry. The immense amounts of money generated by the drug trade are 
also fueling violence, lawlessness, and Colombia's long internal 
conflict. Colombian defense experts have estimated that the two major 
insurgent groups, the Revolutionary Armed Forces of Colombia (FARC) and 
the National Liberation Army (ELN) gain 50 percent or more of their 
revenues from their involvement in drug trafficking. Estimates vary 
widely for the amount of money that the two major insurgent groups earn 
annually from the drug trade--ranging from a low of $100 million to a 
high of $900 million or more. President Pastrana has said publicly that 
the guerrillas and illegal self defense groups earn $1 to $2 million a 
day. Intelligence community analysts agree with Colombian authorities 
that the FARC and ELN revenues from the drug trade equal or exceed 
their other major income sources--kidnapping, extortion, and bank 
robberies.\1\ The FARC and illegal self defense groups earn revenues by 
controlling coca production, and set the rules for marketing and 
pricing in their areas of control. In addition, both the guerrillas and 
the paramilitaries provide protection for activities relating to coca 
cultivation, drug processing facilities, and clandestine airstrips. 
Both groups also ``tax'' the campesinos at each stage of drug 
cultivation, production, and transport in areas under their control.

    Question 2. As you know, funding for the tethered aerostat radar 
system (TARS) program is facing an $8.8M cut in the DOD appropriations 
bill. The proposal to reduce the President's budget request could 
result in the cancellation of the aerostat modernization program and 
closure of the multiple TARS sites. Please explain the impact of this 
proposed cut to the counterdrug mission and the National Drug Control 
Strategy goal of shielding America's frontiers from the drug threat.

    Answer. Since the passage of the FY00 Defense Appropriations Act, 
which included a $5M reduction in the funds allocated for the TARS 
program, the Department of Defense has been able to identify alternate 
funds within the Department to enable the preservation of all eleven 
operational TARS sites while continuing the aerostat modernization 
program. These alternate funds have been accessed due to the North 
American Aerospace Defense Command's (NORAD) recognition of the 
contribution that the TARS sites make to the Air Force's air 
sovereignty mission in addition to their counterdrug role. As a result 
of this collaborative effort within the Department of Defense to 
maintain this capability, the proposed cut of $8.8M and the final 
reduction of $5M to the TARS program have had little impact on the 
counterdrug mission and the National Drug Control Strategy's goal of 
shielding America's frontiers from the drug threat.

----------
    \1\ See for example, ``Colombia on the Brink,'' by Michael Shifter, 
Foreign Affairs, July/August 1999 and ``Colombia's Three Wars: U.S. 
Strategy at the Crossroads,'' a Strategic Studies Institute report, 
Gabriel Marcella and Donald Schulz, March 5, 1999.

    Senator Coverdell. Thank you both for your long, long 
service to the country, and I always want to mention that, and 
I thank you both for the time you have given to the committee 
here today. We are in adjournment.
    [Whereupon, at 12:07 p.m., the hearing was adjourned.)
                            A P P E N D I X

                              ----------                              


                             PLAN COLOMBIA

     Plan for Peace, Prosperity, and the Strengthening of the State

                                preface
    At the threshold of the 21st century, Colombia is faced with the 
challenge of promoting and consolidating a society in which the 
essential obligations of the Colombian State are guaranteed, as stated 
in our Constitution:

        ``. . . to serve the community, promote prosperity and 
        guarantee the effectiveness of the principles, rights and 
        duties consecrated in the Constitution; facilitate the 
        participation of the people in the decisions that affect them 
        and in the economic, the political, the administrative and the 
        cultural life of the Nation; defend our national independence, 
        maintain territorial integrity and assure peaceful coexistence 
        and applicability of a just order.''

    The responsibility that those of us who from within the government 
are working on the construction of a better country for current and 
future generations, is to strengthen and consolidate the Colombian 
State as a State for Social Rights that can protect all of its 
residents and their rights to life, dignity, property, beliefs and 
other basic rights and liberties.
    This fundamental process requires confronting now, more than ever, 
the difficult and ever changing national and international conditions 
characteristic of the closing days of the second millenium of the 
Christian era. But, it is not only about assuming the challenge posed 
by the experiences of our own history and evolving process of the 
creation of a national state, but it is also responding to the two new 
challenges of the growth of drug trafficking and the economic, 
political and cultural ``globalization'' process.
    Undoubtedly, the symptoms of a State that has yet to consolidate, 
such as the lack of confidence in the ability of the armed forces, the 
police, and the judicial system to guarantee the preservation of order 
and security, the crisis in credibility at the different levels of 
government, and the proliferation of corrupt practices in the public 
and private sectors, have been aggravated by the enormous destabilizing 
power of the drug trafficking business, that with its huge economic 
resources has generated indiscriminate violence along with a 
degenerative process of values that can only be compared to the 
Prohibition period in North America.
    At the same time, the still young Colombian economy, even though it 
has seen 40 years of continual growth, has not yet been able to 
massively incorporate a large part of the national population into the 
productive processes nor has it been able significantly reduce poverty 
levels. Meanwhile, the violence and corruption fueled by drug 
trafficking in generating distrust among foreign investors, constitutes 
a roadblock in the transformation and modernization of the dynamic 
productive process of the country, considered essential for generating 
employment and resulting in progress within the framework of 
globalization.
    The secular problems that the Colombian government has until now 
been unable to successfully solve, have been aggravated and intensified 
by the drug trafficking business. In addition, in a kind of vicious and 
pervasive cycle, the violence has leached the resources that the 
country would need in order to complete the construction of a modern 
State.
    We are aware that to reach our objectives will require a social and 
governmental process that will take some years, time during which it is 
essential to reach consensus among the Colombian society, that will 
facilitate the development of a people who will know and demand its 
rights but will also be conscientious and abide by its obligations.
    That is why my government has committed itself to a fundamental 
goal: to strengthen the State in order to regain the citizens' 
confidence and recuperate the basic norms of peaceful coexistence. 
Because the attainment of peace is not only an issue of will. You have 
to build peace and it will be an outcome of the process of 
strengthening the State and the consequences resulting in the 
possibility of guaranteeing all of its citizens, in the entire national 
territory, their security and the free exercise of their rights and 
liberties.
    The negotiation with the insurgency, that with so much 
determination and will we have initiated and will continue seeking, is 
an integral part of our strategy because it intends to resolve 40-year-
old historical conflicts that have encountered countless obstacles in 
the creation of the modern and progressive state that Colombia urgently 
needs to become. The search for peace and the defense of the democratic 
institutions will require time and patience, faith and determination to 
successfully deal with the inherent pressures and doubts that 
characterize a process of this nature.
    The fight against drug trafficking constitutes the core in our 
strategy to decidedly advance in a partnership between the consumer and 
producer countries, under the principles of reciprocity and equality. 
The problem of illicit drugs is clearly a transnational and complex 
problem characterized by casting a destroying force upon societies due 
to the physiological, psychological, and social consequences for those 
who consume, as well as the effects of violence and corruption derived 
from the immense revenues generated from its smuggling. The solution to 
the illicit drug problem does not rest in finger-pointing at the 
consumer or producer countries. The efforts that we make will be 
insufficient if we do not make them as a part of a true international 
partnership to confront and resolve this shared problem.
    Colombia has already demonstrated its commitment and determination 
in the search for a definite solution to the drug trafficking 
phenomenon, as well as to the armed conflict, human rights violations 
and the destruction of the environment to which drug production is 
associated. Nevertheless, more than twenty years after the appearance 
of marijuana and the increase in cultivation and commercialization of 
cocaine and poppy, the results for Colombia are still negative and 
adverse regarding its efforts to consolidate a modern state. Drug 
trafficking has become a destabilizing force, altering the economy, 
reverting the advances made in the distribution of land, corrupting the 
society, doubled the violence, negatively affecting the investment 
climate, and perhaps the most seriously, the harm caused by its 
contribution of resources to the war apparatus of the armed groups that 
have been attacking the government.
    Our country has been leading the battle against drugs, confronting 
the drug cartels and their intimidation campaigns and sacrificing many 
of our best citizens in the process. Up to now, drug trafficking has 
become a fragmented network, more internationalized, and harder to 
combat. The world is always trying out new strategies. More resources 
are being destined for education and prevention. Results are being made 
regarding the confiscation and expropriation of money and properties 
obtained from illegal drug trafficking. In Colombia we have launched 
operations to destroy processing laboratories and distribution 
networks, we are improving and tightening security and control of our 
rivers and airspace to ensure interdiction, and we are exploring new 
formulas to eradicate illegal crops. Factors directly related to drug 
trafficking like money laundering, illegal smuggling of chemicals, 
illegal arms trafficking, are also part of a shared problem and must be 
confronted through out the world, specially where illicit drugs are 
produced.
    The success of our strategy depends, also, on our efforts to reform 
and modernize our military forces in order to guarantee the application 
of the law and to return the sense of security to all Colombians, in 
the totality of the national territory. Strong and dynamic military and 
police forces and the commitment to peace and the respect for human 
rights, are an indispensable requirement for the preservation and the 
consolidation of the state of law. And above all, there is priority to 
have an effective judicial system that can defend and promote the 
respect for human rights. We are committed to this cause, convinced 
that our first obligation as a government is to guarantee those who 
reside in our country the exercise of their rights and fundamental 
liberties.
    Advancement in the construction of the state also requires reforms 
at the very heart of the institutions in order to for our political 
process to be an effective instrument of progress and social justice. 
If we are going to progress in our objective, we have to reduce the 
causes and the spurs of violence, by strengthening the social 
participation and the collective conscience. In order to accomplish 
this, the strategy includes a specific effort that in a few years will 
guarantee the entire population access to education and to an adequate 
health system, with special attention to the most vulnerable groups of 
the population. Additionally, we want to strengthen the local 
governments in order to increase their participation, and make them 
more sensitive and responsible for the needs of their citizens as well 
as promote the strengthening of the citizen participation in efforts 
against corruption, kidnapping, violence and the displacement of people 
and communities.
    Finally, Colombia requires aid to strengthen its economy and 
generate employment. Our country needs to improve its access to markets 
were our products have comparative advantages. The aid of the United 
States, the European Community and the rest of the members of the 
international community is vital for the economic development of our 
country and to counterbalance drug trafficking, in that it will help 
create alternative legal employment, that will counteract against 
employment generated by drug trafficking as well as the same armed 
organizations that feed off it. We are convinced that the first step to 
reach successful worldwide ``globalization'' is the ``globalization of 
solidarity.'' Hence, Colombia asks for aid from its partners. We 
require programs for alternative development in Colombian rural areas 
and more accessibility for our legal businesses, so that we can 
successfully combat the illegal ones.
    There are many reasons to be optimistic about the future of 
Colombia, especially if we find echo among the world community, and in 
that way together we can create prosperity combined with justice and 
that way we will be able to pave the way for a lasting peace.
    We think, according to the Spanish author Miguel of Unamun, that 
``faith is not to believe in the invisible, but rather to create the 
invisible.'' With this unfolding faith that we have in our own capacity 
and with the solidarity and aid of our international partners in the 
shared fight against the plague of drug trafficking, we are sure that 
we will create ``the invisible.'' This modern, democratic and peaceful 
society will go proudly and dignified to participate in the future that 
is announced with the third millenium.

                             PLAN COLOMBIA

     plan for peace, prosperity, and the strengthening of the state
    1. The state seeks to consolidate its institutionalization as ``the 
entity responsible for the public interest,'' to regain the confidence 
of its citizens and restore the basic norms of peaceful coexistence. 
That will provide a solid basis for recovering the national patrimony 
and ensuring peace and prosperity in Colombia. The government is 
committed to consolidating the central responsibilities of the state: 
promoting democracy and the rule of law and the monopoly in the 
application of justice, territorial integrity, employment, respect for 
human rights and human dignity and the preservation of order as 
established by political and social rules.

    2. Achieving these objectives requires a process of community and 
institution building which will take several years, for which it will 
be indispensable to build a broad consensus in Colombian society. Peace 
is not simply a matter of will: it has to be built. It arises from the 
strengthening of the state and from the consequent possibility of 
guaranteeing to all Colombians security and the exercise of their 
rights and liberties. Negotiations with insurgent groups seeks the 
resolution of historic conflicts which have undergone a profound change 
over the years, to greatly facilitate the process of social re-
construction.

    3. It is central to this strategy to move forward decisively in 
partnership with the countries which produce and those which consume 
illegal drugs, under the principles of reciprocity and equality. This 
partnership should confront the destabilizing power of the drug trade, 
one of the most profitable activities in the world, and which has not 
only contributed to the corruption of Colombian society and a 
diminished business confidence but which also feeds the violence and 
the armed conflict in Colombia through its financial support to various 
armed groups, allowing them to acquire economic power and territorial 
presence.

    4. Colombia has been working toward these objectives, dealing with 
the fight against the drug cartels and the narcoterrorism they 
unleashed. During the last decades Colombia faced the growth of 
narcotrafficking and managed to maintain a vigorous economy, without 
falling prey to the great crises which beset other Latin American 
countries. Today, Colombia confronts the worst economic crisis in its 
history, which limits its capacity to resolve its problems at a time in 
which violence, fed by drug trafficking, continues to increase.

    5. By attacking the main factors responsible for the increasing 
production of illegal crops through a comprehensive strategy, this 
joint task against drug production and trafficking will in turn ensure 
that the fight on drugs obtains important positive measurable results, 
with enormous benefits for both Colombia and the world.
                          elements of the plan
    1. An economic strategy that generates employment supports the 
ability of the State to collect tax revenues and allows the country to 
have a viable counterbalancing economic force to narco-trafficking. The 
expansion of international commerce, accompanied by enhanced access to 
foreign markets and free trade agreements that attract foreign and 
domestic investment, are key to the modemization of our economic base 
and to job creation. Such a strategy is crucial at a time when Colombia 
is confronting its worst economic crisis in seventy years, with 
unemployment reaching 20%, which in turn greatly limits the 
government's ability to confront drug trafficking and the violence it 
generates.

    2. A fiscal and financial strategy that includes tough austerity 
and adjustment measures, in order to boost economic activity and 
recover the historically excellent prestige of Colombia in the 
international financial markets.

    3. A military strategy to restructure and modernize the Colombian 
Armed Forces and the National Police, to make them more capable to re-
establish the rule of law and provide security throughout the country, 
and in combating organized crime and armed groups.

    4. A judicial and human rights strategy to reaffirm the rule of law 
and assure equal and impartial justice to all Colombians, while pushing 
ahead with the reforms already initiated among the State security 
forces to ensure their proper role in defending and respecting the 
rights and dignity of each and every Colombian.

    5. A counter-narcotics strategy, in partnership with other producer 
and consumer nations, to combat the production and consumption of 
illegal drugs; and on a national level to allow us to obstruct the flow 
of millionaire resources from drugs to various insurgent and other 
armed organizations which is fueling violence.

    6. An alternative development strategy that will promote 
agricultural and other profitable economic activity for small rural 
farmers and their families. Alternative development will also consider 
economically feasible environmental protection activities that conserve 
the forest areas to stop the dangerous expansion of illegal cultivation 
throughout the Amazon Delta and Colombia's vast natural parks, whose 
immense biodiversity and environmental importance to the entire globe 
is incalculable.

    7. A democratization and social participation strategy aimed at 
collective consciousness-raising. This strategy aims at more 
accountable local governments, community involvement in anti-corruption 
efforts and in continuing to put pressure on insurgent and other armed 
groups to end kidnapping, violence and internal displacement of 
citizens and communities. Also, this strategy will include working with 
local business and labor groups, in order to adopt newer, more 
productive models in light of a more globalized economy, and to 
strengthen our agricultural communities in the face of rural violence.

    8. A human development strategy to promote efforts to guarantee, 
within the next few years, adequate education and health, to provide 
opportunities to every young Colombian and to help vulnerable groups in 
our society, including not just those affected and displaced by 
violence but also those in conditions of extreme poverty.

    9. A peace strategy that aims at a negotiated peace agreement with 
the insurgency on the basis of territorial integrity, democracy and 
human rights, and which should strengthen the rule of law and the fight 
against drugs throughout the country.

    10. An international strategy to confirm Colombia's leadership in 
the consolidation of the principles of shared responsibility, 
integrated action and balanced treatment of the drug issue. The role of 
the international community is also vital to the success of the peace 
process provided it conforms to norms established in international law 
and is requested by the Colombian government.

                    I. Approach to Colombian Economy

                                overview
    1. The Pastrana government has had to contend with a legacy of a 
very deteriorating economic downturn. Unemployment is at an historic 
high of almost 20% and GDP has completed the third consecutive quarter 
of negative growth. Several external shocks (low coffee and other 
commodity prices, extensive earthquake damage) have exacerbated 
Colombia's economic weaknesses (rising fiscal deficit since the early 
1990's, banking sector problems). The ongoing conflict and the security 
situation are reinforcing an erosion of confidence in the economy. As 
employment opportunities continue to disappear due to the recession, 
more Colombians are pursuing livelihoods in destabilizing narcotics and 
other illegal activities.
    2. The central element in the government's strategy to restore 
confidence in the Colombian economy through measures that stabilize the 
economy, including a return to fiscal balance. These measures will lay 
a basis for sustained growth in private sector trade and investment. 
Renewed confidence--together with a healthy banking system, stable 
government finances, improvements in the security situation, increased 
Colombian exports and measures to improve the investment climate--
create an environment in which private sector growth will generate 
employment for the Colombian people.
    3. Given the need for fiscal consolidation, Colombia requires 
financial assistance to help cover its security and counter-narcotics 
spending requirements, as well as its pressing social and public 
investment needs. While narcotics traffickers and rebel groups continue 
to fund themselves through drug profits, Colombia has been forced to 
cut back in critical areas due to a growing debt and debt service 
burden. (Colombia's total debt almost doubled in the past five years, 
rising from 19.1% of GDP in 1995 to 34% in the year 1999.) As part of 
the budget cutbacks, money going to the military, police, and judicial 
system has been reduced dramatically (20%). Outside assistance is 
essential to allow the government to both consolidate its economic 
reforms and at the same time increase the flow of resources to finance 
the military effort and address the social needs of the Colombian 
population. In this manner, the government will be able to lay a sound 
foundation for private sector-led economic growth while ensuring the 
current economic situation does not generate additional employment in 
illicit economic activities.
                         stabilization measures
    1. The government is working to stabilize the macroeconomic 
environment, with particular emphasis on addressing imbalances in the 
fiscal accounts and problems within the banking sector.
    2. During the past year, public spending was cut, the VAT's base 
was widened and a special tax levied on financial transactions and 
controls on tax evasion were introduced. This second year, most civil 
servants salaries are to be frozen and more cuts will be made in 
bureaucracy and non-investment expenditure.
    3. A new set of structural reforms--the rationalization of regional 
public finance, social security reform and the creation of a regional 
liability pension fund--have been presented to the Colombian Congress. 
They seek to reduce the structural fiscal deficit and stabilize the 
debt level.
    4. Public companies and banks are to be privatized to increase 
productivity and help finance the adjustment. ISA and ISAGEN, two 
national public electric companies, and 14 smaller regional electricity 
distributors are already on the market, and so is CARBOCOL, the state's 
coal mining company. Three state owned banks will be up for 
privatization next year.
    5. Two obstacles have rendered the fiscal adjustment more 
difficult. January's earthquake in the coffee belt is demanding 
investment resources of almost 1% of GDP, and the financial strategy 
designed to prevent a banking crisis will demand almost double that 
amount.
    6. The government is closely coordinating its activities with the 
international financial institutions. The government is currently in 
discussions with the IMF regarding a three-year assistance program to 
support the government's fiscal and structural reform plan. World Bank 
and IDB assistance is supporting the government's efforts to reform the 
financial sector and public finances system.
    7. In addition, the government has prepared a social safety net to 
alleviate the negative impact that fiscal adjustment will have on the 
most vulnerable sectors of the population. With one of every five 
persons unemployed, this is a vulnerable group that includes families 
displaced from conflict areas of the country. The policy instruments 
mimic those successfully implemented in similar countries: targeted 
public works, subsidies for basic necessities (especially for children 
and single mothers), and targeted loans. The government is working with 
the IFIs to ensure the fiscal stabilization program will not jeopardize 
the most vulnerable members of society.
    8. The government requires additional outside financing in order to 
implement its strategy. Assistance is essential to minimize the short-
term negative impact of fiscal consolidation on unemployment and other 
social problems, which ultimately increase the spread of illicit 
activities.
                   promotion of trade and investment
    1. With its economy booming in the early nineties, Colombia was 
able to bring down its unemployment to just 8%, which in turn heavily 
reduced the influence of violent groups in the major cities of the 
country during the early 1990's. The recession has hit these big urban 
areas badly, with unemployment in Bogota at 20% and in Cali to close to 
23%. This has worsened, as a large portion of the money originating in 
drug trafficking is laundered through contraband imports into Colombia, 
fueling the violence, reducing state taxes, and further damaging 
employment in competing industries. Unemployment is thus impacting and 
destabilizing Colombia's cities and needs to be addressed through 
revitalization of industrial production.
    2. During the last decade, Colombia opened its traditionally closed 
economy, expanding rapidly both exports and imports. However, its 
agricultural sector suffered heavily as its production of cereals, such 
as wheat, corn, and barley, and other products such as soy beans, 
cotton and sorghum, were shown to be uncompetitive in world markets. 
The result was the loss of 700,000 hectares of agricultural production 
to imports during the decade, which in turn proved to be a critical 
blow to employment in the rural areas where Colombia's conflict is 
mainly staged. The expected modernization of agriculture has been 
extremely slow, since the permanent crops that Colombia, as a tropical 
country, is competitive in require large investments and credit as they 
have an unproductive period of several years.
    3. With no room for fiscal expansion, domestic and foreign private 
investment is crucial to recovery and the development of employment 
opportunities in licit enterprises. This new investment, however, is 
threatened by deteriorating investor confidence. Foreign investment, 
particularly, is not only necessary to help solve the continuing 
financing needs of the economy but is crucial in modernizing the 
industrial backbone of the country, thus speeding the alleviation of 
unemployment.
    4. Colombia has developed a ten-year strategic plan to expand 
trade. This is vital to the economic development of Colombia and as a 
counterbalancing force to drug trafficking, as it would help to 
encourage private sector initiatives and to expand foreign and domestic 
investment in non-traditional sectors.
    5. The Colombian plan involves developing trade intelligence on 
world demand and advancing regional and inter-regional integration 
under strategic guidelines. It also involves designing policies that 
bring together the industrial, agricultural and services sectors under 
trade policy, infrastructure building aimed at enhancing productivity, 
and supporting appropriate export-oriented technological innovation and 
human capital formation. In this effort the government will pay 
particular attention to fostering the role of small and medium 
enterprises in private sector job creation.
    6. The plan also involves the implementation of measures that would 
serve to encourage foreign investment and further promote trade 
expansion. These include the completion of the necessary steps to 
comply with existing Uruguay Round agreements, especially those dealing 
with customs valuation, intellectual property protection, and 
investment measures, as well as implementing business facilitation 
measures proposed in the FTAA negotiations. In addition, Colombia will 
take steps to promote a favorable environment for electronic commerce, 
in order to create new business opportunities and to improve the 
competitiveness of existing businesses. Colombia also recognizes that 
transparency and due process in government procurement is an essential 
element in achieving greater efficiency in the use of public funds. 
Accordingly, Colombia is committed to work for the completion of an 
agreement on transparency in government procurement with the WTO.
    7. Colombia looks to its major trading partners, including the 
United States, to expand Colombia's access to their markets for 
products for which it has a competitive advantage. The United States' 
continued support for preferential market access is vital to economic 
development in Colombia and a counterbalancing force to drug 
trafficking, as it encourages private sector initiatives and helps to 
expand investment in non-traditional sectors creating jobs that would 
otherwise go to the drug trade or to the insurgent or illegal ``self 
defense'' groups. In particular, it would be very important at an early 
date to extend the duration of the ATPA, in order to reduce the 
uncertainty affecting both trade and investment. Also, the product 
coverage of ATPA should be extended to be comparable to that extended 
to other countries in the sub-region, especially those products under 
the CBI initiative.
    8. Colombia and the United States can work jointly to negotiate a 
Bilateral Investment Treaty as a means of protecting U.S. and Colombian 
foreign investment and to move as soon as practical to negotiate ``open 
skies'' agreements to facilitate air freight and passenger services, 
for which Colombia will work to satisfy international air safety 
standards. Colombia will also explore greater use of World Bank/IDB 
resources, such as the IFC and MIGA, and will also seek more effective 
utilization of existing U.S. programs such as OPIC, EXIM, and TDA 
financing, to promote investment.
    9. Colombia must open room for alternatives not only to illegal 
crops but also to crops which respond to the challenges of a modern 
agricultural sector. This would provide employment in the rural sector 
which is vital to the success of the overall strategy for peace and 
development. Colombia needs technical and financial assistance in the 
sanitary and phytosanitary area to reduce production costs, to 
encourage greater agribusiness development, and to further advances in 
biotechnological research and development. In this regard, Colombia 
will ensure that its regulatory regime for biotechnology products is 
transparent and efficient.

                  II. Colombian Counter-drug Strategy

    1. The Colombian Government has made the fight against drug 
production and trafficking one of its top strategic priorities. 
Narcotics is a threat not only to the internal security of the nation 
but also to people in both consumer and producer nations.
    2. Drug trafficking, because of its huge profits and its 
destabilizing power, is one of the central factors generating violence 
throughout Colombia. For this reason the government must focus 
significant attention on this problem and is determined to combat 
narcotics, in terms of drug-trafficking, production, consumption and 
any other elements that support this illicit activity, which threatens 
the democratic institutions and the integrity of our nation.
    3. The strenghthening of the police and the armed forces through 
its modernization, restructuring and professionalization is crucial to 
make them more capable of reestablishing the rule of law, restoring 
security to Colombians throughout the nation and halting the 
penetration of irregular groups and organized crime, especially those 
associated with drug trafficking.
    4. The National Government of the Republic of Colombia is committed 
to implement a long-term National Counternarcotics strategy, an outline 
of which follows:
                     strategy based on human values
    1. Military and police will base their conduct on preservation of 
democratic liberties and the defense of life, honor and property of 
citizens. The strategy will give priority to the promotion of respect 
for and protection of human rights of all persons residing in Colombia.
    2. Behavior will be characterized by morality, virtue and honor and 
by the courage to confront the challenges imposed by the institutional 
mission.
Threat
    1. The phenomenon of internal violence leads to instability caused 
by four violence-generating agents groups or organizations which carry 
out aggressive actions leading to physical, psychological, economic, 
social and political violence: narcotrafficking organizations, 
subversive groups, illegal ``self defense'' groups and common 
criminals.
    2. Although the guerrilla movements have their roots in Colombia's 
rural areas and, at least in part, in ideological confrontation, over 
time their fight to expand territorial control has been financed not 
only by squeezing money from citizens and economic activities, but at 
least 30% of their income now comes from charges placed on coca leaf 
and paste obtained from intermediaries in the growing areas.
    3. The drug trade is now a destabilizing element in democratic 
society which provides inmense financial resources to illegal armed 
groups. Drug trafficking is the most important source of logistical 
support in exchange for protection of the cultivation, processing and 
trafficking of the product, by which in recent years these groups have 
enjoyed a notable increase in both manpower and arms.
    4. Insurgents and illegal ``self-defense'' groups threaten the 
state by attempting control portions of national territory, by 
disrupting order throughout the country through raids, kidnappings, 
roadblocks and terrorist attacks. The traffickers depend on coca and 
opium poppy cultivation in remote areas beyond government control--
especially in southern Colombia where there is a strong guerrilla 
presence. Much of the drug processing also occurs in the same 
geographic areas. As long as this independent source of drugs and 
revenue remains beyond enforcement powers, the insurgents, the illegal 
``self-defense'' groups and the traffickers will only grow stronger and 
the state will face a greater threat.
                           mission statement
    1. National Mission: To ensure order, stability, and the rule of 
law; guarantee sovereignty over national territory; protect the State 
and the civilian population from threats posed by illegal armed groups 
and criminal organizations; break the links between the illegal armed 
groups and the criminal drug industry that supports them.
Strategic Objectives
    Over the next six years, the goal is to reduce the cultivation, 
processing and distribution of narcotics by 50%.

    Objective No. 1: Strengthen the fight against drug trafficking and 
dismantle the trafficking organizations through an integrated effort by 
the armed forces.

  <bullet> Combat illicit cultivation through continuous and systematic 
        action of both the military and police forces, especially in 
        the Putumayo region and in Southern Colombia, and strengthen 
        the erradication capacity of the Colombian National Police. The 
        government will not tolerate ties of any kind between any 
        member of the military forces or the police and any illegal 
        armed group or force.
  <bullet> Establish military control of the south for eradication. 
        Destroy the processing structures and improve land, air, sea 
        and river interdiction of drugs and illegal precursor 
        chemicals.
  <bullet> Establish government control over key drug production areas.

    Objective No. 2: Strengthen the judicial system and combat 
corruption.

  <bullet> Strengthen the infrastructure of the Prosecutor's office, 
        the courts and the public defenders.
  <bullet> Reinforce and train the corps of police investigators.
  <bullet> Build up the group charged with fighting corruption and 
        investigating civil servants.
  <bullet> Reform the prison and jail system.
  <bullet> Apply extradition laws.
  <bullet> Obtain a proposal for oral trials in criminal cases and, in 
        the meantime, draft regulations for the present criminal 
        procedures for public trials.
  <bullet> Strengthen the infraestructure of the prosecutor's office, 
        the courts and the public defenders, especially the human 
        rights units.

    Objective No. 3: Neutralize the drug trade's financial system and 
seize its resources for the state.

  <bullet> Strengthen counter-smuggling efforts.
  <bullet> Carry out a vigorous asset seizure program.
  <bullet> Freeze and interdict bank accounts and assets inside and 
        outside the country.

    Objective No. 4: Neutralize and combat the agents of violence 
allied with the drug trade.

  <bullet> Increase security for citizens against kidnapping, extortion 
        and terrorism.
  <bullet> Halt the acquisition of arms by those groups which profit 
        from drug trafficking though a concerted international effort.

    Objective No. 5: Integrate national initiatives into regional and 
international efforts.

  <bullet> Share information and intelligence with other security 
        agencies in the country.
  <bullet> Contribute to and coordinate with regional and international 
        operations and efforts.

    Objective No. 6: Strengthen and expand plans for alternative 
development in the areas affected by drug trafficking.

  <bullet> Provide job opportunities and social services to people 
        living in the cultivation zones.
  <bullet> Promote public information campaigns on the dangers of 
        illegal drugs.
                      integrated focus of the plan
    Develop an integrated effort by the armed forces and police aimed 
at striking the narcotics cultivation zones and at breaking up the 
armed, logistics and financial structures of the drug trade through a 
continuous and systematic effort in three phases, aimed at reducing 
cultivation and production by 50% over six years:

Phase 1: Short-range military, police and judicial effort aimed at 
            Putumayo and the south and planned for one year.
Phase 2: Medium-range military, police, judicial and social effort 
            aimed at the southeastern and central parts of the country, 
            and planned for 2-3 years.
Phase 3: Extend the integrated effort throughout the country over 3-6 
            years.
                   roles, responsibilities and means
    Through its counterdrug policies, the government aims to combat 
through an integrated plan one of the violence-generating agents which 
contributes significantly to the high crime rate. Institutional 
priorities and responsibilities are the following:
Human Rights
    All units of the armed forces should ensure the protection of 
democracy and human rights as a primary responsibility in the 
performance of its counterdrug missions, as well as in their fight 
against guerrillas and self-defense groups. The armed forces will 
increase training in human rights before, during and after carrying out 
each phase. Protection of the civilian population requires an increased 
effort to fight the illegal ``self-defense'' groups in the drug growing 
and processing areas.
    Role and mission of each force: The Ministry of Defense and the 
Department of Administrative Security (DAS) will maintain their 
assigned priorities in the fight against the violence-generating 
agents, seeking to optimize results and achieve the following assigned 
objectives:

  <bullet> Military Forces--priority: insurgents, illegal ``self-
        defense'' groups, drug trafficking and organized crime.
  <bullet> National Police--priority: drug trafficking, organized crime 
        and petty crime.
  <bullet> DAS--priority: economic and financial crime against the 
        State, illegally gained wealth of individuals and of insurgent 
        groups.

    Counternarcotics operations will be planned and carried out 
jointly, developing the doctrine required for successful operations.
    Tailor and equip units to meet threats to national security and 
reapportion forces as required to execute strategic plans--emphasizing 
offensive operations while maintaining essential defense requirements. 
Develop an operational plan; emphasize training; move toward a 
professional, predominantly volunteer force; and continue to improve 
the Colombian military judicial system.
    The Armed Forces will increase the professionalization of elements 
employed in counternarcotics operations as part of a process of 
evolving toward a professional force.
    Ministries and Institutions: The Ministry of the Interior and the 
Governors and Mayors will issue those decrees and resolutions necessary 
to restrict the traffic and movement of people, weapons and legal 
materials used in the processing of illegal drugs in the targeted areas 
at the request of the military or police commander.
        basic elements of the strategy against narcotrafficking
    Even though the fight against narcotrafficking is a primary 
activity for the State's police corps, the close link with illegal, 
armed groups has made the Military Forces dedicate itself to making a 
decided and committed contribution, in an integrated and cohesive form 
in the fight against this threat.
Complimentary Actions in the Strategy
    The Armed Forces and the Police have designed a series of actions 
that support these defined roles and responsibilities:
Human Rights and Operations
    Develop an outreach campaign in an independent form by phases and 
areas that support the goals of the strategic objectives. A special 
effort to sensitize our own troops in the reaffirmation of the values, 
ethics, and the respect for Human Rights. Sensitivity action towards 
the civil population in support of operational plans and alternative 
development. Additionally an incentives-campaign aimed at members of 
armed groups and narcotraffickers to re-integrate into society.
Air Interdiction
    Consolidate control over national air space by all means necessary. 
Dissuasion of the use of the airspace (intelligence from all agencies, 
Air Force). Increase the operational range of the Colombian Air Force 
for interdiction. Supply additional help for the interdiction with the 
end result being the incremental increase in the rhythm of the 
operations and expansion of geographic coverage. Improve the air 
interdiction program with emphasis on eastern Colombia.
Marine, River and Chemical Interdiction
    Increase and improve the operational support for the Navy and the 
Marines. Improve the efforts to control the importation of precursor 
chemicals. Interdiction of precursor chemicals in air, marine, river 
and ground (Army, Infanar, Air Force, Police). Improve the controls to 
intercept the ground movement of drugs by the CNP, in ports and 
airports.
Increase CNP Operational Support by the Armed Forces
    Increase the employment of combined operations with the CNP. 
Strengthen the combined efforts between Colombia and the United States. 
Improve the protection of our own forces. Integrate the forces in 
intelligence collection and analysis. Increase the number of troops in 
operations. Increase mobility with emphasis on airmobile and riverine 
operations in the jungle. Improve the capacity of the units to conduct 
combined night operations.
Operations Against Laboratories and Stockpiles
    Destroy the processing infrastructure. (Intelligence, Army, 
Infarnar, Air Force, National Police). Combat the armed protectors of 
the narcotraffickers. (Army, Infarnar, Air Force). Increase the ability 
of the CNP and the Armed Forces to detect laboratories. Augment the 
means to destroy the infrastructure. Reduce the capability of 
commercializing precursor materials and drugs. (Intelligence, Police, 
Navy, Army, Air Force).
Eradication of Crops
    Strengthen and increase the employment of combined security 
operations during fumigation and eradication operations. Support the 
new strategies under the United Nations International Drug Control 
Program, to test and develop environmentally safe and reliable 
biological control agents, thereby providing new eradication 
technologies.
Summary
    The purpose of this strategy is to strengthen the fight against 
narcotrafficking by bringing all elements of the Police and Armed 
Forces to bear against the traffickers. The goal is to eliminate large-
scale thug production, end large-scale violence and lawlessness by 
organized armed groups, promote respect for human rights and break the 
link between armed groups and their narcotics industry support.

                       III. Justice Sector Reform

    1. Colombia is committed to continue to build a fair and effective 
justice system. Judicial sector reform will ensure a transparent, fair, 
accessible and independent system. Effective reform is a key element in 
restoring public confidence in civil society.
    2. Dealing with the traffickers and the culture of violence, 
corruption and lawlessness they support involves the entire criminal 
justice system. Particularly the trafficking of cocaine, heroin and 
other drugs threaten every aspect of civil society and these strategies 
respond accordingly.
    3. These issues cut across Colombian agencies--even across separate 
branches of Government. The Executive Branch will work closely with the 
Legislative and Judicial branches to ensure effective coordination and 
implementation of these strategies.
 i. investigate, prosecute and when found guilty, securely incarcerate 
narcotics traffickers, human rights abusers and other violent criminals
    1. Narcotics trafficking is a transnational crime that has domestic 
and international consequences. Colombia will investigate, prosecute 
and appropriately sentence major narcotics traffickers and related 
criminals. Criminals must be incarcerated in secure prisons so they 
cannot continue their crimes from jail. International criminals--who 
have broken other nations' laws-must be, in accordance to Colombian 
laws, extradited to be judged in the jurisdictions where the evidence 
of the violations has been collected and in the communities they have 
harmed. The Government will ensure that expanded counternarcotics and 
counter-insurgency efforts will not be undertaken at the expense of 
protection of democracy, human rights and the rule of law.
    2. In order to address this priority Colombia will: strengthen 
domestic and multilateral law enforcement initiatives, including a) 
multilateral investigations and joint training, and b) effective 
protection for witnesses and judicial officials; extradite 
international criminals in accordance with domestic and international 
law; improve the prison system to meet international standards for 
security, including adequate facilities and a well-trained and 
professional corrections staff, and expand multilateral initiatives to 
control and interdict illicit flows of chemical precursors, including 
potassium permanganate.
    3. The unacceptably high rates of kidnapping and violent street 
crime, in many cases related to or a product of narcotics trafficking, 
must be reduced to restore the public's sense of security and well 
being.
    4. Strategies to address this priority include: develop anti-
violence programs throughout the country involving law enforcement, 
judicial and community leaders with emphasis on narcotics related 
crime; develop, train and equip an anti-kidnapping unit to investigate 
and prosecute kidnapping crimes.
 ii. deprive criminals of illegal profits and recapture resources for 
                             civil society
    1. Combating money laundering and forfeiting illegal profits from 
traffickers (estimated at more than a billion dollars) can support law 
enforcement and demand reduction as well as other social initiatives 
(including land reform, alternative development, and the strengthening 
of civil institutions) critical to a lasting peace.
    2. Strategies to address this priority include: effectively 
implement existing asset forfeiture legislation and make necessary 
adjustments to expeditiously forfeit properties seized from criminals; 
strengthen existing law and institutions to fight money laundering, 
including the Fiscalia AFML Specialized Unit and the Financial 
Information and Analysis Unit; ensure coordination among national and 
international authorities to secure effective information sharing and 
prosecution; break the financial link between narcotics traffickers, 
the insurgency and self-defense groups through effective law 
enforcement programs and multilateral coordination; prosecutors, 
investigators and customs officials and their international 
counterparts should target and continue to coordinate efforts to 
dismantle the black market peso exchange process; complete the 
development of mechanisms to share assets forfeited in multilateral law 
enforcement efforts in accordance with international law.
    3. The Government of Colombia will move as quickly as possible to 
complete the formal expropriation of assets, especially land, that has 
been seized from convicted narcotraffickers. This land will be used, 
among other things, for the resettlement of small farmers and landless 
laborers leaving the coca-producing areas as well as those families 
displaced by rural violence.
  iii. promote transparency and accountability of the judicial system
    1. Colombia is committed to respect the rule of law and will 
continue to strengthen all aspects of the judicial system, including 
fostering the continuing transition to an accusatory system (including 
oral trials and effective investigations), speeding the movement of 
cases through the judicial process, ensuring access to justice 
throughout the nation regardless of geographic location or income. The 
Government of Colombia will provide leadership to make the judicial 
system more effective, transparent, fair and accessible.
    2. To make the judicial system more effective, the government of 
Colombia will seek to reduce impunity through improved prosecution, 
more effective investigations and speedier trials. Ensure effective 
justice sector coordination, including open communication and effective 
policy implementation among the different branches and offices of the 
state responsible for judicial reform and administration; expand 
training for judicial sector officials, including judges, public 
defenders and prosecutors to ensure openness to public scrutiny and 
just outcomes in all cases, including military cases under civilian 
jurisdiction; implement a core curriculum for judicial police 
investigators through a single judicial police training academy; ensure 
public access country-wide to justice services and a fair defense.
      iv. combat contraband and strengthen narcotics interdiction
    1. A crucial element to eliminate narcotics trafficking is to close 
the transportation routes for drugs, precursor chemicals and contraband 
(which often represents the repatriation of narcotics proceeds). This 
requires a coordinated effort at all of Colombia's ports of entry and 
borders.
    2. Strategies to address this priority include: coordinate 
effective maritime enforcement, including joint efforts between the 
Colombian Navy, the Attorney General and international counterparts to 
seize narcotics and chemicals and effectively prosecute violators; 
strengthen and expand existing port security programs to include all 
national ports of entry; improve information sharing with international 
counterparts on suspected offenders, routes and shipment trends; fully 
equip and train a Customs Police service to ensure effective airport 
and marine port control; strengthen international cooperation to fight 
contraband; work closely with other Governments, so that the private 
sector commits itself to develop effective measures to control and 
prevent contraband, by implementing a ``know your client'' policy, and 
better knowing their client's practices.
                        v. eliminate corruption
    1. Narcotics proceeds have corrupted officials in all branches of 
Government and eroded public confidence in civil institutions. Colombia 
will continue its efforts to fight corruption and ensure that violators 
are subjected to administrative or criminal sanctions, as appropriate.
    2. This will be done by: building upon existing initiatives, 
including the Presidential Program Against Corruption and the Fiscal's 
Specialized Anti-Corruption Unit; implementing effective financial 
disclosure and rigorous pre-employment and inservice integrity checks;
    3. The Government of Colombia will work through the Presidential 
Program Against Corruption and the Comptroller General to increase the 
transparency of government procurement actions and financial transfers 
to local governments. This will be accomplished through a campaign for 
public awareness of how public procurement and intergovernmental 
transfers work and through strenghtened oversight capability of key 
organizations such as the General Controller and NGO's.
                        vi. reduction of demand
    Colombia is often seen as a producer of illegal drugs but 
consumption is rapidly increasing among its population. The task of 
prevention of the consumption of illegal drugs is directed primarily at 
the young, and is designed to discourage them from starting to consume 
illicit drugs and to control the abuse of alcohol, tobacco and 
addictive medicaments. The treatment and rehabilitation networks will 
also be increased to reach many people who have no access today.

          IV. Plan for Democratization and Social Development

    1. The general objective of this strategy is to reduce the causes 
and manifestations of violence, progressively and systematically, by 
strengthening social participation and collective consciousness-
raising. This strategy aims at more accountable local governments, 
community involvement in anti-corruption efforts and in continuing to 
put pressure on insurgent and other armed groups to end kidnapping, 
violence and internal displacement of citizens and communities. Also, 
the strategy builds on social participation to generate economic, 
social and cultural conditions to make the eradication of illicit crops 
viable in peasant-economy areas and indigenous reserves.
          i. promotion, respect and protection of human rights
    1. The Colombian government has assumed, under the coordination of 
the office of the Vice President, a total commitment to the protection 
and realization of those fundamental rights which transcend internal 
laws, since Colombia is a party to numerous multilateral treaties and 
pacts.
    2. The government is complying with the following actions: 
spreading a deeper understanding of human rights through the media, and 
applying a educational model for use in the Armed Forces, supporting 
politically and materially the work of the human rights units of the 
different institutions as well as in training journalists in human 
rights and International Humanitarian Law. At the same time, the 
government is working in collaboration with the United Nations High 
Commissioner for Human Rights in Colombia.
    3. A strategy to fight against impunity, to harbor support for 
various inter-institutional committees that have been created in the 
last year and that work to push for the investigations and sanctions 
regarding the most severe cases of human rights abuse. In the same way, 
the government will have established by the end of this year a 
Permanent National Commission on Human Rights and International 
Humanitarian Law, and has presented to the Colombian Congress bills 
with respect to missing persons and crimes against humanity, and 
ratification of the International Penal Court.
    4. A strategy to protect those who work in defense of human rights, 
through the support of the Witnesses and Threatened Persons Program, 
and a Presidential order that requires all public functionaries to 
protect human rights workers and to support their work and those of 
NGOs throughout the country.
    5. The government will support the work of the human rights unit of 
the Fiscalia General de la Nacion, Procuraduria General de la Nacion 
and Human Rights Ombudsman, and will give special protection to those 
who work in defense of human-rights through enhanced security for both 
their persons and their work places.
   ii. policy for the prevention and care of the internally displaced
    1. Actions directed, as the first order, to helping those who are 
displaced to return home, and, in the second place, to guarantee 
stability through social investment and productive programs in these 
areas. The Government's strategy for attention to displaced persons 
will be closely coordinated with the peace process and the overall 
effort at increasing local government capacity. Attention to displaced 
persons will be undertaken primarily by municipal governments and 
Colombian NGOs under the leadership of the Red de Solidaridad Social. 
The Government of Colombia will also invite the participation of 
international organizations at the municipal level as a means of 
mobilizing additional resources as well as to establish independent 
verification of the local situation.
    2. According to the outlines of the Governing Principles of the 
internal displacement, the Government's action seeks to neutralize the 
causes that lead to displacement by improving security in those areas 
of highest incident. In conflictive areas, the Government will 
establish an early warning system to detect imminent violence and 
permit an appropriate response.In the cases where it is not possible to 
prevent displacement, the government will look to strengthen its 
abilities to address local needs.
    3. Develop special measures to guarantee that, each time a person 
is displaced, his or her rights will be protected, while establishing 
minimum standards for emergency humanitarian assistance with respect to 
water and hygene, nutrition, health and shelter, taking into account 
the various needs of different age groups, with special attention given 
to children, women and ethnic minorities. Wherever feasible, the 
Government of Colombia will promote Communities of Peace to which 
displaced persons can return and where delivery of social services and 
public security can be facilitated.
             iii. national plan for alternative development
    1. The Colombian policy for the voluntary abandonment of illicit 
crops by small farmers (less than 3 hectares in production) and 
plantation laborers is driven by the proximity of the producing area to 
potential markets, the origin of the people producing the illicit crop, 
and the agricultural potential of the land where illicit crops are 
being grown.
    2. In the poppy-producing areas, as well as approximately one third 
of coca-producing areas, it is generally feasible to substitute one or 
more agricultural crops for the illicit production of small farmers. In 
these areas, producers will be encouraged to abandon illicit production 
in return for assistance in establishing profitable legal crops, 
provision of education and health services, improved municipal 
infrastructure, and public security. Municipal governments, the private 
sector, and Colombian NGOs will work with the Government of Colombia in 
the establishment of sustainable crops and to strengthen the links 
between producers and local and urban markets.
    3. It is estimated that as much as 60 percent of the coca-producing 
areas are far from potential markets and in areas that are poorly 
suited to any sort of sustained agricultural production. To offer legal 
income opportunities to small farmers and laborers in such areas, the 
Colombian Government envisions three possible responses: First, farmers 
and others with an agricultural vocation will be offerred the 
opportunity to move from the coca-producing areas and resettled on land 
that has been seized from narcotics traffickers or provided by the land 
reform institute, INCORA; second, economic opportunities in small- and 
micro-enterprise will be offered in the urban areas of origin for 
migrant coca farmers, to remove the economic incentive for that 
migration; third, the Colombian Government will work with indigenous 
groups and local governments to launch economically feasible 
environmental protection activities that conserve the forested areas in 
an effort to slow the advance of the agricultural frontier into 
inappropriate areas. The conservation and protection effort will also 
generate employment for some former coca farmers.
    4. The estimated cost of the National Alternative Development Plan 
for 2000-2003 is $500 million. Of this, $350 million will be for 
technology transfer and productive enterprises, $100 million for 
infrastructure development in rural areas, and $50 million for 
conservation and restoration of environmentally fragile areas.
  iv. strategy for sustainable development in environmentally fragile 
                       areas and their protection
    1. The armed conflict affects the natural habitat, as does the 
expansion of agriculture and, most notably, illegal crops, which have 
destroyed close to one million hectares of forest between 1974 and 
1998. These zones include a high percentage of conservation areas and 
national parklands, and there is ample evidence that this process of 
expansion poses a serious threat to the vital Amazon Delta.
    2. Actions to confront this problem include restoring certain areas 
as national parklands, while also recovering forestlands \1\ which, it 
is hoped, will contribute to the global objectives to preserve the 
Amazon Delta, as noted at the Convention of Climactic Change, with 
respect to the absorption of CO2.
---------------------------------------------------------------------------
    \1\ This initiative arose in the context of the approval of the 
amendment ``Act 1961 to facilitate the protection of the tropical 
forests by helping to reduce the debt of developing countries with 
tropical forests,'' on behalf of the President of the United States, 
July 29, 1999.
---------------------------------------------------------------------------
    3. Moreover, the government will help the move away from 
unsustainable products towards those more amenable to local and 
regional conditions, strengthened by other experiences with more 
sustainable products.
    4. Finally, to support the small reforestation in the primary 
transformation of wood and non-wood products in the forest, to 
consolidate green markets that generate possibilities for local 
businesses.
 v. the role of local communities and municipalities in the social and 
                    alternative development strategy
    1. Citizens expect security, order, employment, basic services and 
a brighter future for their children. National programs such as those 
in alternative development, environmental protection, displaced persons 
and assistance to conflict zones aim to help fulfill these 
expectations, thereby reducing incentives for residents to move or to 
produce illicit crops. Local communities and municipalities play a 
critical role in helping national programs reach Colombia's citizens.
    2. Strengthening local governments' capacities to develop and carry 
out national social investment programs, work with local non-
governmental organizations and businesses in solving local problems and 
account for their performance is central to Colombia's social 
investment and alternative development strategy.
    3. The Government of Colombia will work through the Red de 
Solidaridad Social, Ministries, and NGOs to increasingly provide 
municipal governments with the technical abilities to manage funds and 
carry out activities aimed at displaced persons, alternative 
development and poverty alleviation. Up to 150 communities, in areas 
where conflictive situations or illicit crop production have disrupted 
the provision of basic services, caused environmental degradation or 
where there is the highest incidence of poverty, will be selected over 
a period of two years to participate in a local government 
strengthening program. Local government leaders will be trained in 
governance skills. Further, the local governments will be trained to 
develop mechanisms to promote public participation in the decision 
making process and in resolving social and economic problems. With this 
training local leaders will be able to prioritize community needs, 
design and implement priority initiatives to meet basic service needs 
and utilize resources available in the most effective manner.
    4. To maximize the effectiveness, local governments will work in 
partnership with the national government as well as local businesses 
and non-governmental organizations. Municipal governments will be 
encouraged to invest both local revenue and revenue from the National 
Treasury in conjunction with donor funds to support local organizations 
in addressing priority needs. The Government of Colombia will also 
invite the participation of international organizations at the 
municipal level as a means of mobilizing additional resources as well 
as establishing a means of independent verification of the local 
situation.

                            V. Peace Process

                          i. the peace process
    1. The armed conflict been waged in Colombia for more than thirty-
five years. This Administration has initiated a process that aims at a 
negotiated peace agreement with the insurgency on the basis of 
territorial integrity, democracy and human rights, and which, if 
successful, would rapidly strengthen the rule of law and the fight 
against drugs throughout the country.
    2. The peace process is one of the country's top priorities. 
President Pastrana has assumed personal leadership of the government's 
role, along with the assistance of the High Commissioner for Peace, 
appointed directly by the President. The Commissioner, whose position 
carries ministerial rank, works alongside economic and social leaders 
who are equally devoting their energies to ending the conflict.
    3. The purpose of the distension zone, an instrument created by law 
418 of 1997, is to guarantee the security necessary to advance 
negotiations with the insurgency. Within its powers the President can 
create as well as eliminate a distension zone, thereby making a 
reaffirmation of sovereignty by the State. It implies only the 
restriction of the presence of the Colombian armed forces and Police 
within the area and the suspension of warrants for arrest, without 
affecting the power of elected officials both at local and regional 
levels.
    4. The distension zone created for the negotiations with the FARC 
is a sparsely populated area accounting for 0.25 percent of the 
Colombian population. Its historically low number of inhabitants is due 
to the fact that the territory is either mountanous or infertile 
grasslands and jungle. Given the temporary character of the distension 
zone, its duration is related to the advancement of the negotiations, 
without the possibility of interfering with free local elections. The 
National Government has created and directly pays for a civil police 
force which supports the mayors in each of the municipalities.
    5. The peace process is also part of a grand alliance against 
narco-trafficking, corruption, and the violation of human rights, as 
part of the government's resumption as the sole guarantor of law and 
order. For this to become both feasible and lasting, it requires 
complimentary support in the areas of security and defense, as well as 
a partnership against drug production and consumption and a development 
plan to create jobs and reach those most in need.
                ii. the armed conflict and civil society
    1. There are three main protagonists of the conflict. On the side 
of the guerrillas, there is the FARC (Revolutionary Armed Forces of 
Colombia), and the ELN (Army of National Liberation), whose roots lie 
in rural agricultural and the cold-war, respectively. On the other side 
there are the illegal ``self defense'' groups, who seek an armed end to 
all guerrilla activities and political recognition for their 
organization. Finally, caught in the crossfire, are the great majority 
of Colombians, who often suffer at the hands of the other players.
    2. The guerrilla movement has its roots in the traditional rural 
and political problems of Colombia and, also in part, in ideological 
capitalist-communist confrontation. With time, its fight to extend its 
territorial presence as a means to aquire military and political power 
has been financed by extortion and kidnappings, and more recently, from 
charges placed on coca leaf and paste obtained from intermediaries in 
the growing areas.
    3. In the past thirty years Colombia moved from being a primarily 
rural country to an urban population, with more than seventy percent of 
its population in now in urban areas. With the end of the cold war, the 
public support that the insurgency had during the 1960's, 70's and 80's 
has dimished to the point that the polls today show only a 4 percent 
backing. The guerrillas understand that, under the circumstances, they 
will not be able to take power by way of an armed struggle. Despite the 
country's rejection of their ideology and, particularly, their methods, 
they continue to seek leverage through military means.
    4. The peace process has been set up to allow society as a whole to 
play a central role. On the one hand they can put pressure on armed 
groups for a political solution to the conflict and respect for their 
internationally recognized humanitarian rights (IHR). On the other 
hand, they can present ideas and suggestions to help move the process 
along, and which can serve as a basis for future negotiations. More 
specifically, there is a consensus regarding the necessity to reach a 
negotiated settlement to the conflict, to have a broad agenda, and to 
welcome the participation of the international community.
                       iii. the state of affairs
    1. The peace process has made real advances on several fronts. With 
the FARC, a distension zone was created as a safe haven for 
negotiations, and has helped both parties to formulate an agenda, a 
process which was completed by last May. The government and the FARC 
have agreed on a commission to accompany the process, but its 
implementation has had problems. The process has stalled on that point 
but is hoped that an agreement on the commission will be reached soon.
    2. With the ELN, the government has authorized a group of well-
known Colombians to facilitate the liberation of the hostages, and has 
agreed to initiate, immediately after their liberation, direct 
dialogues that will permit a formula to call for a National Convention.
    3. In the case of the illegal ``self defense'' groups, the 
government continues to fight them, although this does not imply that, 
with the advancement of the peace process, it is not ready to look for 
alternative peaceful ways that will dismantle their infrastructure and 
operations.
    4. During the peace process, the Armed Forces and the Police must 
continue to strengthen themselves, in order to maintain an effective 
presence throughout the country.
              iv. the role of the international community
    1. The role of the international community is vital to the success 
of the peace process. More specifically, Colombia requires support in 
two areas: diplomatic and financial. The international community can 
act as moderator, mediator, overseer or, at a later stage, verifier of 
the process. In addition, it is very important that they energetically 
reject any and all terrorist actions and violations of IHR, and to 
apply pressure to keep the process moving.
    2. In the field of bilateral cooperation, military and police 
cooperation stand out. Collective action by neighboring countries is 
not only less effective than bilateral action, but it can serve to 
obstruct the negotiating process. In this sense, to coordinate military 
and police operations and to improve border security, technological and 
equipment support would be of enormous benefit.
    3. Referring to diplomatic action by neighboring countries, at the 
present stage, the Colombian government prefers bilateral dialogue and 
confidential consultations with countries interested in the process. 
Whatever form of international participation in the peace process 
takes, it must conform to norms established by international law and be 
acceptable to the Colombian government. It must adhere strictly to the 
principles of non-intervention and non-interference with respect to 
internal affairs of state, and must be undertaken after consultation 
with, and the support of, the Colombian government.
    4. The Colombian government has set up a fund as a means of 
channeling international financial assistance directly to the peace 
process. This fund will be able to support projects designed to provide 
economic and social development to those areas hardest hit by the armed 
conflict. For this purpose a consulting group has, with the support of 
the IDB, been set to receive contributions made by various countries. 
These resources will be used to supplement those funds already 
allocated by the Colombian government.
    5. A successful peace process will also have a positive impact on 
counterdrug efforts as the Government of Colombia will be able to 
expand law enforcement and alternative development programs to those 
areas most involved in drug production. The insurgency and drug-
trafficking are problems which, though linked in certain ways, have 
distinct origins and different objectives. The guerrillas operate under 
a revolutionary political-military scheme that demands a negotiated 
solution--something that can never be accorded to narco-traffickers.

                                <all>
</pre></body></html>
